No. 21In the

Supreme Court of the United States
INFINEUM USA L.P.,
Petitioner,
v.
CHEVRON ORONITE COMPANY LLC AND ANDREW
HIRSHFELD, PERFORMING THE FUNCTIONS
AND DUTIES OF THE UNDERSECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY AND
DIRECTOR OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
David E. De Lorenzi
Counsel of Record
Jennifer A. Hradil
Christopher H. Strate
Samuel H. Megerditchian
Christine A. Gaddis
Gibbons P.C.
One Gateway Center
Newark, New Jersey 07102
973-596-4500
ddelorenzi@gibbonslaw.com
Counsel for Petitioner
306999

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Whether this Court should vacate the judgment
below in view of its recent decision in United States v.
Arthrex, Inc., 141 S. Ct. 1970 (2021), and remand so that
the United States Court of Appeals for the Federal Circuit
may in turn order the Acting Director to decide whether
to rehear the petition filed by Chevron Oronite Company
LLC.
2. Petitioner Infineum’s Appointments Clause
challenge was raised with respect to a November 6, 2019
final written decision issued after the Federal Circuit’s
Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320 (Fed.
Cir. 2019), opinion but before the issuance of the mandate
pursuant to Federal Rule of Appellate Procedure 41 and
before this Court’s decision in United States v. Arthrex,
Inc., 141 S. Ct. 1970 (2021). To the extent that this Court’s
decision in United States v. Arthrex did not foreclose the
Federal Circuit’s conclusion that the remedy ordered
by Arthrex v. Smith & Nephew cured the Appointments
Clause violation, whether the panel decision was final
and effective on the date of that decision such that the
Appointments Clause violation was cured prior to the
mandate being issued in that case.

ii
PARTIES TO THE PROCEEDINGS
Petitioner Infineum USA L.P. was the patent owner
in proceedings before the Patent Trial and Appeal Board
and the appellant in the United States Court of Appeals
for the Federal Circuit.
Respondent Chevron Oronite Company LLC was the
petitioner in the proceedings before the Patent Trial and
Appeal Board and the appellee in the Federal Circuit.
Andrew Hirschfeld, Performing the Functions
and Duties of the Undersecretary of Commerce for
Intellectual Property and Director of the United States
Patent and Trademark Office, was an intervenor in the
Federal Circuit.

iii
RULE 29.6 STATEMENT
Petitioner Infineum USA L.P. states that parent
corporations and publicly held companies that own 10%
or more of its stock are ExxonMobil Corp., Shell Oil Co.
and Infineum International Limited.

iv
RELATED PROCEEDINGS
The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):
• Infineum USA L.P. v. Chevron Oronite Company
LLC, No. 2020-1333, U.S. Court of Appeals for the
Federal Circuit. Judgment entered January 21,
2021.
• Chevron Oronite Company LLC v. Infineum USA
L.P., No. IPR2018-00923, Patent Trial and Appeal
Board. Final written decision entered November
6, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . 9
A. In light of United States v. Arthrex, this
Court should grant certiorari, vacate,
and remand to the Federal Circuit  . . . . . . . . . . 10

vi
Table of Contents
Page
B. The Federal Circuit’s Decision that the
Appointments Clause Violation Was
Remedied Before the Issuance of the
Mandate Conflicts With The Rulings in
Other Circuits and Federal Rule of Appellate
Procedure 41 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N IO N O F T H E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
JANUARY 21, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPENDI X B — J U DGMEN T OF THE
U N I T E D S T A T E S PA T E N T A N D
T R A D E M A R K O F F I C E , PA T E N T
TRIAL AND APPEAL BOARD, DATED
NOVEMBER 6, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 24a
APPENDIX C — OPINION OF THE UNITED
STATES PATENT A ND TRA DEM A RK
OFFICE, PATENT TRIAL AND APPEAL
BOARD, DATED NOVEMBER 7, 2018 . . . . . . . . . 95a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED APRIL 6, 2021 . . . . . . . . . . . . . . . . . . . . . . 121a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) . . . . . . . . . . . . . . passim
Aurelius Inv., LLC v. Puerto Rico,
915 F.3d 838 (1st Cir. 2019), overruled on other
grounds, Fin. Oversight & Mgmt. Bd. for
Puerto Rico v. Aureleius Inv., LLC,
140 S. Ct. 1649 (2020) . . . . . . . . . . . . . . . . . . . . . .  16, 17
Bedgear LLC v. Fredman Bros. Furniture Co., Inc.,
783 F. App’x 1029 (Fed. Cir. 2019) . . . . . . . . . . . . . . . 11
Bryant v. Ford Motor Co.,
886 F.2d 1526 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . . 15
Carver v. Lehman,
558 F.3d 869 (9th Cir. 2009) . . . . . . . . . . . . . . . . . 15, 19
Caterpillar Paving Prods. Inc. v.
Wirtgen Am., Inc.,
957 F.3d 1342 (Fed. Cir. 2021) . . . . . . . . . . . .  11, 12, 14
Cement Kiln Recycling Coal. v. E.P.A.,
255 F.3d 855 (D.C. Cir. 2001) . . . . . . . . . . . . . . . . . . . 16
Charpentier v. Ortco Contractors,
480 F.3d 710 (5th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 15

ix
Cited Authorities
Page
Columbia Falls Aluminum Co. v. E.P.A.,
139 F.3d 914 (D.C. Cir. 1998) . . . . . . . . . . . . . . . . . . . 16
Comer v. Murphy Oil USA, Inc.,
718 F.3d 460 (5th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 15
Daikin Indus., Ltd. v. Chemours Co. FC, LLC,
846 F. App’x 907 (Fed. Cir. 2021)  . . . . . . . . . . . . 11, 12
eBay Inc. v. MercExchange, L.L.C.,
547 U.S. 388 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Fed. Commc’ns Comm’n v. Pottsville Broad. Co.,
309 U.S. 134 (1940)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Finberg v. Sullivan,
658 F.2d 93 (3d Cir. 1980) . . . . . . . . . . . . . . . . . . . . . . 16
Flagship Marine Servs. v. Belcher Towing Co.,
23 F.3d 341 (11th Cir. 1994) . . . . . . . . . . . . . . . . . . . . 15
Iancu v. Fall Line Pats.,
No. 20-853, 2021 WL 2637823
(U.S. June 28, 2021)  . . . . . . . . . . . . . . . . . . . . . .  7-8, 13
Iancu v. Luoma,
No. 20-74, 2021 WL 2637820
(U.S. June 28, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . 8, 13

x
Cited Authorities
Page
Infineum USA L.P. v.
Chevron Oronite Co. LLC,
No. 18-323 (D. Del. Filed February 27, 2018) . . . . . . 6
Lawrence v. Chater,
516 U.S. 163 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Mary Ann Pensiero, Inc. v. Lingle,
847 F.2d 90 (3d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . . 15
Meredith v. Fair,
83 S. Ct. 10 (1962) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Nat. Res. Def. Council v. E.P.A.,
489 F.3d 1250 (D.C. Cir. 2007) . . . . . . . . . . . . . . . . . . 16
Nuance Commc’ns Inc. v. MModal LLC,
847 F. App’x 860 (Fed. Cir. 2021) . . . . . . . . . . . . . 11, 12
Parker v. District of Columbia,
No. 04-7041, 2007 WL 2892852
(D.C. Cir. Sept. 25, 2007) . . . . . . . . . . . . . . . . . . . . . . 16
Parker v. District of Columbia,
478 F.3d 370 (D.C. Cir. 2007) . . . . . . . . . . . . . . . . . . . 16
Polaris Innovations Ltd. v. Kingston Tech. Co.,
No. 19-1459, 2021 WL 2637818
(U.S. June 28, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . 8, 13

xi
Cited Authorities
Page
Rogers v. Hill,
289 U.S. 582 (1933) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
RPM Int’l Inc. v. Stuart,
No. 20-314, 2021 WL 2637821
(U.S. June 28, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . 8, 13
Sprague v. Ticonic Nat. Bank,
307 U.S. 161 (1939)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Transtex Inc. v. Laydon Composites Ltd.,
848 F. App’x 901 (Fed. Cir. 2021) . . . . . . . . . . . . . 11, 12
Uniloc 2017 LLC v. Facebook, Inc.,
783 F. App’x 1020 (Fed. Cir. 2019) . . . . . . . . . . . . . . . 11
United States v. Arthrex, Inc.,
141 S. Ct. 1970, 1988 (2021)  . . . . . . . . . . . . . . . . passim
United States v. Jackson,
549 F.3d 963 (5th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 15
United States v. Ruiz,
935 F.2d 1033 (9th Cir. 1991) . . . . . . . . . . . . . . . . . . . 15
United States v. Simmons,
923 F.2d 934 (2d Cir. 1991) . . . . . . . . . . . . . . . . . . . . . 15

xii
Cited Authorities
Page
STATUTES AND OTHER AUTHORITIES
U.S. Const. art. II, § 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const., art. II, § 2, cl. 2 . . . . . . . . . . . . . . . . . . . . . . 10
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1295(a)(4)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . 6
35 U.S.C. § 6  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
35 U.S.C. § 141  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
35 U.S.C. § 318  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 7
35 U.S.C. § 319  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Appellant’s Br., Veveo, Inc. v. Hirshfeld, No.
2020-2214 (Fed. Cir. Jan. 22, 2021) . . . . . . . . . . . . . . . 8
Appellant’s Opening Br., Corephotonics, Ltd. v. Apple
Inc., No. 2020-1424 (Fed. Cir. July 14, 2020) . . . . . . . 8
Appellant’s Opening Br., Sipco LLC v. Emerson Elec.
Co., No. 2021-1039 (Fed. Cir. Mar. 22, 2021)  . . . . . . . 8
Fed. R. App. P. 41 . . . . . . . . . . . . . . . . . . . . . . . . . .  3, 14, 17
Fed. R. App. P. 41(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

xiii
Cited Authorities
Page
Fed. R. App. P. 41(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Fed. R. App. P. 41(d) . . . . . . . . . . . . . . . . . . . . . . . . . .  17, 18
Fed. R. App. P. 41(a)-(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 4
Oral Order, Infineum USA L.P. v. Chevron
Oronite Co., No. 18-323 (D. Del. Feb. 5, 2019) . . . . . . 6
Order, Corephotonics, Ltd. v. Apple Inc., No.
2020-1424 (Fed. Cir. July 26, 2021) . . . . . . . . . . . . 8, 14
Order, Sipco, LLC v. Emerson Elec. Co., Nos.
2021-1039, -1040 (Fed. Cir. Aug. 2, 2021) . . . . . . . 8, 14
Order, Veveo, Inc. v. Hirshfeld, Nos. 2020-2214,
-2215, -2216, -2217 (Fed. Cir. Aug. 3, 2021)  . . . . . 8, 14

1
Petitioner Infineum USA L.P. respectfully petitions
for writ of certiorari to review the judgment of the United
States Court of Appeals for the Federal Circuit.
OPINIONS AND ORDERS BELOW
The opinion of the United States Court of Appeals
for the Federal Circuit is not published in the Federal
Reporter but is reported at 844 F. App’x 297 (Fed. Cir.
2021). App. 1a. The Federal Circuit’s order denying
rehearing and rehearing en banc is unreported. App.
121a. The Patent Trial and Appeal Board’s opinion and
order instituting the inter partes review (IPR2018-00922)
is unreported. App. 95a. The Patent Trial and Appeal
Board’s final written decision is unreported. App. 24a.
STATEMENT OF JURISDICTION
The Federal Circuit entered its judgment on January
21, 2021, App. 1a, and denied a timely petition for panel
rehearing and rehearing en banc on April 6, 2021, id. at
121a. This Court’s July 19, 2021 Order extended the time
to file this Petition to September 3, 2021. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1. The Appointments Clause of the Constitution
provides that the President:
shall nominate, and by and with the advice
and consent of the Senate, shall appoint
ambassadors, other public ministers and

2
consuls, judges of the Supreme Court, and
all other officers of the United States, whose
appointments are not herein otherwise provided
for, and which shall be established by law: but
the Congress may by law vest the appointment
of such inferior officers, as they think proper,
in the President alone, in the courts of law, or
in the heads of departments.
U.S. Const. art. II, § 2.
2. Title 35 of the United States Code provides in
relevant part:
§ 318. DECISION OF THE BOARD
(a) Final Written Decision.—
If an inter partes review is instituted
and not dismissed under this chapter,
the Patent Trial and Appeal Board
shall issue a final written decision
with respect to the patentability of
any patent claim challenged by the
petitioner and any new claim added
under section 316(d).
(b) Certificate.—
If the Patent T r ial and Appeal
Board issues a final written decision
under subsection (a) and the time for
appeal has expired or any appeal has
terminated, the Director shall issue

3
and publish a certificate canceling any
claim of the patent finally determined
to be unpatentable, confirming any
claim of the patent determined to be
patentable, and incorporating in the
patent by operation of the certificate
any new or amended claim determined
to be patentable.
35 U.S.C. § 318.
§ 6. Patent Trial and Appeal Board
(c) 3-Member Panels.—
Each appeal, derivation proceeding,
post-grant review, and inter partes
review shall be heard by at least 3
members of the Patent Trial and
Appeal Board, who shall be designated
by the Director. Only the Patent
Trial and Appeal Board may grant
rehearings.
35 U.S.C. § 6.
3. Federal Rule of Appellate Procedure 41 provides
in relevant part:
Mandate: Contents; Issuance and Effective Date;
Stay
(a) Contents. Unless the court directs that a
formal mandate issue, the mandate consists of

4
a certified copy of the judgment, a copy of the
court’s opinion, if any, and any direction about
costs.
(b) When Issued. The court’s mandate must
issue 7 days after the time to file a petition
for rehearing expires, or 7 days after entry of
an order denying a timely petition for panel
rehearing, petition for rehearing en banc, or
motion for stay of mandate, whichever is later.
The court may shorten or extend the time by
order.
(c) Effective Date. The mandate is effective
when issued.
(d) Staying the Mandate Pending a Petition for
Certiorari.
(1) Motion to Stay. A party may move
to stay the mandate pending the filing
of a petition for a writ of certiorari in
the Supreme Court. The motion must
be served on all parties and must
show that the petition would present
a substantial question and that there
is good cause for a stay.
Fed. R. App. P. 41(a)-(d)(1).
STATEMENT OF THE CASE
On June 21, 2021, this Court issued its decision in
United States v. Arthrex vacating the Federal Circuit’s

5
decision and judgment in Arthrex, Inc. v. Smith &
Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019). 141 S.
Ct. 1970, 1988 (2021). First addressing “whether the
[Patent Trial and Appeal Board’s (“PTAB’s”)] structure
is consistent with the Appointments Clause”, id. at 1978,
this Court held “that the unreviewable authority wielded
by [Administrative Patent Judges (“APJs”)] during inter
partes review is incompatible with their appointment by
the Secretary to an inferior office.” Id. at 1985. This Court
further held “that 35 U.S.C. §6(c) is unenforceable as
applied to the Director insofar as it prevents the Director
from reviewing the decisions of the PTAB on his own.” Id.
at 1987. With respect to the appropriate remedy for this
constitutional violation, this Court held that a patent owner
aggrieved by such a decision of the PTAB in inter partes
review (“IPR”) “is not entitled to a hearing before a panel
of new APJs” under the Constitution. Id. at 1988. Rather,
this Court concluded that “the appropriate remedy is a
remand to the Acting Director for him to decide whether
to rehear the petition filed by Smith & Nephew.” Id. at
1987. This Court reasoned further that “[w]hat matters is
that the Director have the discretion to review decisions
rendered by APJs” and that “[i]n this way, the President
remains responsible for the exercise of executive power
–and through him, the exercise of executive power remains
accountable to the people.” Id. at 1988.
Before this Court’s ruling in Arthrex, the Federal
Circuit applied its holding in Arthrex, Inc. v. Smith &
Nephew, Inc., 941 F.3d 1320, to other challenges to the
IPR statute, including that of Petitioner Infineum.
As the parties sought further review of the Federal
Circuit’s decision in Arthrex, Inc. v. Smith & Nephew, Inc.,

6
941 F.3d 1320, Infineum USA L.P. (“Infineum”) sought
review in the Federal Circuit of a final written decision
from the PTAB.
Infineum, the assignee of United States Patent No.
6,723,685 (the “’685 patent”), sued respondent Chevron
Oronite Company LLC (“Oronite”) in the United States
District Court for the District of Delaware, on February
27, 2018, for infringement of the ‘685 patent. See Infineum
USA L.P. v. Chevron Oronite Co. LLC, No. 18-323 (D. Del.
Filed February 27, 2018).
On April 16, 2018, Oronite filed three petitions for
inter partes review, IPR2018-00922, IPR2018-00923 and
IPR2018-00924, against the ‘685 patent. See App. 26a; id.
at 97a. On November 7, 2018, the PTAB instituted review
of the claims of the ‘685 patent in IPR2018-00922 and
denied the request to review the claims of the ‘685 patent
in IPR2018-00923 and IPR2018-00924. See id. at 26a; id.
at 96a. The proceedings in the District of Delaware were
stayed pending IPR2018-00922. See Oral Order, Infineum
USA L.P. v. Chevron Oronite Co. LLC, No. 18-323 (D. Del.
Feb. 5, 2019), ECF No. 62.
Thereafter, Infineum filed a Patent Owner Response,
Oronite filed a Reply and Infineum filed a Sur-reply. App.
25a. On November 6, 2019, the PTAB issued the final
written decision, which determined that all challenged
claims were unpatentable. Id. at 24a-93a.
Infineum timely appealed to the United States Court
of Appeals for the Federal Circuit from the PTAB’s final
written decision. See id. at 2a. The Federal Circuit had
jurisdiction over the appeal under 28 U.S.C. § 1295(a) (4) (A)

7
and 35 U.S.C. §§ 141, 318-319. On appeal, Infineum argued,
inter alia, that in view of the Federal Circuit’s decision
in Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320
(Fed. Cir. 2019), at the time the final written decision
of the PTAB was issued there was a violation of the
Appointments Clause of the United States Constitution.
Id. at 21a. Infineum also argued that, as a result of that
violation, the IPR proceedings should be dismissed or,
consistent with the Federal Circuit’s decision, vacated
and remanded to a new panel of APJs because the PTAB
had issued its final written decision prior to the issuance
of the mandate in Arthrex. Id. at 21a-22a.
On January 21, 2021, the Federal Circuit affirmed
the final written decision. Id. at 23a. With respect to the
Appointments Clause argument, the Federal Circuit held
that its invalidation of the tenure provision was effective
on the date its decision in Arthrex v. Smith & Nephew
was issued. Id. at 22a. According to the Federal Circuit,
because the invalidation of the tenure provision cured
the constitutional infirmity on that date and before the
final written decision was issued in this case in IPR201800922, there was no constitutional violation warranting
a remand. Id. In denying Infineum’s request for remand,
the Federal Circuit rejected Infineum’s argument that
the remedy ordered in Arthrex v. Smith & Nephew was
not effective until the issuance of the mandate pursuant
to Federal Rule of Appellate Procedure 41. Id. at 21a-22a.
In light of the United States v. Arthrex ruling,
this Court has granted other petitions for certiorari
that similarly challenged the IPR statute, vacated the
underlying Federal Circuit’s decisions and remanded
those proceedings to the Federal Circuit. See Iancu v. Fall

8
Line Pats., No. 20-853, 2021 WL 2637823, at *1 (U.S. June
28, 2021); Polaris Innovations Ltd. v. Kingston Tech. Co.,
No. 19-1459, 2021 WL 2637818, at *1 (U.S. June 28, 2021);
RPM Int’l Inc. v. Stuart, No. 20-314, 2021 WL 2637821, at
*1 (U.S. June 28, 2021); Iancu v. Luoma, No. 20-74, 2021
WL 2637820, at *1 (U.S. June 28, 2021).
Further, since this Court’s Ar threx decision,
the Federal Circuit has granted requests to remand
proceedings “for the limited purpose of allowing appellant
the opportunity to request Director rehearing of the final
written decisions.” E.g. Order at 2, Sipco, LLC v. Emerson
Elec. Co., Nos. 2021-1039, -1040 (Fed. Cir. Aug. 2, 2021),
ECF No. 34; Order at 2, Veveo, Inc. v. Hirshfeld, Nos. 20202214, -2215, -2216, -2217 (Fed. Cir. Aug. 3, 2021), ECF No.
51; Order at 2, Corephotonics, Ltd. v. Apple Inc., No. 20201424 (Fed. Cir. July 26, 2021), ECF No. 67. This includes
proceedings in which an Appointments Clause challenge
was raised after the Federal Circuit’s decision in Arthrex
v. Smith & Nephew but before this Court’s decision in
United States v. Arthrex. See Appellant’s Opening Br. at
73, Sipco LLC v. Emerson Elec. Co., No. 2021-1039 (Fed.
Cir. Mar. 22, 2021), ECF No. 21; Appellant’s Br. at 8-18,
Veveo, Inc. v. Hirshfeld, No. 2020-2214 (Fed. Cir. Jan.
22, 2021), ECF No. 28; Appellant’s Opening Br. at 15-26,
Corephotonics, Ltd. v. Apple Inc., No. 2020-1424 (Fed.
Cir. July 14, 2020).
Consequently, parties that are similarly situated to
Infineum have been afforded the constitutional remedy
provided for by United States v. Arthrex.

9
REASONS FOR GRANTING THE PETITION
If the Federal Circuit had the benefit of this Court’s
decision in United States v. Arthrex when considering
Infineum’s appeal, it would have been compelled to allow
Infineum to seek Director rehearing of the PTAB’s final
written decision. If the Federal Circuit ruling in this case
stands, the final written decision in IPR2018-00922 will
be insulated from executive review, which this Court has
now held is a violation of the Appointments Clause. See
Arthrex, 141 S. Ct. at 1985 (“We hold that the unreviewable
authority wielded by APJs during IPR is incompatible
with their appointment by the Secretary to an inferior
office.”). This Court should therefore grant certiorari,
vacate the judgment below, and remand so that the
Federal Circuit may in turn permit Infineum to request
Director rehearing of the final written decision consistent
with United States v. Arthrex.
Furthermore, to the extent that the Federal Circuit’s
decision may nevertheless be considered to have cured the
Appointments Clause violation (albeit through a remedy
that this Court did not adopt), the Federal Circuit’s ruling
that the Appointments Clause violation was remedied on
the date of its opinion in Arthrex v. Smith & Nephew and
not upon the issuance of the mandate in that case puts
the Federal Circuit in direct conflict with numerous other
circuits, and that ruling is inconsistent with authority from
this Court and the plain language of the Federal Rules
of Appellate Procedure. The final written decision in this
case was issued on November 6, 2019, before the issuance
of the mandate in Arthrex v. Smith & Nephew. Because
the Arthrex v. Smith & Nephew ruling invalidating the
tenure provision of the IPR statute was not effective until

10
the issuance of the mandate, the final written decision in
this case was rendered under an unconstitutional regime
of inter parties review. Accordingly, even if the Court were
to allow for the Arthrex v. Smith & Nephew remedy to have
effectively cured the constitutional infirmity, the Federal
Circuit’s ruling in this matter errs in concluding that the
infirmity was cured prior to the final written decision in
this case was entered. As a result, if this Court does not
grant certiorari, vacate the judgment below and remand
the case for proceedings consistent with United States v.
Arthrex, this Court should grant certiorari to determine
whether a remedy ordered by a court of appeals takes
effect prior to the issuance of the mandate.
A. In light of United States v. Arthrex, this Court
should grant certiorari, vacate, and remand to the
Federal Circuit.
After the Federal Circuit denied Infineum’s request
for rehearing and before this Petition was filed, this
Court issued its opinion in United States v. Arthrex,
which vacated the Federal Circuit precedent upon which
the judgment in this case is based and ordered that the
matter be remanded to the “Acting Director for him to
decide whether to rehear the petition filed by Smith &
Nephew.” Arthrex, 141 S. Ct. at 1987, 1988. The same
result is appropriate here.
As in Arthrex, Infineum challenged the IPR statute as
unconstitutionally affording APJ’s unreviewable authority
absent the nomination and confirmation required by the
Appointments Clause, U.S. Const., art. II, § 2, cl. 2. App.
21a. The Federal Circuit in Arthrex v. Smith & Nephew
held that APJs were principal officers, “not inferior

11
officers under the direction of the Secretary or Director.”
Arthrex, 141 S. Ct. at 1978. To fix the constitutional
violation, “the Federal Circuit invalidated the tenure
protections for APJs.” Id. “The Federal Circuit vacated
the PTAB’s decision and remanded for a fresh hearing
before a new panel of APJs, who would no longer enjoy
protection against removal.” Id.
Following its decision in Arthrex v. Smith & Nephew,
in matters where the appellant “raised an Appointments
Clause challenge in its opening brief,” the Federal Circuit
began immediately ordering the final written decisions
vacated. Uniloc 2017 LLC v. Facebook, Inc., 783 F. App’x
1020, 1021 (Fed. Cir. 2019); Bedgear LLC v. Fredman
Bros. Furniture Co., Inc., 783 F. App’x 1029, 1030 (Fed.
Cir. 2019). The Federal Circuit also remanded those
cases to the PTAB “for proceedings consistent with [its]
decision in Arthrex.” Uniloc 2017 LLC, 783 F. App’x at
1021; Bedgear LLC, 783 F. App’x at 1030.
However, in matters where the appellant, like Infineum
here, raised an Appointments Clause challenge to a final
written decision issued after the Federal Circuit’s Arthrex
v. Smith & Nephew opinion but before the mandate issued,
the Federal Circuit held that there was no Appointments
Clause violation. App. 21a-22a; Caterpillar Paving Prods.
Inc. v. Wirtgen Am., Inc., 957 F.3d 1342, 1343 (Fed. Cir.
2021); Daikin Indus., Ltd. v. Chemours Co. FC, LLC, 846
F. App’x 907, 912 n.5 (Fed. Cir. 2021); Transtex Inc. v.
Laydon Composites Ltd., 848 F. App’x 901, 905 n.3 (Fed.
Cir. 2021); Nuance Commc’ns Inc. v. MModal LLC, 847
F. App’x 860, 869 (Fed. Cir. 2021). The Federal Circuit
reasoned that the constitutional defect was cured on
the date that the decision was issued. See App. 21a-22a;

12
Caterpillar, 957 F.3d at 1343; Daikin, 846 F. App’x at 912
n.5; Transtex Inc., 848 F. App’x at 905 n.3; Nuance, 847
F. App’x at 869. Thus, according to the Federal Circuit,
there was no Appointments Clause violation when the
final written decision was issued in IPR2018-00922, App.
21a-22a, notwithstanding the fact that it was issued before
any remedy for the constitutional defect took effect.
Subsequently, this Court in United States v. Arthrex,
vacated the Federal Circuit’s decision and the “fix”
ordered by the Federal Circuit. 141 S. Ct. at 1988.
Instead, this Court held that the appropriate cure is to
“hold that 35 U.S.C. §6(c) is unenforceable as applied to
the Director insofar as it prevents the Director from
reviewing the decisions of the PTAB on his own.” Id. at
1987. Further, “the appropriate remedy is a remand to the
Acting Director for him to decide whether to rehear the
[IPR petition].” Id. Consequently, contrary to the Federal
Circuit’s holding in this matter, Infineum was denied the
opportunity required by the Constitution to request a
rehearing by the Director in IPR2018-00922.
This Court’s decision in United States v. Arthrex
constitutes an intervening development that would have
changed the Federal Circuit’s determination in this case.
See Lawrence v. Chater, 516 U.S. 163, 167-68 (1996). As
this Court has reasoned, a GVR may be appropriate
[w]here intervening developments, or recent
developments that we have reason to believe
the court below did not fully consider, reveal a
reasonable probability that the decision below
rests upon a premise that the lower court would
reject if given the opportunity for further

13
consideration, and where it appears that such
a redetermination may determine the ultimate
outcome of the litigation . . . [depending also] on
the equities of the case.
Id. The equities do not weigh against this Court granting
GVR as this is not a case where “the intervening
development . . . is part of an unfair or manipulative
litigation strategy, or [where] the delay and further cost
entailed in a remand are not justified by the potential
benefits of further consideration by the lower court.” Id. at
168. This is an appropriate case for the issuance of a GVR
because allowing the Federal Circuit’s ruling to remain in
place notwithstanding this Court’s intervening decision
in United States v. Arthrex would deprive Infineum of the
opportunity to seek an additional level of review that this
Court ruled is required to make the PTAB’s structure
consistent with the Appointments Clause. See Arthrex,
141 S. Ct. at 1987 (“In sum, we hold that 35 U.S.C. § 6(c)
is unenforceable as applied to the Director insofar as it
prevents the Director from reviewing the decisions of the
PTAB on his own.”).
In fact, this Court has already granted, vacated, and
remanded petitions in view of United States v. Arthrex
for petitioners that, similar to Infineum, challenged the
IPR statute under the Appointments Clause. See Fall
Line Pats., No. 20-853, 2021 WL 2637823, at *1; Polaris
Innovations Ltd., No. 19-1459, 2021 WL 2637818, at *1;
RPM Int’l Inc., No. 20-314, 2021 WL 2637821, at *1;
Luoma, No. 20-74, 2021 WL 2637820, at *1. Further, the
Federal Circuit, consistent with this Court’s decision in
United States v. Arthrex, is granting requests to remand
proceedings to the USPTO so that requests for rehearing

14
may be submitted to the Director. See, e.g., Order at 2,
Sipco LLC v. Emerson Electric Co., Nos. 2021-1039, -1040
(Fed. Cir. Aug. 2, 2021), ECF No. 34; Order at 2, Veveo, Inc.
v. Hirshfeld, Nos. 2020-2214, -2215, -2216, -2217 (Fed. Cir.
Aug. 3, 2021), ECF No. 51; Order at 2, Corephotonics, Ltd.
v. Apple Inc., No. 2020-1424 (Fed. Cir. July 26, 2021), ECF
No. 67. Infineum is entitled to the same constitutionally
required remedy that similarly situated litigants have
been afforded.
Thus, this Court should grant certiorari, vacate
the judgment below, and remand so that the Federal
Circuit may in turn permit Infineum to request Director
rehearing of the final written decision consistent with
United States v. Arthrex.
B. The Federal Circuit’s Decision that the Appointments
Clause Violation Was Remedied Before the Issuance
of the Mandate Conflicts With The Rulings in Other
Circuits and Federal Rule of Appellate Procedure
41.
The Federal Circuit, relying on its precedential
decision in Caterpillar Paving Prods. Inc. v. Wirtgen
Am., Inc., 957 F.3d 1342 (Fed. Cir. 2020), concluded that
the Appointments Clause violation was remedied under
Arthrex v. Smith & Nephew on the date that opinion was
issued, and, therefore, here, there was “no Appointments
Clause violation because the [PTAB’S] final written
decision issued after Arthrex was decided.” App. 22a. In
other words, the Federal Circuit found that its Arthrex
v. Smith & Nephew decision was final and the disposition
took effect before the mandate issued under Federal Rule
of Appellate Procedure 41.

15
Other circuits do not apply the same standard; the
First, Second, Third, Fifth, Ninth, Eleventh and District
of Columbia Circuits have all held that “[a] Court of
Appeals decision does not become effective until its
mandate issues.” United States v. Simmons, 923 F.2d
934, 956 (2d Cir. 1991); see also Mary Ann Pensiero, Inc.
v. Lingle, 847 F.2d 90, 97 (3d Cir. 1988) (“An appellate
court’s decision is not final until its mandate issues.”);
Bryant v. Ford Motor Co., 886 F.2d 1526, 1529 (9th Cir.
1989) (“‘An appellate court’s decision is not final until
its mandate issues.’” (quoting Mary Ann Pensiero, 847
F. 2d at 97)); Carver v. Lehman, 558 F.3d 869, 879 n. 16
(9th Cir. 2009) (“[U]ntil the mandate issues, an opinion
is not fixed as ‘settled Ninth Circuit law,’ and reliance on
the opinion is a ‘gamble.’” (quoting United States v. Ruiz,
935 F.2d 1033, 1037 (9th Cir. 1991)); Charpentier v. Ortco
Contractors, 480 F.3d 710, 713 (5th Cir. 2007) (holding that
the petitioner was required to continue paying benefits
until the date that the mandate issued and rejecting the
argument that an award ceased to exist “on the date we
issued our opinion [vacating the award]” and reasoning
“our decision is not final until we issue a mandate”); United
States v. Jackson, 549 F.3d 963, 980 (5th Cir. 2008) (The
defendant’s “convictions did not cease to exist when the
panel opinion vacating them was entered.”); Comer v.
Murphy Oil USA, Inc., 718 F.3d 460, 468 (5th Cir. 2013)
(“Absent the issuance of a mandate, ‘the original district
court judgment remain[s] in effect.’” (quoting Jackson,
549 F.3d at 980)). As each of these circuits has recognized,
“[u]ntil the mandate issues, an appellate judgment is not
final; the decision reached in the opinion may be revised
by the panel, or reconsidered by the en banc court, or
certiorari may be granted by the Supreme Court.”
Flagship Marine Servs. v. Belcher Towing Co., 23 F.3d
341, 342 (11th Cir. 1994).

16
The District of Columbia Circuit, which routinely
reviews constitutional challenges and challenges to
agency regulations, recognizes that its dispositions in
such cases do not automatically take effect and may
be stayed by staying the issuance of the mandate. See
Parker v. District of Columbia, No. 04-7041, 2007 WL
2892852, at *1 (D.C. Cir. Sept. 25, 2007) (denying motion
to lift the stay of a mandate on a decision finding certain
District of Columbia gun laws unconstitutional in Parker
v. District of Columbia, 478 F.3d 370, 373-76 (D.C. Cir.
2007)); Columbia Falls Aluminum Co. v. E.P.A., 139 F.3d
914, 924 (D.C. Cir. 1998) (“Our decision leaves EPA without
a regulation governing spent potliner. If EPA wishes to
promulgate an interim treatment standard, the Agency
may file a motion in this court to delay issuance of this
mandate in order to allow it a reasonable time to develop
such a standard.”); Nat. Res. Def. Council v. E.P.A., 489
F.3d 1250, 1262 (D.C. Cir. 2007) (same); Cement Kiln
Recycling Coal. v. E.P.A., 255 F.3d 855, 872 (D.C. Cir.
2001) (same). The Third Circuit has followed the same
course. See Finberg v. Sullivan, 658 F.2d 93, 94-95 (3d Cir.
1980) (noting that the court had not yet issued a mandate
where the underlying “opinion invalidated provisions of
state law” and certain parties moved to stay the mandate
“in order that they could proceed in the United States
Supreme Court before the directive issued that would
strike down the invalid rules”).
The First Circuit has likewise recognized that its
rulings are not immediately effective. See Aurelius Inv.,
LLC v. Puerto Rico, 915 F.3d 838 (1st Cir. 2019), overruled
on other grounds, Fin. Oversight & Mgmt. Bd. for Puerto
Rico v. Aureleius Inv., LLC, 140 S. Ct. 1649 (2020). In
Aureleius, before this Court overturned that ruling on

17
the merits, the First Circuit held that the members of the
Financial Oversight and Management Board for Puerto
Rico were “principal” officers of the United States, who
must be appointed in accordance with requirements of
the Appointments Clause. Aurelius, 915 F.3d at 860-61.
However, the First Circuit recognized that its holding did
not have immediate effect and stayed the issuance of its
mandate “for 90 days, so as to allow the President and the
Senate to validate the currently defective appointments
or reconstitute the Board in accordance w ith the
Appointments Clause.” Id. at 863. Contrary to the Federal
Circuit’s ruling here, these courts have all recognized that
the mechanism for staying a court of appeals’ ruling is a
stay of the mandate because the ruling becomes effective
upon the issuance of the mandate.
The rule applied by the majority of the circuits is in
keeping with the plain language of the Federal Rules
of Appellate Procedure. Federal Rule of Appellate
Procedure 41 provides for the issuance of a mandate by
the court of appeals. “Unless the court directs that a
formal mandate issue, the mandate consists of a certified
copy of the judgment, a copy of the court’s opinion, if
any, and any direction about costs.” Fed. R. App. P.
41(a). “The mandate is effective when issued.” Fed. R.
App. P. 41(c). Further, Rule 41 allows a court of appeals
to stay the issuance of a mandate. Fed. R. App. P. 41(d).
The advisory committee’s note accompanying the 1998
amendments to Rule 41 observes with respect to subsection (c) that “[a] court of appeals’ judgment or order is
not final until issuance of the mandate; at that time the
parties’ obligations become fixed.” Fed. R. App. P. 41(c)
advisory committee’s note to 1998 amendment. With
respect to staying the mandate pending a petition for a

18
panel rehearing or rehearing en banc, the same committee
note states that “[t]he Committee’s objective is to treat a
request for a rehearing en banc like a petition for panel
rehearing so that a request for a rehearing en banc will
suspend the finality of the court of appeals’ judgment and
delay the running of the period for filing a petition for writ
of certiorari.” Fed. R. App. P. 41(d) advisory committee’s
note to 1998 amendment.
The rule adopted by the majority of circuits is also
consistent with this Court’s long-standing recognition
that it is the mandate that “give[s] effect to the ruling of
the appellate court . . . . ” Rogers v. Hill, 289 U.S. 582, 587
(1933). It is the appellate mandate that binds the lower
courts and agencies and is ultimately what resolves the
matters on appeal. Sprague v. Ticonic Nat. Bank, 307 U.S.
161, 168 (1939) (“The general proposition which moved that
Court—that it was bound to carry the mandate of the upper
court into execution and could not consider the questions
which the mandate laid at rest—is indisputable.”); Fed.
Commc’ns Comm’n v. Pottsville Broad. Co., 309 U.S. 134,
140 (1940) (“The Court of Appeals invoked against the
Commission the familiar doctrine that a lower court is
bound to respect the mandate of an appellate tribunal and
cannot reconsider questions which the mandate has laid
at rest.”). “While a mandate is controlling as to matters
within its compass, on the remand a lower court is free
as to other issues.” Sprague, 307 U.S. at 168. When the
mandate is stayed, the remedy ordered by the court of
appeals is not in effect and cannot be acted upon. See
Meredith v. Fair, 83 S. Ct. 10, 11 (1962) (“I am therefore
of the opinion that all the stays issued by Judge Cameron
should be and they are hereby vacated, that the judgment
and mandate of the Court of Appeals should be obeyed, and

19
that pending final action by this Court on the petition for
certiorari the respondents should be and they are hereby
enjoined from taking any steps to prevent enforcement of
the Court of Appeals’ judgment and mandate.”).
The reason that an appellate judgment is not given
effect until the mandate issues is clear.
Until the mandate has issued, opinions can be,
and regularly are, amended or withdrawn, by
the merits panel at the request of the parties
pursuant to a petition for panel rehearing, in
response to an internal memorandum from
another member of the court who believes that
some part of the published opinion is in error,
or sua sponte by the panel itself.
Carver, 558 F.3d at 878-79. In other words, the appellate
court may change the disposition provided for in the
opinion. The Federal Circuit’s decision below departs from
this well-established standard.
In light of United States v. Arthrex, this Petition
should be granted, vacating the Federal Circuit’s decision
and remanding for further proceedings consistent with
United States v. Arthrex. Nevertheless, to the extent that
this Court concludes that the United States v. Arthrex
decision did not foreclose the Federal Circuit’s conclusion
that the remedy ordered in Arthrex v. Smith & Nephew
cured the constitutional infirmity, the Federal Circuit’s
decision results in a fundamental misapplication of the
function of the mandate that should be resolved by this
Court.

20
While the Federal Circuit’s jurisdiction has a unique
nature and the subject matter addressed by the Federal
Circuit can be different from other courts of appeals at
times, this Court has confirmed that the Federal Circuit
must apply the same basic standards as other circuits.
See, e.g., eBay Inc. v. MercExchange, L.L.C., 547 U.S.
388, 394 (2006) (“We hold only that the decision whether
to grant or deny injunctive relief rests within the equitable
discretion of the district courts, and that such discretion
must be exercised consistent with traditional principles
of equity, in patent disputes no less than in other cases
governed by such standards.”). Absent correction of the
Federal Circuit’s error regarding the effective date of its
rulings, the remedies ordered by the Federal Circuit will
not be subject to the same standards as remedies ordered
by the other circuits.
Thus, in the event that this Court declines to enter
an order granting certiorari, vacating and remanding
for further proceedings consistent with United States v.
Arthrex as requested above, the Petition should be granted
to resolve this conflict between the circuits regarding the
role and effect of the appellate mandate.

21
CONCLUSION
For the foregoing reasons, the Petition for writ of
certiorari should be granted.
Dated: September 2, 2021
Respectfully submitted.
David E. De Lorenzi
Counsel of Record
Jennifer A. Hradil
Christopher H. Strate
Samuel H. Megerditchian
Christine A. Gaddis
Gibbons P.C.
One Gateway Center
Newark, New Jersey 07102
973-596-4500
ddelorenzi@gibbonslaw.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JANUARY 21, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-1333
INFINEUM USA L.P.,
Appellant,
v.
CHEVRON ORONITE COMPANY LLC,
Appellee,
DREW HIRSHFELD, PERFORMING
THE FUNCTIONS AND DUTIES OF THE
UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR
OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE,
Intervenor.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201800922.
January 21, 2021, Decided

2a
Appendix A
Before O’M a lley, Ta ra nto , and S toll , Circuit
Judges.
Stoll, Circuit Judge.
Infineum USA L.P. appeals from the final written
decision of the Patent Trial and Appeal Board holding
claims 1-20 of U.S. Patent No. 6,723,685 unpatentable
under 35 U.S.C. § 103. The ’685 patent claims cover
lubricating oil compositions and their use in internal
combustion engines. Because substantial evidence
supports the Board’s determination of obviousness, we
affirm.
Background
Lubricating oil compositions for internal combustion
engines comprise a base oil (or mixture of base oils) of
lubricating viscosity and additives used to improve the
performance characteristics of the base oil. Base oils
are comprised of basestocks classified by the American
Petroleum Institute (API) in Groups I—V. Additive
components are generally known by their structure and
properties and may be used to inhibit corrosion and to
reduce engine wear, oil consumption, and friction loss.
Industry standards, such as those set by the
International Lubricant Standardization and Approval
Committee (ILSAC), set requirements for certain
properties, ingredients, and performance of base oils.
The ILSAC GF-3 standard, in effect as of the filing date
of the ’685 patent, set a maximum engine oil volatility of

3a
Appendix A
15%.1 A higher viscosity index (VI)2 reduces base oil and
finished oil volatility. The base oil is the primary influence
on a finished engine oil’s volatility. High VI is a feature
of premium, high-quality base oils. Though the GF-3
standard does not recite any particular VI threshold,
it was understood that commercially available base oils
would need to have a VI of at least 95 for the engine oil to
comply with the maximum Noack volatility requirement
of 15%. See J.A. 1835, 1847 Fig. 1, 2285-86. At the time of
the ’685 patent’s filing, the industry was using base oils
in Groups III and IV and certain base oils in Group II in
developing engine oils that would meet the GF-3 standard.
See J.A. 566.
Traditionally, anti-wear additive components
contained phosphorous. The GF-3 standard set a limit on
the phosphorous content of engine oils. Seeking to reduce
phosphorous content in additive components, formulators
turned to solutions such as oil-soluble molybdenum
compounds and organic friction modifiers to control wear
and reduce friction.
The ’685 patent, titled “Lubricating Oil Composition,”
was filed on April 5, 2002, and sought “to find a lubricating
oil composition that provides improved fuel economy
1. The GF-3 standard measures volatility using an industrystandard Noack volatility test, which measures the evaporative loss
of lubricant oil at a high temperature.
2. VI is a measure of base oil viscosity that indicates an oil’s
change in viscosity with variations in temperature. A high-VI oil
exhibits significantly lower changes in viscosity over the temperature
range of use than a low-VI oil.

4a
Appendix A
benefit[,] demonstrates excellent wear protection
characteristics, is relatively low in cost, and is free of
nitrogen-containing friction modifiers.” ’685 patent col.
1 ll. 63-67.
Claim 1 is the sole independent claim of the ’685
patent:
1. A lubricating oil composition comprising:
a) an oil of lubricating viscosity having a
viscosity index of at least 95;
b) at least one calcium detergent;
c) at least one oil soluble molybdenum compound;
d) at least one organic ashless nitrogen-free
friction modifier; and
e) a t l e a s t o n e m e t a l d i hy d r o c a r b y l
dithiophosphate compound, wherein said
composition is substantially free of ashless
aminic friction modifiers, has a Noack volatility
of about 15 wt. % or less, from about 0.05 to
0.6 wt. % calcium from the calcium detergent,
molybdenum in an amount of from about 10
ppm to about 350 ppm from the molybdenum
compound, and phosphorus from the metal
dihydrocarbyl dithiophosphate compound in an
amount up to about 0.1 wt. %.
Id. at col. 13 ll. 47-62.

5a
Appendix A
Chevron Oronite Co. filed a petition for inter partes
review challenging all claims of the ’685 patent as obvious
under 35 U.S.C. § 103 over primary reference Toshikazu3
in view of Henderson.4
Toshikazu is a published Japanese patent application
titled “Lubr icating Oil Composition for Internal
Combustion Engines” that discloses formulations having
“excellent wear resistance and friction characteristics.”
Toshikazu ¶ 55. Toshikazu’s Examples 1-19 are inventive
lubricating oil formulations, most of which contain varying
amounts of each of the additive components claimed in the
’685 patent. Toshikazu Tables 1-2.
Henderson is a technical paper published in 1998 and
discusses the changing requirements for engine oils as of
that time. Henderson describes an industry shift toward
higher-viscosity, lower-volatility base oils and discusses
the then-upcoming GF-3 standard, its requirements, and
its expected performance improvements to engine oils.
Relevant to this appeal, the petition challenged claims
1-4, 6-11, and 13-20 as obvious over Toshikazu Example
16 in view of Henderson, and challenged claims 1-20 as

3. Japanese Pub. Pat. App. No. JP H5-279686 A (published Oct.
26, 1993). We cite to the same certified English-language translation
of Toshikazu relied on by the Board. See J.A. 542-52.
4. H.E. Henderson, et al., Higher Quality Base Oils for
Tomorrow’s Engine Oil Performance Categories 1-10 (SAE Tech.
Paper Series, No. 982582, 1998).

6a
Appendix A
obvious over Toshikazu Example 2 in view of Henderson. 5
Oronite supported its petition with a declaration from
its expert, Dr. Donald Smolenski, who has significant
experience in lubricating engine oil development and
testing.
Infineum did not file a preliminary response to
Oronite’s petition, and the Board instituted review of all
challenged claims on all grounds. Infineum then filed a
patent owner response supported by the declaration of
its expert, Dr. Jai Bansal. In addition to responding to
the merits of Oronite’s petition, Infineum’s patent owner
response argued that Dr. Smolenski was not a person of
ordinary skill in the art because he had not worked as
a formulator, and that the Board should disregard his
testimony in its entirety.
In reply, Oronite argued that Dr. Smolenski was a
person of ordinary skill, and it further supported its reply
with the declaration of a new expert, Dr. Syed Rizvi,
who has experience in engine oil formulation. The Board
permitted Infineum to file a sur-reply, in which Infineum
responded to Oronite’s reply arguments on the merits,
in addition to arguing that the Board should disregard
Oronite’s reply and Dr. Rizvi’s testimony in their entirety.
The Board denied Infineum’s request to file a motion to
strike the reply and Dr. Rizvi’s testimony, but permitted
the parties to file a joint chart identifying reply arguments
and evidence that Infineum considered improper.
5. The obviousness grounds for claims 4, 9, 16, and 17 included
additional references not relevant to the issues on appeal. See J.A.
74-76.

7a
Appendix A
Relevant to this appeal, the Board issued a final
written decision holding claims 1-4, 6-11, and 13-20 obvious
over Example 16 of Toshikazu in view of Henderson and
holding claims 1-20 obvious over Example 2 of Toshikazu
in view of Henderson. Chevron Oronite Co. v. Infineum
USA L.P., IPR2018-00922, 2019 WL 5806946, at *14-15,
*17-19, *21-23 (P.T.A.B. Nov. 6, 2019) (Decision).
Infineum appeals. We have jurisdiction pursuant to
28 U.S.C. § 1295(a)(4).
Discussion
On appeal, Infineum argues that the Board improperly
relied on new theories and evidence raised for the first
time in Oronite’s reply, that substantial evidence does not
support the Board’s decision, and that the decision runs
afoul of certain constitutional provisions. We address each
set of arguments in turn.
I
Infineum first asserts that the Board improperly
relied on certain new theories and evidence that Oronite
raised for the first time in its reply. We disagree.
“Whether the Board improperly relied on new
arguments is reviewed de novo.” Nike, Inc. v. Adidas
AG, 955 F.3d 45, 50 (Fed. Cir. 2020) (citing In re IPR
Licensing, Inc., 942 F.3d 1363, 1369 (Fed. Cir. 2019)).
The IPR provisions of the America Invents Act (AIA)
require that a petition identify, “with particularity, each

8a
Appendix A
claim challenged, the grounds on which the challenge to
each claim is based, and the evidence that supports the
grounds for the challenge to each claim.” 35 U.S.C. § 312(a)
(3). The regulations implementing the AIA further state
that “[a] reply may only respond to arguments raised in
the corresponding opposition, patent owner preliminary
response, or patent owner response.” 37 C.F.R. § 42.23(b);
see also 35 U.S.C. § 316(a). Because an IPR must proceed
“‘[i]n accordance with’ or ‘in conformance to’ the petition,”
SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1356, 200 L.
Ed. 2d 695 (2018) (alteration in original) (quoting Oxford
English Dictionary (3d ed., Mar. 2016), www.oed.com/
view/Entry/155073), it would “not be proper for the Board
to deviate from the grounds in the petition and raise its
own obviousness theory,” Sirona Dental Sys. GmbH v.
Institut Straumann AG, 892 F.3d 1349, 1356 (Fed. Cir.
2018).
As inter partes review is a formal adjudication, the
Administrative Procedures Act (APA) also “imposes
certain procedural requirements on the agency.” Genzyme
Therapeutic Prods. Ltd. v. Biomarin Pharm. Inc., 825
F.3d 1360, 1365-66 (Fed. Cir. 2016). For example, “[i]n
interpreting the APA’s notice provisions in the context
of IPR proceedings, we have cautioned that ‘an agency
may not change theories in midstream without giving
respondents reasonable notice of the change and the
opportunity to present argument under the new theory.’”
Nike, 955 F.3d at 52 (first quoting SAS Inst., Inc. v.
ComplementSoft, LLC, 825 F.3d 1341, 1351 (Fed. Cir.
2016), rev’d on other grounds, 138 S. Ct. 1348, 200 L. Ed.
2d 695 (2018); and then citing Genzyme, 825 F.3d at 1366).

9a
Appendix A
But the AIA and APA do not uniformly preclude the
introduction of new evidence after the petition is filed in
an IPR proceeding. See Anacor Pharms., Inc. v. Iancu,
889 F.3d 1372, 1380 (Fed. Cir. 2018) (“There is, however,
no blanket prohibition against the introduction of new
evidence during an inter partes review proceeding.”).
Rather, “the introduction of new evidence in the course
of the trial is to be expected in inter partes review trial
proceedings and, as long as the opposing party is given
notice of the evidence and an opportunity to respond to it,
the introduction of such evidence is perfectly permissible.”
Genzyme, 825 F.3d at 1366.
Infineum argues that the Board erred by relying on
two new theories raised for the first time in Oronite’s
reply—first, that a skilled artisan “would select Examples
2 or 16 because they are equal to all other examples,”
and second, “that other examples from Toshikazu did not
perform better than Examples 2 or 16.” Appellant’s Br.
28; see id. at 30-31. Contrary to Infineum’s assertions, the
Board did not err in concluding that these arguments were
proper rebuttal arguments or in relying on them in its
decision. Oronite’s reply arguments that a skilled artisan
would have understood that “all of Toshikazu’s Examples
1-19 performed similarly” and “performed significantly
better than Toshikazu’s Comparative Examples 1-5,”
J.A. 1451, responded directly to Infineum’s contentions
that a skilled artisan would not have been motivated to
select Examples 2 and 16, J.A. 773, would have considered
examples other than Examples 2 and 16 “more promising
for further development,” J.A. 792, and would have
understood that Example 16 “did not perform as well . . .
as Examples 3, 5 and 7,” J.A. 793.

10a
Appendix A
To the extent Infineum argues that the Board
impermissibly “change[d] theories in midstream” in
violation of the APA, we disagree. Genzyme, 825 F.3d
at 1366. The theory of unpatentability advanced in
Oronite’s petition remained the same throughout the
proceedings. Oronite’s reply maintained the petition’s
position that each of the challenged ’685 patent claims
would have been obvious over either Toshikazu Example
16 in view of Henderson or Toshikazu Example 2 in
view of Henderson. Compare J.A. 146 (petition noting
that obviousness Grounds 1-3, covering claims 1-4, 6-11,
and 13-20, “rely on Example 16 of Toshikazu,” and that
obviousness Grounds 4-6, covering claims 1-20, “rely on
Example 2 of Toshikazu”), with J.A. 1450 (reply arguing
that “Examples 16 and 2 of Toshikazu, in combination
with Henderson, each renders the independent claims
(and others) unpatentable as obvious”). And the Board’s
decision held each of the challenged claims obvious on
those same grounds. Decision, 2019 WL 5806946, at *1415, *17-19 (relying on Example 16 of Toshikazu to hold
obvious claims 1-4, 6-11, and 13-20); id. at *21-23 (relying
on Example 2 of Toshikazu to hold obvious claims 1-20).
Infineum’s argument that the Board’s reliance on Dr.
Rizvi’s testimony was improper appears to be tied to its
assertions that the Board impermissibly relied on new
theories advanced for the first time in Oronite’s reply.6
6. Infineum’s opening brief also alleges that Oronite’s “new
theories” were supported by “thirty new pieces of evidence,”
Appellant’s Br. 28 (emphasis omitted), some of which Infineum
identifies in a footnote, id. at 28 n.1. The same footnote acknowledges
that “Infineum sought the Board’s permission to move to strike

11a
Appendix A
See, e.g., Appellant’s Br. 29; Reply Br. 12 (“Oronite admits
that it tried to introduce the theory as to why [a] POSITA
would select Examples 2 and 16 for the first time in its
Reply, . . . and does not deny that this new theory was
only supported by Dr. Rizvi’s reply declaration.”); accord
J.A. 2634 (arguing before the Board that portions of Dr.
Rizvi’s testimony subsequently relied on by the Board
“[p]resent[] a new theory regarding the interpretation of
the data from Toshikazu”).
Like the reply arguments Infineum identifies on
appeal, Dr. Rizvi’s testimony was a proper rebuttal to
arguments raised in Infineum’s patent owner response.
For example, Infineum takes issue with the Board’s
reliance on paragraphs 35-38 of Dr. Rizvi’s declaration. See
Appellant’s Br. 29; see also Decision, 2019 WL 5806946, at
*12 (citing J.A. 2281-82 (Rizvi Dec. ¶¶ 35-38)). Paragraphs
35-38 merely explain, based on the state of the art, Dr.
Rizvi’s statement in paragraph 34 (which Infineum did not
challenge as improper) that “[a] person of ordinary skill
in the art would not have found the differences between
coefficient of friction or wear values reported in Toshikazu
for Examples 1-19 to be important.” J.A. 2280. And Dr.
Rizvi’s assertion of unimportant differences responded to
Dr. Bansal’s assertion that a skilled artisan would “pursue
formulations based on Examples 3, 5, and 7 and not on
Example 16.” Id. (quoting J.A. 908). Further, the portions
of Dr. Rizvi’s declaration Infineum highlights on appeal
the Reply, Dr. Rizvi’s Declaration,” and certain exhibits submitted
with the reply, and filed a motion to exclude certain reply exhibits.
Id. Infineum has not appealed the Board’s denials of its motion to
strike and motion to exclude.

12a
Appendix A
rely principally on record evidence, not new evidence. E.g.,
J.A. 2290-91, 2313-15. We discern no impropriety in the
challenged portions of Dr. Rizvi’s declaration.
Additionally, the Board’s reliance on Dr. Rizvi’s
testimony did not violate the APA because Infineum had
ample notice and opportunity to respond to Dr. Rizvi’s
testimony. The Board permitted Infineum to depose
Dr. Rizvi after receiving his reply declaration, and then
to file a sur-reply, in addition to allowing the parties to
file a joint chart identifying the reply arguments and
evidence Infineum believed were improper.7 Infineum
availed itself of both of these opportunities to respond.
For example, Infineum’s sur-reply argued that the Board
should disregard Oronite’s reply and Dr. Rizvi’s testimony
in their entirety, J.A. 2344-47, in addition to responding
extensively to Dr. Rizvi’s testimony on the merits, J.A.
2347-65. Accordingly, the Board afforded Infineum the
process it was due under the APA.
We thus conclude that the Board did not err in
considering Oronite’s reply arguments or Dr. Rizvi’s
testimony.
II
Infineum also challenges several aspects of Board’s
decision as unsupported by substantial evidence. We find
none of Infineum’s challenges persuasive.
7. To the extent that Infineum contends that the Board was
categorically prohibited from relying on Dr. Rizvi’s testimony, our
precedent forecloses any such argument. See Anacor, 889 F.3d at
1380.

13a
Appendix A
We review the Board’s legal determinations de novo,
In re Elsner, 381 F.3d 1125, 1127 (Fed. Cir. 2004), and its
fact findings for substantial evidence, In re Gartside, 203
F.3d 1305, 1316 (Fed. Cir. 2000). Substantial evidence is
“such relevant evidence as a reasonable mind might accept
as adequate to support a conclusion.” OSI Pharms., LLC v.
Apotex Inc., 939 F.3d 1375, 1381 (Fed. Cir. 2019) (quoting
Consol. Edison Co. v. NLRB, 305 U.S. 197, 229, 59 S. Ct.
206, 83 L. Ed. 126 (1938)). Obviousness is a question of law
based on underlying findings of fact. Id. at 1382 (quoting
In re Kubin, 561 F.3d 1351, 1355 (Fed. Cir. 2009)). “An
obviousness determination requires finding that a person
of ordinary skill in the art would have been motivated to
combine or modify the teachings in the prior art and would
have had a reasonable expectation of success in doing so.”
Id. (quoting Regents of Univ. of Cal. v. Broad Inst., Inc.,
903 F.3d 1286, 1291 (Fed. Cir. 2018)). “Whether a person
of ordinary skill in the art would have been motivated to
modify or combine teachings in the prior art, and whether
he would have had a reasonable expectation of success, are
questions of fact.” Id. (quoting Regents of Univ. of Cal.,
903 F.3d at 1291).
Infineum’s assertion that the Board erred in giving
any credit to Oronite’s “unqualified expert,” Dr. Smolenski,
lacks merit. It merely reprises the same argument
Infineum essentially raised before the Board—that Dr.
Smolenski’s testimony is not admissible because he is not
sufficiently qualified. Much like district court evidentiary
rulings, the Board’s evidentiary determinations, such
as its decision not to exclude Dr. Smolenski’s testimony,
are reviewed for abuse of discretion. See Belden Inc. v.

14a
Appendix A
Berk-Tek LLC, 805 F.3d 1064, 1078 (Fed. Cir. 2015) (citing
Chen v. Bouchard, 347 F.3d 1299, 1307 (Fed. Cir. 2003));
Sundance, Inc. v. DeMonte Fabricating Ltd., 550 F.3d
1356, 1363 (Fed. Cir. 2006) (holding that the district court
abused its discretion in permitting a witness not qualified
as an expert in the pertinent art to testify as an expert
regarding issues of noninfringement or invalidity); see also
Hologic, Inc. v. Minerva Surgical, Inc., 764 F. App’x 873,
881 n.8 (Fed. Cir. 2019) (“We find no abuse of discretion in
the Board’s determination that Dr. Mirabile had enough
knowledge and skill to testify about this topic.”). We also
“defer to the Board’s findings concerning the credibility
of expert witnesses.” Yorkey v. Diab, 601 F.3d 1279, 1284
(Fed. Cir. 2010) (citing Velander v. Garner, 348 F.3d 1359,
1371 (Fed. Cir. 2003)); see also Shoes by Firebug LLC v.
Stride Rite Children’s Grp., LLC, 962 F.3d 1362, 1372
(Fed. Cir. 2020) (“The Board was within its discretion to
weigh the credibility of expert testimony.” (citing Yorkey,
601 F.3d at 1284)). Abuse of discretion occurs if the ruling:
“(1) is clearly unreasonable, arbitrary, or fanciful; (2) is
based on an erroneous conclusion of law; (3) rests on clearly
erroneous fact findings; or (4) follows from a record that
contains no evidence on which the Board could rationally
base its decision.” Bouchard, 347 F.3d at 1307 (citing
Gerritsen v. Shirai, 979 F.2d 1524, 1529 (Fed. Cir. 1992)).
Here, Infineum does not challenge the Board’s
determination, grounded in the ’685 patent specification
and the prior art of record, that “one of ordinary skill
in the art could have experience in either formulating
an engine oil or testing such oils in internal combustion
engines.” Decision, 2019 WL 5806946, at *5. Rather,

15a
Appendix A
Infineum argues that Dr. Smolenski’s “experience in a
tangential aspect of testing motor oils, did not qualify
him to testify as to how [a] POSITA would make or
formulate a new motor oil.” Appellant’s Br. 45-46 (citation
omitted). The Board reasonably considered and rejected
this argument when it determined that “Dr. Smolenski
has sufficient education and experience of a specialized
nature to assist the Board in understanding the evidence
of record.” Decision, 2019 WL 5806946, at *5; see Hologic,
764 F. App’x at 880 n.6 (applying abuse of discretion
standard to the Board’s rejection of a patent owner’s
argument that an expert lacked sufficient experience
with the relevant technology after finding no error in
the Board’s determination of the level of ordinary skill
in the art). Infineum offers no basis to contradict this
conclusion, or to call into question the Board’s statement
that it accounted for “Dr. Smolenski’s lack of benchtop
formulating experience” in “determining the weight to
give his testimony.” Decision, 2019 WL 5806946, at *5.
Accordingly, we discern no abuse of discretion in the
Board’s consideration of or reliance on Dr. Smolenski’s
testimony.
No more compelling is Infineum’s argument that the
Board’s decision is unsupported by substantial evidence
because the Board relied on Dr. Smolenski’s “hindsight
analysis” to select Examples 2 and 16 from Toshikazu,
when “other examples from Toshikazu performed better.”
Appellant’s Br. 41-42. We have rejected the notion that a
patent challenger seeking to demonstrate obviousness
must prove that a person of ordinary skill would have
been motivated to select one prior art disclosure over

16a
Appendix A
another. Novartis Pharms. Corp. v. W.-Ward Pharms.
Int’l Ltd., 923 F.3d 1051, 1059 (Fed. Cir. 2019) (“It is thus
improper to require West-Ward to prove that a person of
ordinary skill would have selected everolimus over other
prior art treatment methods.”); see also In re Fulton,
391 F.3d 1195, 1200 (Fed. Cir. 2004) (“[O]ur case law does
not require that a particular combination must be the
preferred, or the most desirable, combination described
in the prior art in order to provide motivation for the
current invention.”). In any event, Infineum’s argument
amounts to a disagreement with how the Board weighed
the evidence. The Board was within its province to credit
Dr. Rizvi’s testimony that “one of ordinary skill in the art
[would] have selected any of the example lubricating oils
of Toshikazu for further development.” Decision, 2019
WL 5806946, at *12 (discussing J.A. 2280-82 (Rizvi Dec.
¶¶ 33-38) and J.A. 174-76 (Smolenski Dec. ¶¶ 44-47)).
The Board reasonably credited Dr. Rizvi›s explanation
that «benchtop testing rigs, such as the shell-type four
ball test employed in Toshikazu, have a certain amount
of repeatability associated with their data,” and that
the variance in the coefficients of friction reported in
Toshikazu’s Examples 1-19 was within the repeatability
specified by the applicable American Society for Testing
and Materials standard. J.A. 2280-82; see Decision, 2019
WL 5806946, at *12.
Similarly unavailing is Infineum’s apparent assertion
that the Board’s decision is not supported by substantial
evidence because “[t]he overwhelming evidence . . . showed
that [a] POSITA would not presume that modifying
additive components and base oils would necessarily work

17a
Appendix A
or improve the performance of a formulation.” Appellant’s
Br. 47. The Board reasonably relied on primary reference
Toshikazu’s express teachings to conclude that a skilled
artisan “would have had a reasonable expectation of
success in using a synthetic base oil that imparts an overall
viscosity index of 95 or above to the lubricating composition
of Example 16 of Toshikazu.” Decision, 2019 WL 5806946,
at *8 (citations omitted); see id. (“Toshikazu expressly
indicates that ‘[t]here is no particular limitation on the
base oil used in the present invention, and it is possible to
use various types of mineral oils, synthetic oils, and so on
that are known in the art.’” (alteration in original) (quoting
Toshikazu ¶ 12)); id. (“Toshikazu reports essentially
identical results when the additive package of Example 16
is used with a mineral base oil, a synthetic base oil, or a
mineral oil/high pressure hydrogenated base oil.” (citing
Toshikazu Examples 3, 16, and 17)). The general need for
routine compatibility testing of any modified formulation
does not undermine Toshikazu’s teachings that different
base oils could be used.
Moreover, contrary to Infineum’s contentions, the
Board’s rationale for holding claim 12 obvious is not
internally inconsistent. Infineum identifies a purported
contradiction between: (1) the Board’s conclusion that a
skilled artisan “would have found it obvious to increase
the amount of aliphatic acid glyceride,” an organic ashless
nitrogen-free friction modifier, “in Example 2 to at least
‘about 0.25 wt. %’ in order to save on costs,” id. at *22 (citing
J.A. 140); and (2) the Board’s finding with respect to claim
1, from which claim 12 depends, that notwithstanding that
“mineral oils are cheaper than synthetic oils,” a skilled

18a
Appendix A
artisan “would have sought to substitute the mineral oil of
Example 2 with . . . a synthetic oil . . . in order to comply
with the GF-3 standard and to achieve the benefits of
higher quality oils discussed in Henderson,” id. at *20
(citing J.A. 127-28, 131-32). Appellant’s Br. 48-49. To the
extent that Infineum argues that the Board’s first finding
amounts to a conclusion that a skilled artisan would have
settled for decreased performance to reduce costs, the
Board considered this argument and reasonably rejected
it. Decision, 2019 WL 5806946, at *22 (“Patent Owner’s
arguments based on an alleged decrease in performance
from such a change are not persuasive because we have
found that one of ordinary skill in the art would not have
differentiated the performance results reported for
Examples 1-19 of Toshikazu.”).
Indeed, the Board credited the petition’s argument
that cost would motivate a skilled artisan to increase the
amount of aliphatic acid glyceride in Toshikazu’s Example
2 in view of the fact that it was “less expensive than other
anti-wear compounds, including molybdenum,” id. (citing
J.A. 139-40 (petition)), and the fact that “other examples
in Toshikazu indicate that the amount of organic ashless
nitrogen-free friction modifier may be increased without
significantly affecting the performance of the lubricating
compositions,” id. (first citing J.A. 139-40; and then citing
J.A. 1471-72 (reply)); see also Toshikazu Table 1 (reflecting
similar friction coefficients and wear track diameters for
Examples 2 and 4 notwithstanding differences in aliphatic
acid glyceride content). It is reasonable for a skilled artisan
to be driven more by cost when effects on performance are
minor or nonexistent. The Board’s conclusion that claim

19a
Appendix A
12 would have been obvious is supported by substantial
evidence.
Substantial evidence also supports the Board’s
decision to give “limited weight” to Infineum’s unexpected
results evidence with respect to fuel economy. Decision,
2019 WL 5806946, at *14. Infineum argued before the
Board that because a skilled artisan would have expected
formulations with large amounts of molybdenum to
provide superior fuel economy performance, the ’685
patent’s demonstration of superior fuel economy test
results for the claimed formulations containing a low
amount of molybdenum in combination with an organic
ashless nitrogen-free friction modifier provided “truly
unexpected” results. Id. at *13 (quoting J.A. 825). Relying
on Allergan, Inc. v. Sandoz Inc., 726 F.3d 1286, 1293
(Fed. Cir. 2013), the Board concluded that Infineum’s
unexpected results evidence was not meaningful in view of
the fact that Toshikazu “provide[d] a strong reason to use
low levels of molybdenum in combination with an organic
ashless nitrogen-free friction modifier.” Decision, 2019
WL 5806946, at *14. Toshikazu discloses “excellent wear
resistance and friction characteristics” of formulations
containing low levels of molybdenum in combination
with an organic ashless nitrogen-free friction modifier.
Toshikazu ¶ 55. Toshikazu’s formulations containing
combinations of these two additives “further improved”
the “wear resistance and the friction characteristics”
“in comparison with the cases where either one is solely
used.” Id. ¶ 24. Considering Infineum’s “evidence that this
same combination of additives also provides an additional
benefit with respect to fuel economy,” the Board reasoned

20a
Appendix A
that it did “not alter the fact that the advantages of the
combination of low molybdenum and an organic ashless
nitrogen-free friction modifier were known in the art.”
Decision, 2019 WL 5806946, at *14 (citing J.A. 1474).
Infineum does not meaningfully challenge this
analysis, offering only an unsupported argument that
“there was no evidence in this IPR that showed a
clear motivation to combine.” Appellant’s Br. 39. This
assertion does not call into question the Board’s amply
supported finding that Toshikazu taught advantages of the
combination of low levels of molybdenum and an organic
ashless nitrogen-free friction modifier independent of any
improved fuel economy performance, or that Toshikazu
would provide a skilled artisan with “a strong reason to
use” a formulation with this combination. Decision, 2019
WL 5806946, at *14; see Toshikazu ¶¶ 1, 9, 24, 55. Nor does
Infineum meaningfully engage with the Board’s finding
that a skilled artisan would have a motivation, separate
from increased fuel economy, to combine Toshikazu and
Henderson to meet the then-applicable GF-3 industry
standard. Decision, 2019 WL 5806946, at *9. Accordingly,
substantial evidence supports the Board’s decision finding
that Infineum’s unexpected results evidence did not
outweigh the evidence of obviousness in this case. See
Allergan, 726 F.3d at 1293 (concluding that evidence that
a particular combination solved additional problems was
insufficient to outweigh other evidence of obviousness in
view of a separate motivation to make the combination).

21a
Appendix A
III
Finally, our precedent forecloses Inf ineum’s
constitutional challenges to the Board’s decision.
Infineum requests “vacatur and remand to the
Board with instructions to dismiss the IPR” because
under Arthrex, Inc. v. Smith & Nephew, Inc., 941
F.3d 1320, 1329 (Fed. Cir. 2019), “the [Administrative
Patent Judges (APJs)] who presided over this IPR were
unconstitutionally appointed.” Appellant’s Br. 49. In
Infineum’s view, the remedy this court adopted in Arthrex
did not cure the Appointments Clause violation, and
“there is no permissible interpretation of the statute.” Id.
Infineum implicitly acknowledges, however, that we must
apply Arthrex, which forecloses Infineum’s argument.
Arthrex, 941 F.3d at 1337 (“This as-applied severance
is the narrowest possible modification to the scheme
Congress created and cures the constitutional violation in
the same manner as Free Enterprise Fund [v. Public Co.
Accounting Oversight Board, 561 U.S. 477, 130 S. Ct. 3138,
177 L. Ed. 2d 706 (2010)] and Intercollegiate [Broadcasting
System, Inc. v. Copyright Royalty Board, 684 F.3d 1332,
401 U.S. App. D.C. 407 (D.C. Cir. 2012)]. Title 5’s removal
protections cannot be constitutionally applied to APJs, so
we sever that application of the statute.”); see Appellant’s
Br. 52 (“Infineum presents this challenge in order to
preserve its rights in the event that these issues are
resolved by the Supreme Court.”).
Our precedent also undermines Infineum’s alternative
argument that vacatur and remand to a new panel of

22a
Appendix A
Administrative Patent Judges is warranted because the
Board issued its final written decision prior to issuance
of the mandate in Arthrex. See Appellant’s Br. 52-53;
Caterpillar Paving Prods. Inc. v. Wirtgen Am., Inc., 957
F.3d 1342 (Fed. Cir. 2020). Infineum acknowledges that
“in Caterpillar[,] this [c]ourt found that where an inter
partes review argument occurred before the Arthrex
opinion issued and the inter partes review’s final written
decision issued post-Arthrex, the patent holder was not
entitled to vacatur and remand for a new hearing.” Reply
Br. 26 (citing Caterpillar, 957 F.3d at 1343). In Caterpillar,
as here, the Board’s final written decision issued before
the mandate issued in Arthrex. Applying Caterpillar and
Arthrex to this case, there is no Appointments Clause
violation because the Board’s final written decision issued
after Arthrex was decided. See Caterpillar, 957 F.3d at
1342-43; Arthrex, 941 F.3d at 1340.
Finally, our precedent also forecloses Infineum’s
argument that the Board’s retroactive application of
IPR proceedings to invalidate the ’685 patent claims
violates the Takings and Due Process Clauses of the U.S.
Constitution. See Appellant’s Br. 54-59. Infineum appears
to acknowledge as much, abandoning its Takings and
Due Process Clause arguments in its reply brief. In any
event, Celgene Corp. v. Peter held “that the retroactive
application of IPR proceedings to pre-AIA patents is not
an unconstitutional taking under the Fifth Amendment.”
931 F.3d 1342, 1362 (Fed. Cir. 2019), cert. denied, 141 S.
Ct. 132, 207 L. Ed. 2d 1078 (2020).

23a
Appendix A
Conclusion
We have considered the parties’ remaining arguments
and do not find them persuasive. Accordingly, we affirm
the Board’s decision.
AFFIRMED

24a
Appendix B OF THE UNITED
APPENDIX B — JUDGMENT
STATES PATENT AND TRADEMARK OFFICE,
PATENT TRIAL AND APPEAL BOARD, DATED
NOVEMBER 6, 2019
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
CHEVRON ORONITE COMPANY LLC,
Petitioner,
v.
INFINEUM USA L.P.,
Patent Owner.
IPR2018-00922
Patent 6,723,685 B2
Be for e JON B. T OR NQU I S T, M ICH ELLE N.
ANKENBRAND, and JULIA HEANEY, Administrative
Patent Judges.
TORNQUIST, Administrative Patent Judge.
JUDGMENT
Final Written Decision
Determining All Challenged Claims Unpatentable
35 U.S.C. § 318(a)

25a
Appendix B
I. INTRODUCTION
Chevron Oronite Company LLC (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) requesting an inter partes review
of claims 1–20 of U.S. Patent No. 6,723,685 B2 (Ex. 1001,
“the ’685 patent”). Infineum USA L.P. (“Patent Owner”)
did not file a Preliminary Response to the Petition.
Upon consideration of the Petition and the evidence
of record, we determined that Petitioner demonstrated a
reasonable likelihood that it would prevail with respect to
at least one claim of the ’685 patent. Paper 6, 20 (“Dec.”).
Thus, consistent with the Supreme Court’s decision in SAS
Institute Inc. v. Iancu, 138 S. Ct. 1348, 1359–60 (2018), and
USPTO Guidance,1 we instituted review of all challenged
claims on all challenged grounds.
Following institution of trial, Patent Owner filed a
Patent Owner Response (Paper 13, “PO Resp.”), Petitioner
filed a Reply (Paper 16, “Pet. Reply”), and Patent Owner
filed a Sur-reply (Paper 22, “Sur-reply”). In support
of their respective positions, Petitioner relies on the
testimony of Dr. Donald J. Smolenski (Ex. 1002) and Dr.
Syed Q. A. Rizvi (Ex. 1055), and Patent Owner relies on
the testimony of Dr. Jai Bansal (Ex. 2003).

1. In accordance with USPTO Guidance, “if the PTAB
institutes a trial, the PTAB will institute on all challenges raised
in the petition.” See USPTO, Guidance on the Impact of SAS on
AIA Trial Proceedings (April 26, 2018) (available at https://www.
uspto.gov/patents-application-process/patent-trialand-appealboard/trials/guidance-impact-sas-aia-trial) (“USPTO Guidance”).

26a
Appendix B
An oral hearing was held on August 30, 2019, and a
transcript of the hearing is included in the record (Paper
32, “Tr.”).
A. Related Proceedings
The parties identify Infineum USA LP v. Chevron
Oronite Company LLC, Case No. 1-18-cv-00323 (D. Del.),
as a related matter. Pet. 2; Paper 4, 1. The ’685 patent was
also the subject of IPR2018-00923 (institution denied) and
IPR2018-00924 (institution denied). Paper 4, 1; Pet. 2.
B. The ’685 Patent
The ’685 patent is directed to lubricating oil
compositions that “exhibit simultaneously improved low
temperature valve train wear performance, excellent
compatibility with fluoroelastomer materials commonly
used for seals in modern internal combustion engines,
and improved fuel economy properties.” Ex. 1001, 1:4–9.
The ’685 patent explains that lubr icating oil
compositions for combustion engines typically contain a
base oil of lubricating viscosity, as well as various additives
used “to improve detergency, to reduce engine wear, to
provide stability against heat and oxidation, to reduce oil
consumption, to inhibit corrosion, to act as a dispersant,
and to reduce friction loss.” Id. at 1:12–19. The ’685
patent further explains that “[s]ome additives provide
multiple benefits, such as dispersant-viscosity modifiers,”
whereas other additives improve one characteristic of the
lubricating oil while adversely affecting one or more other
characteristics. Id. at 1:19–22.

27a
Appendix B
The ’685 patent discloses that when “small amounts
of one or more oil soluble molybdenum compounds,” an
ashless, organic, nitrogen-free friction modifier, zinc
dihydrocarbyl dithiophosphate (ZDDP), and a calcium
detergent are added to a base oil having a viscosity of at
least 95 and a Noack volatility 2 of less than 15%, a lowcost lubricating composition with improved fuel economy,
excellent wear protection, and reduced adverse effects on
fluoroelastomer seals is provided. Id. at 2:1–8, 2:47–55.
C. Illustrative Claim
Petitioner challenges claims 1–20 of the ’685 patent.
Independent claim 1 is illustrative of the challenged claims
and is reproduced below:
1. A lubricating oil composition comprising:
a) an oil of lubricating viscosity having a
viscosity index of at least 95;
b) at least one calcium detergent;
c) at least one oil soluble molybdenum compound;
d) at least one organic ashless nitrogen-free
friction modifier; and

2. Noack volatility measures the evaporative loss of lubricant
oil at high temperature. Ex. 1001, 2:52–54; Ex. 1002 ¶ 23. A lower
Noack volatility is associated with a less volatile oil. Ex. 1002 ¶ 23.

28a
Appendix B
e) a t l e a s t o n e m e t a l d i hy d r o c a r b y l
dithiophosphate compound, wherein said
composition is substantially free of ashless
aminic friction modifiers, has a Noack volatility
of about 15 wt. % or less, from about 0.05 to
0.6 wt. % calcium from the calcium detergent,
molybdenum in an amount of from about 10
ppm to about 350 ppm from the molybdenum
compound, and phosphorus from the metal
dihydrocarbyl dithiophosphate compound in an
amount up to about 0.1 wt. %.
Ex. 1001, 13:47–63.
D. Asserted Grounds of Unpatentability
Petitioner challenges the patentability of claims 1–20
of the ’685 patent on the following grounds (Pet. 3–4):
Claim(s)
Challenged

35 U.S.C. § References

1–3, 6–8, 10, 11, 103
13–15, 18–20

To s h i k a z u
Henderson<?>

4

103

Toshikazu, Henderson,
Schlicht<?>

9, 16, 17

103

Toshikazu, Henderson,
Walker<?>

1–3, 5–8, 10–15, 103
18–20

<?>

Toshikazu, Henderson

,

29a
Appendix B
4

103

Toshikazu, Henderson,
Schlicht

9, 16, 17

103

Toshikazu, Henderson,
Walker

II. ANALYSIS
A. Claim Construction
In this inter partes review, claim terms are construed
according to their broadest reasonable interpretation in
light of the specification of the patent in which they appear.
37 C.F.R. § 42.100(b) (2017);3 Cuozzo Speed Techs., LLC
v. Lee, 136 S. Ct. 2131, 2144–46 (2016) (upholding the
use of the broadest reasonable interpretation standard).
In determining the broadest reasonable construction,
we presume that claim terms carry their ordinary and
customary meaning. See In re Translogic Tech., Inc., 504
F.3d 1249, 1257 (Fed. Cir. 2007). A patentee may define
a claim term in a manner that differs from its ordinary
meaning; however, any special definitions must be set forth
in the specification with reasonable clarity, deliberateness,
and precision. See In re Paulsen, 30 F.3d 1475, 1480 (Fed.
Cir. 1994).
3. A recent amendment to this rule does not apply here,
because the Petition was filed before November 13, 2018. See
Changes to the Claim Construction Standard for Interpreting
Claims in Trial Proceedings Before the Patent Trial and Appeal
Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018) (amending 37 C.F.R. §
42.100(b) effective November 13, 2018) (codified as amended at 37
C.F.R. § 42.100(b) (2019)).

30a
Appendix B
Claims 18–20
Claims 18–20 recite:
18. A method for improving the fuel economy
and fuel economy retention properties of an
internal combustion engine, which comprises:
(1) adding to said engine the lubricating oil
composition of claim 1; and (2) operating said
engine.
19. A method for improving the anti-wear
protection of an internal combustion engine
comprising the steps of: (1) adding a lubricating
oil composition of claim 1; and (2) operating the
engine.
20. A method for improving the compatibility
between a lubricating oil composition and
the seals of an internal combustion engine
comprising the steps of: (1) adding to said
engine a lubricating oil composition of claim 1;
and (2) operating the engine.
Ex. 1001, 14:52–65. As shown above, claims 18–20 each
include a preamble that identifies the purpose or intended
result of the claimed invention and two method steps
requiring (1) the addition of the lubricating oil composition
of claim 1 to an engine and (2) operating the engine. Id.
The parties dispute whether the preambles of claims
18–20 are limiting. Pet. 35–40; Pet. Reply 13; Sur-reply
12–13.

31a
Appendix B
“In general, a preamble limits the invention if it recites
essential structure or steps, or if it is ‘necessary to give
life, meaning, and vitality’ to the claims. Conversely,
a preamble is not limiting ‘where a patentee defines a
structurally complete invention in the claim body and
uses the preamble only to state a purpose or intended
use for the invention.’” Catalina Mkt’g Int’l, Inc. v.
Coolsavings.com, Inc., 289 F.3d 801, 808 (Fed. Cir. 2002)
(internal citations omitted) (quoting Pitney Bowes, Inc. v.
Hewlett-Packard Co., 182 F.3d 1298, 1305 (Fed. Cir. 1999),
and Rowe v. Dror, 112 F.3d 473, 478 (Fed. Cir. 1997)). A
preamble is also generally not limiting when “deletion of
the preamble phrase does not affect the structure or steps
of the claimed invention.” Id. at 809.
Here, the preambles of claims 18–20 are statements of
purpose or intended result and deletion of these preamble
phrases would not affect the steps set forth in claims
18–20. This suggests the preambles are not limiting.
Patent Owner contends a finding that the preambles
are limiting is “necessitated” by the doctrine of claim
differentiation. Sur-reply 12–13. In support of this
position, Patent Owner quotes from Tandon Corp. v. U.S.
International Trade Commission, 831 F.2d 1017, 1023
(Fed. Cir. 1987), which states:
There is presumed to be a difference in meaning
and scope when different words or phrases
are used in separate claims. To the extent
that the absence of such difference in meaning
and scope would make a claim superfluous,

32a
Appendix B
the doctrine of claim differentiation states the
presumption that the difference between claims
is significant.
Although the doctrine of claim differentiation “creates
a presumption that each claim in a patent has a different
scope,” “it is not a ‘hard and fast’ rule of construction.”
Bristol-Myers Squibb Co. v. Ben Venue Labs., Inc., 246
F.3d 1368, 1375 (Fed. Cir. 2001); Seachange Int’l, Inc. v.
C-COR Inc., 413 F.3d 1361, 1368–69 (Fed. Cir. 2005). Thus,
where the preambles of multiple claims provide only a
statement of purpose or intended result, and do not result
in a manipulative difference in the steps of the methods,
the doctrine of claim differentiation, without more,4 does
not require a finding that the preambles are limiting.
Bristol-Meyers Squibb, 246 F.3d at 1375–1376. This is
true even if the result is multiple claims having identical
scope. Id. at 1376 (finding that independent claims 1 and
4. Neither party cites to or relies on the written description
or prosecution history of the ’685 patent to support its proposed
construction. See Allergan Sales, LLC v. Sandoz, Inc., 935 F.3d
1370, 1374–75 (Fed. Cir. 2019) (determining that statements of
purpose or intended result were limiting where they were relied
upon during prosecution to support the patentability of the
claims). Moreover, although the preambles of each claim identify
the subject of the method as an “internal combustion engine” and
the body of each claim refers back to this engine (“said engine”
or “the engine”), this is no different than the claims at issue in
Bristol-Meyers Squibb that were found to be non-limiting, which
identified the subject of the method (“a patient” or “a cancer
patient”) in the preamble and then referred back to this subject
in the body of the claims (“said patient”). Bristol-Meyers Squibb,
246 F.3d at 1371–72.

33a
Appendix B
5 and independent claims 2 and 8 of the involved patent
were of identical scope); see also Tandon, 831 F.2d at 1023
(noting that “practice has long recognized that ‘claims
may be multiplied . . . to define the metes and bounds of
the invention in a variety of different ways,’” and “two
claims which read differently can cover the same subject
matter”) (quoting Bourns, Inc. v. United States, 537 F.2d
486, 492 (Ct. Cl. 1976)). Thus, we find that the preambles
of claims 18–20, which set forth the intended result of the
method steps, are not limiting.
B. Principles of Law
A patent claim is unpatentable under 35 U.S.C. § 103(a)
if the differences between the claimed subject matter
and the prior art are such that the subject matter as a
whole would have been obvious at the time the invention
was made to a person having ordinary skill in the art to
which said subject matter pertains. See KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). The question of
obviousness is resolved on the basis of underlying factual
determinations, including (1) the scope and content of the
prior art; (2) any differences between the claimed subject
matter and the prior art; (3) the level of ordinary skill
in the art; and (4) if in the record, objective evidence of
nonobviousness. Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).
C. Level of Ordinar y Skill in the Art and Dr.
Smolenski’s Testimony
The parties dispute the proper level of ordinary skill

34a
Appendix B
in the art and whether Dr. Smolenski’s testimony should
be relied upon in this proceeding.
1.
art

Level of Ordinary Skill in the Art

Petitioner contends a person of ordinary skill in the
would have had an undergraduate degree in a
relevant field (e.g., Mechanical Engineering,
Materials Science Engineering, Chemical
Engineering, or Chemistry) with three to five
years of experience with formulating and/or
testing engine lubricating oil compositions or a
graduate degree in a relevant field with one to
three years of experience with formulating and/
or testing engine lubricating oil compositions.

Pet. 13 (citing Ex. 1002 ¶ 17).
Patent Owner does not set forth a definition of a person
of ordinary skill in the art, but Dr. Bansal testifies that
a person of ordinary skill in the art would
have a B.S. degree in Chemistry, Chemical
Engineering or an equivalent field as well
as at least 5 years of experience directly
formulating engine lubricating oil compositions
or a graduate degree in Chemistry, Chemical
Engineering or an equivalent field as well as at
least 3 years of experience directly formulating
engine lubricating oil compositions.

35a
Appendix B
Ex. 2003 ¶ 19.
As shown above, both parties generally agree on the
amount and type of education, as well as the amount of
experience, that would have been possessed by one of
ordinary skill in the art, and agree that an individual
with experience in directly formulating engine lubricating
oil compositions may be one of ordinary skill in the art.
Ex. 1002 ¶ 17; Ex. 2003 ¶ 19. The parties’ dispute centers
around whether an individual with experience in the
testing of engine oils may also qualify as one of ordinary
skill in the art. PO Resp. 3–5; Pet. Reply 25–27.
Dr. Bansal testifies that, “[i]n view of the ’685
Patent, the specification and prosecution history, a deep
understanding and hands-on experience formulating
engine lubricant oil is . . . a pre-requisite” to be a person
of ordinary skill in the art. Ex. 2003 ¶ 23. Dr. Bansal
further testifies that in the engine oil additive industry
a “formulation scientist,” or “formulator,” “must possess
extensive knowledge of the additive components, intercomponent interactions, and additive interactions with
the common materials of construction in the engine.” Id.
¶ 20. Dr. Bansal contends additive companies closely guard
this knowledge, which is not available from public sources.
Id. According to Dr. Bansal, in his “long experience in
the additive industry” he has “not come across a single
case where an individual with zero hands-on formulation
experience has been tasked with important formulation
decision making.” Id. ¶ 21. Dr. Rizvi, testifying in support
of Petitioner, agrees with Dr. Smolenski’s assertion that a
person with experience in the testing of engine oils may
qualify as one of ordinary skill in the art. Ex. 1055 ¶ 24.

36a
Appendix B
Dr. Rizvi further testifies that direct experience
formulating an engine oil is not a prerequisite to
appreciate that one could combine well-known additive
components to achieve the advantages disclosed in the
prior art, and notes that he has “interacted with dozens
of individuals who understand the intricacies involved in
formulating engine oils even though they may not have
directly formulated an engine oil.” Id. ¶ 22.
The ’685 patent claims are directed to both a lubricating
oil composition and a method of using this lubricating oil
composition to improve certain qualities of an internal
combustion engine. Ex. 1001, 13:47–63, 14:52–65. The
’685 patent specification discloses engine oil additives,
formulations of additives in a base oil, and test results for
these formulations. Id. at 10:42–13:45 (concluding that the
disclosed test results demonstrate unexpected results),
Tables 1–5. Similar to the ’685 patent, the prior art of
record discloses both engine oil formulations and testing
results for the disclosed compositions. See Ex. 1005 ¶ 9,
Tables 1, 2 (providing formulation information and testing
results for Examples 1–19 and Comparative Examples
1–5). In view of these disclosures, we agree with Petitioner
that one of ordinary skill in the art could have experience
in either formulating an engine oil or testing such oils in
internal combustion engines. Thus, we adopt Petitioner’s
definition of a person of ordinary skill in the art as more
accurately depicting the level of education and experience
of one of ordinary skill in the art, as reflected in the prior
art of record and the ’685 patent. 5
5. We have adopted the lower level of skill in the art
Petitioner has advocated. To the extent a higher level of skill in

37a
Appendix B
2.

Dr. Smolenski’s Testimony

Patent Owner contends Dr. Smolenski is not a person
of ordinary skill in the art and this “automatically impugns
his Declaration.” PO Resp. 4–5. We are not persuaded by
this argument. First, it is undisputed that Dr. Smolenski
is one of ordinary skill in the art under the definition we
adopt. Tr. 73:16–18. Second, there is no requirement that
an expert’s education and experience perfectly match
that of one of ordinary skill in the art in order to provide
testimony. SEB S.A. v. Montgomery Ward & Co., 594 F.3d
1360, 1373 (Fed. Cir. 2010); Sundance, Inc. v. DeMonte
Fabricating Ltd., 550 F.3d 1356, 1363–64 (Fed. Cir. 2008).
An expert must instead have sufficient knowledge, skill,
training, experience or education of a “specialized” nature
to assist the trier of fact in understanding the evidence of
record. SEB, 594 F.3d at 1373.
On this record, we are persuaded that Dr. Smolenski
has sufficient education and experience of a specialized
nature to assist the Board in understanding the evidence
of record. Ex. 1003 (Dr. Smolenski’s CV); Ex. 2005,
141:4–143:8 (Dr. Smolenski testifying that despite the
fact that he has never worked as a formulator, he has had
“extensive exposure to engine oil formulations” and has
a “broad understanding of how engine oil formulations
affected results”), 292:2–13 (Dr. Smolenski testifying that
he has evaluated hundreds of engine oil formulations and
the art were applicable, we note that “[a] less sophisticated level
of skill generally favors a determination of nonobviousness, and
thus the patentee, while a higher level of skill favors the reverse.”
Innovention Toys, LLC v. MGA Entm’t, Inc., 637 F.3d 1314, 1324
(Fed. Cir. 2011).

38a
Appendix B
their performance data during his career). Thus, we will
consider his testimony in this proceeding.
A lthough we decline to exclude or ignore Dr.
Smolenski’s testimony as a whole, we recognize that
Dr. Smolenski lacks significant experience in benchtop
formulation of engine oils. PO Resp. 4; Ex. 2005,
140:22–141:12 (“No, I don’t indicate that I’m an expert
formulator.”). Accordingly, where relevant, we take Dr.
Smolenski’s lack of benchtop formulating experience
into account when determining the weight to give his
testimony, especially where Dr. Rizvi did not confirm
this testimony 6 in his declaration and Dr. Bansal did not
confirm this testimony during his cross-examination.
D. Obviousness of Claims 1–3, 6–8, 10, 11, 13–15, and
18–20 over Toshikazu (Example 16) and Henderson
Petitioner contends the subject matter of claims 1–3,
6–8, 10, 11, 13–15, and 18–20 would have been obvious over
the combined disclosures of Toshikazu (Example 16) and
Henderson. Pet. 18–40.
1.

Toshikazu

Toshikazu discloses lubricating oils for internal
combustion engines that have “excellent wear resistance
and friction characteristics.” Ex. 1005, Abstract, ¶ 1.
6. There is no dispute that Dr. Rizvi is one of ordinary skill
in the art under either party’s definition, and Dr. Rizvi testifies
that the opinions set forth in his declaration would be the same
under either party’s definition of one of ordinary skill in the art.
Ex. 1055 ¶ 24.

39a
Appendix B
Toshikazu explains that anti-wear agents, such as zinc
dithiophosphate (ZnDTP) and zinc dithiocarbamate
(ZnDTC), prevent wear by creating protective films on
metal surfaces. Id. ¶ 6. When anti-wear and friction
reducing agents are used together in a lubricating
composition, however, the function of both components
may be inhibited due to competitive adsorption at metal
surfaces. Id. In addition, ZnDTP and ZnDTC may interact
with certain detergent/dispersant additives, further
impairing their wear resistance. Id. ¶ 7. In view of these
interactions, Toshikazu reports that it had not previously
been possible to achieve satisfactory wear resistance,
friction reduction, cleaning, and dispersion using ZnDTP
or ZnDTC in combination with known lubricant additives.
Id. ¶ 8.
Toshikazu reports that the above limitations can be
overcome
by using the combination of an organic
molybdenum compound and an aliphatic acid
ester as a friction reducing agent, by using
calcium or magnesium sulfonate, or calcium or
magnesium phenate, as a metal detergent, by
using benzylamine, alkenyl succinimides, or
boron derivatives of alkenyl succinimides, as
[an] ashless detergent/dispersant, and by using
ZnDTP or ZnDTC as an antiwear additive.
Id. ¶ 10.
Tables 1 and 2 of Toshikazu are reproduced below:

40a
Appendix B

41a
Appendix B

Tables 1 and 2 provide the compositions of the nineteen
Example lubricants and five Comparative Example
lubricants of Toshikazu. As shown in Tables 1 and 2 above,
the lubricants of Examples 2 and 16 each contain MoDTC
(an organic molybdenum compound), an aliphatic acid
glyceride friction reducing agent, an overbased calcium
sulfonate detergent, a boron-based alkenyl succinimide
ashless detergent/dispersant, an sec-C3- 6 -ZnDTP
antiwear additive, and a base oil comprised of either
mineral oil (Example 2) or synthetic oil (Example 16). Id.
at Tables 1, 2; see also id. ¶¶ 49–51 (identifying the specific
type of additives used in the Example lubricants).
2.

Henderson

Henderson discusses the changing requirements in
the art for engine oils. Ex. 1006, Abstract. Henderson
reports that previous improvements in engine oils had
focused on additive technology, but “with the current shift
in automotive oil requirements, the need for improved

42a
Appendix B
base oils to complement the additives has led to significant
refinery investments.” Id. at 1.7
Henderson reports that one of the improvements in
the art was a shift toward higher quality base oils with
viscosity indices of 100 and above and Noack volatility
levels of less than 15%. Id. at 1–2 (“However, this change
is considered minor compared to the proposed 15%
maximum Noack limit as a secondary mandatory volatility
specification.”).
By using higher quality base oils, Henderson reports
that an oil with enhanced features may be obtained. Id.
at 4. These enhanced features include “improved fuel
economy and retention, oxidation stability, lower volatility
for improved oil consumption control, high temperature
deposit control and exceptional low temperature
pumpability.” Id.
3.

Analysis—Independent Claim 1

Petitioner persuasively demonstrates that the
lubricating composition of Example 16 of Toshikazu
contains an oil of lubricating viscosity, at least one calcium
detergent (overbased calcium sulfonate), at least one oil
soluble molybdenum compound (MoDTC), at least one
organic ashless nitrogen-free friction modifier (aliphatic
acid glyceride), and at least one metal dihydrocarbyl
7. We refer to the original page numbers of Henderson, as
opposed to the page numbers added in the lower left corner by
Petitioner.

43a
Appendix B
dithiophosphate compound (sec-C3- 6ZnDTP). Pet.
19–24; Ex. 1005 ¶¶ 20–23, 49–51, Table 2. Petitioner
also persuasively demonstrates that the composition of
Example 16 is substantially free of ashless aminic friction
modifiers. Pet. 24.
With respect to the amounts of the recited additive
components, Petitioner persuasively demonstrates that
the composition of Example 16 contains between 300 to 320
ppm of molybdenum and has a phosphorus content from
the metal dihydrocarbyl dithiophosphate compound (secC3-6ZnDTP) that is between 0.09 and 0.12 wt. %, a range
that overlaps the claimed range of “up to about 0.1 wt. %.”
Id. at 28–29 (quoting In re Peterson, 315 F.3d 1325, 1329
(Fed. Cir. 2003) (“In cases involving overlapping ranges,
we and our predecessor court have consistently held that
even a slight overlap in range establishes a prima facie
case of obviousness.”)).
Although Toshikazu reports that Example 16 contains
0.72 wt. % overbased calcium sulfonate detergent, it
does not report the total amount of calcium imparted by
this detergent. Petitioner argues, however, that typical
overbased calcium sulfonate detergents in the art had
a calcium content between 11 and 16%, and calculates
that the use of these typical detergents in Example 16
of Toshikazu would result in a calcium content from
the calcium detergent that is between 0.08 and 0.12%,
a range that the claimed range of 0.05 to 0.6 wt. % fully
encompasses. Id. at 27–28.

44a
Appendix B
Toshikazu also does not report the viscosity index or
Noack volatility of its synthetic base oil, but Petitioner
contends one of ordinary skill in the art would have
ensured that the base oil of Example 16 had a viscosity
index above 95 and a Noack volatility below 15%, in
view of Henderson’s disclosure that the industry was
rapidly shifting toward such oils due to their improved
performance and in order to meet the then-applicable
GF-3 standard. Id. at 20–21, 25–27 (citing Ex. 1006, 1–2,
4, 5, 8, Table 5).
In its response, Patent Owner disputes (1) whether
one of ordinary skill in the art would have selected a base
oil with a viscosity index above 95 for use in Example 16
of Toshikazu; (2) whether one of ordinary skill in the art
would have selected a base oil with a Noack volatility
less than 15% for use in Example 16 of Toshikazu;
(3) whether one of ordinary skill in the art would have
selected an overbased calcium sulfonate detergent for use
in Example 16 of Toshikazu that would provide a calcium
content between 0.05 to 0.6 wt. %; and (4) whether one of
ordinary skill in the art would have selected the lubricant
of Example 16 of Toshikazu for further development and
modification. PO Resp. 5–9, 24–35. Patent Owner also
asserts that unexpected results reported in the ’685
patent for the claimed composition support a finding of
nonobviousness. Id. at 8–9, 55–58. We address these
points below.

45a
Appendix B
a.

“an oil of lubricating viscosity having a
viscosity index of at least 95”

The base oil of Example 16 is composed of 80 wt. %
poly-α-olefins and 20 wt. % diisodecyl adipate (a diester).
Pet. 19; Ex. 1005 ¶ 49; Ex. 1002 ¶ 60. Petitioner presents
uncontested testimony that the predominant viscosity
grades for synthetic base stocks in engine oils were 4 and
6 centistoke (“cSt”). Pet. 20 (citing Ex. 1009, 449; Ex. 1002
¶ 61); see also Ex. 1005 ¶ 12 (Toshikazu disclosing that
the base oil preferably has a kinematic viscosity within
the range of 3 to 20 cSt). At a viscosity grade of 4 cSt,
PAO-4 (poly-α-olefin) has a viscosity index of 123, polyol
ester has a viscosity index of 130, and dibasic acid ester
(i.e., a diester) has a viscosity index of 161. Pet. 20 (citing
Ex. 1009, 450, Fig. 4). At a viscosity grade of 6 cSt, PAO-6
has a viscosity index of 135, polyol ester has a viscosity
index of 114, and a diester has a viscosity index of 145. Id.
(citing Ex. 1009, 450, Fig. 5). Applying these values to the
lubricating oil of Example 16, Petitioner contends one of
ordinary skill in the art would have understood that this
lubricating oil had a viscosity index above 95. Id. (citing
Ex. 1002 ¶ 62 (Dr. Smolenski testifying that the mixture
of two synthetic base oils having a viscosity index above
95 would result in a combined base oil with a viscosity
index above 95)).
To the extent one of ordinary skill in the art would
have had any question regarding the viscosity index of
Example 16, Petitioner contends they would have sought to
achieve a viscosity index above 95 in view of Henderson’s
disclosure that base oils having a viscosity index of 100

46a
Appendix B
or above provided several improved features, including
“improved fuel economy and retention, oxidation stability,
lower volatility for improved oil consumption control,
high temperature deposit control, and exceptional low
temperature pumpability.” Id. at 20–21 (citing Ex. 1006,
1–2, 4).
Patent Owner contends one of ordinary skill in the art
would not have simply presumed that the PAO of Example
16 was either 4 cSt or 6 cSt, or that the viscosity index of
Example 16 is greater than 95. PO Resp. 28. Patent Owner
further contends that one of ordinary skill in the art would
not have had a reasonable expectation of success in using a
base oil with a viscosity index exceeding 95 in Example 16
due to Henderson’s and Lakes’8 disclosures that additive
packages used with one type of oil may not be compatible
with, and may not necessarily give the same performance
in, another type of base oil. Id. at 29–30 (citing Ex. 2003
¶ 102; Ex. 1006, 2; Ex. 1009, 17).
Upon review of the parties’ arguments and evidence
as a whole, we find that Toshikazu’s synthetic oil composed
of 80 wt. % poly-α-olefins and 20% diisodecyl adipate (a
diester) could have been formulated to have a viscosity
index of 100 or greater simply by using the predominant
viscosity grades for PAOs known in the art. Pet. 19–20;
Ex. 1055 ¶¶ 42–44 (noting that diisodecyl adipate has a
viscosity index of 136) (citing Ex. 1038, 145 (Table 1)). We
further find that one of ordinary skill in the art would
8. Stephen C. Lakes, Automotive Crankcase Oils, Marcel
Dekker, Inc. (1999) (Ex. 1009, “Lakes”).

47a
Appendix B
have sought to achieve this viscosity index in view of
Henderson’s disclosure that the art was rapidly shifting
towards such oils due to their improved performance. Ex.
1006, 2, 4.
Although Lakes and Henderson disclose respectively
that certain additive packages designed for petroleumbased engine oils may not be suitable for use with
synthetic oils (Ex. 1009, 449), and additive solubility
must be investigated when new types of base oils are
used (Ex. 1006, 2), Petitioner’s proposed combination
does not require a change from the 80 wt% poly-α-olefins
and 20% diisodecyl adipate base oil used in Example 16.
Instead, one of ordinary skill in the art would only have
needed to select a PAO having one of the predominant
viscosity grades used in the art (4 cSt or 6 cSt). Thus, it
is not evident why Henderson’s and Lakes’ concerns with
respect to changing the type of base oil in a lubricating
composition would have been applicable to the selection of
an appropriate viscosity grade for the PAO and diisodecyl
adipate in Example 16 of Toshikazu.
Moreover, as Dr. Rizvi testifies, Toshikazu expressly
indicates that “[t]here is no particular limitation on the
base oil used in the present invention, and it is possible
to use various types of mineral oils, synthetic oils, and so
on that are known in the art.” 9 Ex. 1005 ¶ 12; Ex. 1055
¶¶ 46–49. Consistent with this disclosure, Toshikazu
9. Toshikazu’s disclosures are consistent with those of the
’685 patent, which indicate that any of Group I–V base stocks,
either alone or in combination, may be used in the claimed
invention. Ex. 1001, 2:47–3:22.

48a
Appendix B
reports essentially identical results when the additive
package of Example 16 is used with a mineral base
oil, a synthetic base oil, or a mineral oil/high pressure
hydrogenated base oil. Ex. 1005, Tables 1, 2 (Examples
3, 16, 17). These disclosures suggest that the additive
packages of Toshikazu are not susceptible to solubility
issues when a new base oil is used. Ex. 1055 ¶ 49. Thus, we
credit the testimony of Dr. Smolenski and Dr. Rizvi and
find that one of ordinary skill in the art would have had a
reasonable expectation of success in using a synthetic base
oil that imparts an overall viscosity index of 95 or above to
the lubricating composition of Example 16 of Toshikazu.
Ex. 1002 ¶ 64; Ex. 1055 ¶¶ 46–49; see In re O’Farrell, 853
F.2d 894, 904 (Fed. Cir. 1988) (“For obviousness under
§ 103, all that is required is a reasonable expectation of
success.”).
In view of the foregoing, we find that one of ordinary
skill in the art would have formulated the lubricating
composition of Example 16 of Toshikazu to have a viscosity
index greater than 95 and that such an ordinarily skilled
artisan would have had a reasonable expectation of success
in so doing. Ex. 1055 ¶ 47.
b.

“the composition having a Noack volatility
of about 15 wt. % or less”

Petitioner contends that at 4 cSt and 6 cSt the base oil
of Example 16 would have a Noack volatility of less than
15%. Pet. 25–27. And to the extent Example 16’s Noack
volatility is unclear, Petitioner contends one of ordinary
skill in the art would have ensured that Example 16 had
a Noack volatility of less than 15% in order to comply

49a
Appendix B
with the then-applicable GF-3 standard (as discussed in
Henderson). Id.; Pet. Reply 10; Ex. 1006, 2.
In response, Patent Owner repeats its argument set
forth above regarding potential compatibility or solubility
issues with additive packages when a base oil is changed.
PO Resp. 33 (citing Ex. 2003 ¶¶ 115–118) (asserting that
any formulation changes could necessitate modifications
“of the relative amounts of additive components and the
engine oil”); Sur-reply 10.
At the time the ’685 patent was filed, the GF-3 standard
set a maximum Noack volatility level of 15%. Ex. 1002
¶ 76; Ex. 1006, 1–2; Ex. 1016, 591, 596. This requirement,
as disclosed in Henderson, essentially mandated that any
base oil used in Example 16 be formulated with a Noack
volatility of 15% or less. Pet. 26; Pet. Reply 10; Ex. 1002
¶¶ 76, 80; Ex. 1053, 96:22–97:10 (Dr. Bansal testifying that,
“[b]y 2002, if you were meeting GF-3 standard, then you
would have had to meet 15 percent NOACK”). Thus, we
find that one of ordinary skill in the art would have sought
to formulate the lubricating composition of Example 16
to have a Noack volatility level of 15% or less prior to the
earliest effective filing date of the ’685 patent.
With respect to the question of reasonable expectation
of success, Petitioner persuasively demonstrates that one
of ordinary skill in the art could have formulated the 80 wt.
% poly-α-olefins and 20% diisodecyl adipate synthetic oil
of Toshikazu to have a Noack volatility level of 15% or less
by simply choosing the predominant grades of PAOs used
in the art, and Toshikazu indicates there is no particular
limitation on the type of synthetic oil used. Pet. 25–27;

50a
Appendix B
Ex. 1005 ¶ 12 (“There is no particular limitation on the
base oil used in the present invention, and it is possible to
use various types of mineral oils, synthetic oils and so on
that are known in the art.”); Ex. 1055 ¶¶ 48–50; Ex. 1053,
57:21–58:3 (Dr. Bansal agreeing that one of ordinary skill
in the art had the necessary skills to select an appropriate
base stock for compliance with the GF-3 standard). Thus,
we find that one of ordinary skill in the art would have
had a reasonable expectation of success in formulating
Example 16 of Toshikazu to have a Noack volatility of
less than 15%.
c.

“0.05 to 0.6 wt. % calcium from the calcium
detergent”

Toshikazu discloses that Example 16 contains 0.72 wt.
% overbased calcium sulfonate, but does not report the
Total Base Number (TBN) or the calcium concentration
of this overbased calcium sulfonate. Ex. 1005 ¶ 50, Table
2; PO Resp. 33–34.
In formulating Example 16 of Toshikazu, Petitioner
contends one of ordinary skill in the art would have sought
to use “a typical overbased calcium sulfonate” known in
the art, which Dr. Smolenski testifies would have a calcium
content between “about 11 and 16%.” Pet. 27 (citing Ex.
1002 ¶¶ 82–85; Ex. 1011, 2:43–50); Pet. Reply 11 (citing
Ex. 1055 ¶¶ 55–60). Dr. Smolenski testifies that this level
of calcium content is consistent with the range of 11 to
16% reported in Schlicht, the 12.8 and 12.9 wt. % calcium
levels reported in Woodle,10 and the 11.9% calcium value
10. US 3,373,108, issued Mar. 12, 1968 (Ex. 1012, “Woodle”).

51a
Appendix B
reported in the ’685 patent. Ex. 1002 ¶¶ 83–85 (citing Ex.
1011, 2:43–50; Ex. 1012, 5:47–6:22, 6:42–7:15; Ex. 1001,
11:45–46, Table 3); Ex. 1055 ¶¶ 55–60.
Petitioner, with supporting testimony from Dr.
Smolenski, calculates that use of a typical overbased
calcium sulfonate in Example 16 of Toshikazu would result
in a total calcium concentration of between 0.08 and 0.12
wt. %, a range that the calcium range recited in claim 1
fully encompasses. Pet. 27 (citing Ex. 1002 ¶¶ 82–85). And
to the extent it was possible to find “outlier overbased
calcium detergents” that would result in Example 16
having a range of calcium content outside the claimed
range, Petitioner contends the range of calcium content
Example 16 suggests would have “at a minimum rendered
the claimed range obvious.” Id. at 28 (citing Peterson, 315
F.3d at 1329).
Patent Owner does not expressly dispute that
typical overbased calcium sulfonate detergents known
in the art had a calcium content between 11 and 16%, but
contends it is impossible to know the total calcium in the
composition of Example 16 because Toshikazu does not
report the pedigree of the calcium sulfonate, which is
usually delivered in a diluent oil. PO Resp. 33–35. Patent
Owner further contends there is no reason to assume the
same calcium sulfonate was used in both Toshikazu and
the ’685 patent, or that the total calcium wt. % would be
the same as in Schlicht or Woodle. Id. at 34–35. Finally,
Patent Owner contends Woodle discloses the use of at least
one calcium sulfonate that would provide a total calcium
content of 0.0144 wt. % in Example 16, which is outside
the range recited in claim 1. Id. at 35.

52a
Appendix B
We agree with Patent Owner that it is impossible
to determine, based on the information provided in
Toshikazu, the calcium content provided by the overbased
calcium sulfonate detergent of Example 16. That said,
Petitioner presents an obviousness ground, not an
anticipation ground, and with supporting testimony from
Dr. Smolenski and Dr. Rizvi, demonstrates that (1) one
of ordinary skill in the art looking to replicate Example
16 of Toshikazu would have used a typical overbased
calcium sulfonate detergent, (2) typical overbased
calcium sulfonate detergents generally had a calcium
content ranging from 11 to 16%, and (3) using a typical
overbased calcium sulfonate detergent in Example 16
would result in a range of calcium between 0.08 and 0.12
wt. %. Pet. 27; Pet. Reply 11–13; Ex. 1002 ¶¶ 84–85; Ex.
1055 ¶¶ 56–60 (examining the amount of calcium used
in prior art lubricating compositions); Ex. 1012, 2:7–9
(Woodle disclosing that its overbased calcium sulfonate
concentrate preferably has a calcium content of 11 to
18 wt. %); Ex. 1011, 2:50–51 (Schlicht disclosing that its
overbased calcium sulfonate concentrate has a calcium
content of between about 11 and 16 wt. %).11 This evidence
is sufficient to demonstrate that one of ordinary skill in
the art would have found it obvious to provide a calcium
content for use in Example 16 of Toshikazu that is within
the range recited in claim 1.
11. Petitioner cites to calcium sulfonate products identified
in the ’685 patent. Pet. 27. We do not rely on these disclosures
as evidence of the state of the art as of the filing date of the
’685 patent. We note, however, that the identified disclosures
are consistent with Petitioner’s arguments regarding typical
overbased calcium sulfonate detergents.

53a
Appendix B
Patent Owner presents evidence that some overbased
calcium sulfonates are delivered in diluent oil. Ex. 2003
¶ 121. Even if it is possible that a particular batch of a
typical overbased calcium sulfonate detergent could be
diluted, however, the range of calcium Toshikazu teaches
or suggests would still significantly overlap the range of
calcium recited in claim 1. Pet. 27–28; Pet. Reply 12; Ex.
1053, 107:12–25 (Dr. Bansal testifying that the range of
calcium recited in claim 1 is “pretty broad”). Thus, the
calcium range of claim 1 is presumptively obvious. See E.I.
du Pont de Nemours & Co. v. Synvina C.V., 904 F.3d 996,
1006 (Fed. Cir. 2018) (“[W]here the general conditions of
a claim are disclosed in the prior art, it is not inventive
to discover the optimum or workable ranges by routine
experimentation.”) (quoting In re Aller, 220 F.2d 454, 456
(CCPA 1955)); Pet. 28 (citing In re Peterson, 315 F.3d at
1329); Pet. Reply 12.
A presumption of obviousness may be overcome by
showing the range in question is “critical,” i.e., the range
produces new and unexpected results, or by showing
that the prior art taught away from the claimed range.
E.I. DuPont, 904 F.3d at 1006. On this record, we are
presented with no evidence or argument to suggest that
the calcium range recited in claim 1 is “critical,” or that
the prior art taught away from such a range. See PO Resp.
58 (Patent Owner asserting that it is the combination
of relatively small amounts of molybdenum compounds
and organic ashless nitrogen-free friction modifiers that
provides unexpected results). Thus, Patent Owner has
not rebutted the presumption of obviousness in this case.

54a
Appendix B
Upon review of the evidence as a whole, we find that
the combined disclosures of Toshikazu and Henderson
render the range of calcium recited in claim 1 obvious.
d.

Selection of Example 16 of Toshikazu

Toshikazu discloses nineteen Example lubricants for
internal combustion engines that demonstrate “excellent
wear resistance,” “low friction coefficient,” and better
performance than five Comparative Example lubricants.
Ex. 1005 ¶¶ 11, 44–51, Abstract, Tables 1, 2; Pet 14.
Petitioner contends one of ordinary skill in the art would
have selected any one of Toshikazu’s Example lubricants,
including Example 16, for further development and
improvement. Pet. 15, 20–21, 25–27; Pet. Reply 1–2.
Patent Owner contends Petitioner has not persuasively
demonstrated that one of ordinary skill in the art would
have looked to any of Toshikazu’s nineteen Example
lubricants, much less specifically selected Example 16
of Toshikazu for further development. PO Resp. 5–7,
24–26. First, Patent Owner contends one of ordinary skill
in the art would not have looked to any of Toshikazu’s
Example lubricants in view of its incomplete disclosure of
the viscosity of its base oil, the wt. % of calcium, and the
amount of molybdenum and phosphorus in its lubricating
oils. Id. at 5–6, 25 (citing Ex. 2003 ¶¶ 41–42, 69–73, 90).
We are not persuaded by this argument.
Toshikazu discloses the amount of MoDTC, overbased
calcium sulfonate, and ZnDTP in Example 16, and
Petitioner persuasively demonstrates that one of ordinary
skill could have readily calculated from Toshikazu’s

55a
Appendix B
disclosures the ranges of molybdenum and phosphorus in
Example 16. Pet. 28–30; Pet. Reply 4–5; Ex. 1005, Table
2. In addition, for the reasons discussed above, we find
that one of ordinary skill in the art would have found it
obvious in view of Henderson and the general knowledge
of one of ordinary skill in the art to use a typical overbased
calcium sulfonate detergent, a base oil having a viscosity
index above 95, and a base oil with a Noack volatility below
15%.12 Pet. 19–21, 24–28; Pet. Reply 4–5. Accordingly, we
are not persuaded that one of ordinary skill in the art
would have avoided the disclosures of Toshikazu in view
of a perceived lack of critical information.
Second, Patent Owner contends that even if one
of ordinary skill in the art were to look to Toshikazu’s
Examples, they would not have selected Example 16 for
further development because this lubricating composition
performed worse than the lubricating compositions of
Examples 3, 5, and 7. PO Resp. 7, 25–26; Ex. 2003 ¶¶ 91–92
(Dr. Bansal testifying that Example 16 of Toshikazu “did
not perform as well in friction coefficient and wear track
diameter as Examples 3, 5, and 7”).
As Patent Owner notes, the results reported for the
inventive Examples are not identical. PO Resp. 25–26.
For example, the lubricant of Example 16 of Toshikazu
12. Petitioner presents persuasive evidence that one of
ordinary skill in the art would have understood how to successfully
blend the additives with the base oil of Toshikazu. Pet. Reply
4–5 (citing Ex. 1055 ¶¶ 25, 33; Ex. 1053, 57:21–58:3, 58:18–59:22,
98:20–103:12); see also Ex. 1001, 10:16–17 (instructing that “[t]he
individual additives may be incorporated into a base stock in any
convenient way”).

56a
Appendix B
provides a friction coefficient of 0.045 and a wear track
diameter (mm) of 0.43, whereas the lubricants of Examples
3, 5, and 7 provide a friction coefficient of 0.041, 0.041,
and 0.039, respectively, and a wear track diameter (mm)
of 0.41, 0.41, and 0.41, respectively. Ex. 1005, Tables 1, 2;
PO Resp. 25–26 (provided chart).
Dr. Rizvi testifies that the ASTM standard test for
measuring coefficient of friction uses a “shell-type four
ball test” having a repeatability of “0.20 x average value”
and the standard test for wear preventive characteristics
has a repeatability of “0.12 mm scar diameter difference.”
Ex. 1055 ¶¶ 34–37. According to Dr. Rizvi, because the
results reported in Toshikazu for coefficient of friction
and wear track diameter are all within the repeatability
of the applicable tests, a person of ordinary skill in the
art would not have considered the differences in Examples
1–19 to be significant or important. Id. ¶¶ 34–38, 94. Patent
Owner did not contest the substance of this testimony
in its briefing. See Sur-reply 5–7. Given that the results
reported in Toshikazu are all within the repeatability
of the applicable tests, we credit the testimony of Dr.
Rizvi that one of ordinary skill in the art would not have
differentiated the results reported for Examples 1–19 of
Toshikazu.13 Ex. 1055 ¶¶ 33–38; Pet. Reply 2.
Patent Owner argues “Petitioner cannot credibly
allege that Toshikazu Examples 16 and 2 motivate a
13. During cross examination, Dr. Smolenski agreed that
the friction wear results reported for Examples 3, 5, and 7 of
Toshikazu were “better” than those reported for Example 16. Ex.
2005, 216:5–10. Dr. Smolenski did not concede, however, that one of
ordinary skill in the art would have considered these numerically
“better” results significant or important.

57a
Appendix B
skilled artisan to the claims of the ’685 patent while at
the same time argue that they are no different than any
other example.” Sur-reply 7. According to Patent Owner,
the disclosure of nineteen similar example lubricants is
“at most an invitation at guesswork that would only be
successful via hindsight if the ’685 patent was used as a
blueprint.” Id.
As Petitioner explains, Toshikazu discloses that
its lubricating oil compositions for internal combustion
engines have “excellent wear resistance,” “a low coefficient
of friction,” and perform better than Comparative
Examples 1–5. Pet. 14–15 (citing Ex. 1005 ¶¶ 1, 9, Tables 1,
2, Abstract; Ex. 1002 ¶¶ 44–47). These disclosures provide
ample reason for one of ordinary skill in the art to have
selected any of the example lubricating oils of Toshikazu
for further development. Moreover, even if the results
reported for Examples 3, 5, and 7 were understood to be
quantifiably better than those reported for Example 16,
we agree with Petitioner that there was still a reason one
of ordinary skill would have selected any of Examples 1–19
for further development; namely, these example lubricants
all provided excellent results and outperformed each of
the Comparative Examples.14 Pet. Reply 1–2 (citing Ex.
1005 ¶¶ 52–53, Tables 1, 2; Ex. 1053, 171:9–25).
14. Patent Owner asserts a “lead compound” analysis should
be used in this case. Sur-reply 1, 8; PO Resp. 6. To the extent a lead
compound analysis were applicable to lubricating oil compositions,
however, the Federal Circuit has expressly rejected the argument
that a lead compound analysis requires that the prior art point
to only a single, or best, lead compound for further development
efforts. See Altana Pharm. Ag v. Teva Pharms. USA, Inc., 566
F.3d 999, 1008–09 (Fed. Cir. 2009).

58a
Appendix B
Third, Patent Owner contends the data in Toshikazu
and Waddoups15 would have led away from the claimed
invention by encouraging the use of more MoDTC, not less,
and the use of less ashless nitrogen-free friction modifier,
not more. PO Resp. 7, 26 (asserting that a comparison
of Examples 2 and 3 of Toshikazu would have led away
from the claim elements of the ’685 patent), 52 (asserting
formulations in Waddoups with 900 ppm molybdenum
provided superior performance). We do not find this
argument persuasive because, as discussed above, we
credit the testimony of Dr. Rizvi that one of ordinary
skill in the art would not have differentiated the results
reported for the Example lubricants of Toshikazu.
Moreover, even if one of ordinary skill in the art would
have differentiated the results reported for Toshikazu’s
examples, we do not agree that they would have been
led from these examples to use more MoDTC and less
aliphatic glyceride. As Petitioner notes, Examples 2
and 3 of Toshikazu vary in aliphatic glyceride content,
whereas Examples 1 and 3 contain the same amount of
aliphatic glyceride. Pet. Reply 3; Ex. 1005, Table 1. The
results reported for Examples 1 and 3 demonstrate that
the composition containing lower amounts of MoDTC
in combination with an aliphatic glyceride actually
provides better results (at least under Patent Owner’s
interpretation of the test results). Pet. Reply 3 (citing Ex.
1055 ¶ 95); Ex. 1005, Table 1.

15. US 6,074,9 93, issued June 13, 2 0 0 0 (Ex. 2 0 0 8 ,
“Waddoups”).

59a
Appendix B
In view of the foregoing, and upon review of the
parties’ arguments and the art as a whole, we find that one
of ordinary skill in the art would have selected Example
16 of Toshikazu for further development.
e.

Unexpected Results

Patent Owner contends that, in the 1990s, there
was a movement to reduce the phosphorous content of
engine oils by limiting the amount of ZDDP additive in
lubricating oil compositions. PO Resp. 55 (citing Ex. 2003
¶ 252). As part of this movement, additive companies
began to use oil-soluble molybdenum compounds in
place of phosphorus-containing antiwear additives. Id.
at 55–56. According to Patent Owner, prior art patents,
including Waddoups, demonstrated that lubricating oil
compositions with high levels of molybdenum provided
superior performance in terms of coefficient of friction
as compared to formulations containing small amounts
of molybdenum. Id. at 56. In view of these coefficient of
friction results, Patent Owner contends one of ordinary
skill in the art would have believed that formulations with
large amounts of molybdenum would also provide superior
fuel economy performance, especially under boundary
conditions. Id. (citing Ex. 2003 ¶¶ 260–266).
Patent Owner contends test results reported in the
’685 patent show the same improvement in coefficient of
friction when relatively high amounts of molybdenum
are used in lubricating compositions, but also show that
when these same lubricating oils were subjected to a
fuel economy test, compositions containing a low amount

60a
Appendix B
of molybdenum in combination with an organic ashless
nitrogen-free friction modifier actually provided superior
fuel economy results. Id. at 57–58. Patent Owner contends
these results “are truly unexpected.” Id. at 58.
Secondary considerations of nonobviousness must be
considered when present “and can serve as an important
check against hindsight bias.” Bristol-Myers Squibb Co.
v. Teva Pharms. USA, Inc., 752 F.3d 967, 977 (Fed. Cir.
2014). “To be particularly probative,” however, “evidence
of unexpected results must establish that there is a
difference between the results obtained and those of the
closest prior art, and that the difference would not have
been expected by one of ordinary skill in the art at the
time of the invention.” Id. (citing Kao Corp v. Unilever
U.S., Inc., 441 F.3d 963, 971 (Fed. Cir. 2006)). A finding of
unexpected results may also be entitled to limited weight
when there would have been a separate reason to modify
the prior art to arrive at the claimed invention. Id. at 976.
Patent Owner provides no comparison of fuel
economy improvement between the claimed lubricating
compositions and the closest prior art. For example, Patent
Owner does not compare the fuel economy results for the
claimed lubricating compositions and the lubricating
composition of Example 16 of Toshikazu, which has the
same combination of relatively low molybdenum levels and
an organic ashless nitrogen-free friction modifier that
the ’685 patent reports provides the alleged unexpected
results. Ex. 1001, 13:3–35. Thus, we cannot conclude that
Patent Owner has demonstrated “a difference between
the results obtained” in the ’685 patent “and those of the
closest prior art.” Bristol-Meyers Squibb, 752 F.3d at 977.

61a
Appendix B
In addition, Toshikazu reports that its inventive
Examples provide “excellent” results. These reported
results provide a strong reason to use low levels of
molybdenum in combination with an organic ashless
nitrogenfree friction modifier. Patent Owner’s evidence
that this same combination of additives also provides an
additional benefit with respect to fuel economy does not
alter the fact that the advantages of the combination of
low molybdenum and an organic ashless nitrogen-free
friction modifier were known in the art. Pet. Reply 25 (“A
[person of ordinary skill in the art] would have understood
from Toshikazu and other literature that MoDTC and
ashless organic friction modifiers should be combined.”).
Thus, we find that Patent Owner’s evidence of unexpected
results with respect to fuel economy is entitled to limited
weight. See Allergan, Inc. v. Sandoz Inc., 726 F.3d
1286, 1293 (Fed. Cir. 2013) (noting that evidence that a
particular combination also solved additional problems
is not meaningful when “the motivation to make the
combination was real”); Bristol-Myers Squibb, 752 F.3d at
976 (“As here, Dillon’s claimed compound demonstrated
both expected and additional, unexpected properties.
Those additional unexpected properties, however, did
not upset an already established motivation to modify a
prior art compound based on the expected properties of
the resulting compound.”) (citing In re Dillon, 919 F.2d
688, 692 (Fed. Cir. 1990) (en banc)).
f.

Conclusion with Respect to Claim 1

A s discussed above, Petitioner has identif ied
where Toshikazu and enderson teach or suggest every
limitation of claim 1. Petitioner also provides a persuasive

62a
Appendix B
explanation as to why record evidence supports that one of
ordinary skill in the art would have sought to combine the
teachings of Toshikazu and Henderson with a reasonable
expectation of success.
When Petitioner’s arguments and supporting evidence
are considered in combination with Patent Owner’s
relatively weak evidence of nonobviousness, we determine
that Petitioner has demonstrated by a preponderance of
the evidence that the subject matter of claim 1 would have
been obvious over the combined disclosures of Toshikazu
(Example 16) and Henderson.
4.

Analysis—Dependent Claims 2, 3, 6–8, 10, 11,
and 13–15

Petitioner provides detailed analysis explaining where
Toshikazu and Henderson teach or suggest the subject
matter of dependent claims 2, 3, 6–8, 10, 11, and 13–15.
Pet. 30–35. In particular, Petitioner identifies where
the combined disclosures of Toshikazu and Henderson
teach or suggest: (1) using an overbased calcium
sulfonate detergent (claims 2 and 3) (id. at 30–31 (citing
Ex. 1002 ¶¶ 91–92; Ex. 1005 ¶¶ 50, 52, 53)); (2) using an
organomolybdenum compound in the form of molybdenum
dialkyldithiocarbamate (claims 6–8) (id. at 31–32 (citing
Ex. 1002 ¶¶ 93–98; Ex. 1005 ¶¶ 49, 53)); (3) using a
molybdenum/sulfur complex of a basic nitrogen compound
(claim 10) (id. at 32 (citing Ex. 1002 ¶¶ 99–100; Ex. 1005
¶¶ 49, 53)); (4) using at least one zinc dihydrocarbyl
dithiophosphate compound in the form of sec-C3-6ZnDTP
(claim 11) (id. at 33 (citing Ex. 1002 ¶¶ 101–102; Ex. 1005

63a
Appendix B
¶ 53)); (5) using an organic ashless nitrogen-free friction
modifier that is an ester (glycerol monooleate) (claims
13–14) (id. at 33–34 (citing Ex. 1002 ¶¶ 103–105 (Dr.
Smolenski testifying that the glycerol monooleate of
Toshikazu is an aliphatic acid ester); Ex. 1005 ¶¶ 49–50,
53)); and (6) a composition that contains between 0.09
to 0.12 wt. % phosphorus from the metal dihydrocarbyl
dithiophosphate compound (sec-C3-6ZnDTP), a range
that overlaps the claimed range of about 0.025 wt. % to
about 0.1 wt. % (claim 15) (id. at 34–35 (citing Ex. 1002
¶¶ 106–108; Ex. 1005 ¶¶ 51, 53)).
Patent Owner does not address Petitioner’s arguments
or evidence with respect to these challenged claims, apart
from asserting that these claims would not have been
obvious over Toshikazu and Henderson because they
depend from claim 1. PO Resp. 35–36.
Upon review of the evidence of record and the parties’
arguments as a whole, and for the reasons discussed above
with respect to claim 1, we determine that Petitioner has
demonstrated by a preponderance of the evidence that
claims 2, 3, 6–8, 10, 11, and 13–15 would have been obvious
over the combined disclosures of Toshikazu (Example 16)
and Henderson. Pet. 30–35 (citing Ex. 1005 ¶¶ 49, 50, 52,
53; Ex. 1002 ¶¶ 91–108).
5.

Analysis—Dependent Claims 18–20

As noted above, we conclude that the preambles of
claims 18–20 are not limiting. Thus, these claims require
the steps of (1) adding the lubricating oil of claim 1 to an

64a
Appendix B
internal combustion engine and (2) operating the engine.
Ex. 1001, 14:52–65.
Toshikazu discloses a lubricating oil composition for
internal combustion engines that provides “excellent wear
resistance and friction characteristics” and Henderson
reports that its disclosed lubricating oils provide
improved properties when used in an internal combustion
engine. Ex. 1005, Abstract; Ex. 1006, 4. As Petitioner
notes, to achieve the results reported in Toshikazu and
Henderson, the lubricating oil composition of Toshikazu
and Henderson would necessarily be added to an
internal combustion engine and the engine then operated
using this oil, thereby meeting both steps of claims
18–20. Pet. 35–40 (and evidence cited therein); Ex. 1002
¶¶ 110, 112. Accordingly, Petitioner has demonstrated by a
preponderance of the evidence that the subject matter of
claims 18–20 would have been obvious over the combined
disclosures of Toshikazu and Henderson.
Even if we were to find that the preambles of
claims 18–20 are limiting, Petitioner has sufficiently
demonstrated that Toshikazu and Henderson teach or
suggest these limitations. As Petitioner notes, Toshikazu
expressly discloses that its lubricating compositions
provide excellent wear performance (claim 19) and
Henderson discloses that using a base oil with a viscosity
index exceeding 95 and a Noack volatility level below 15%
would lead to improved fuel economy and retention (claim
18). Pet. 36–39 (citing Ex. 1006, 4 (Henderson explaining
that high viscosity index base oils provide “improved fuel
economy and retention”)). Petitioner also demonstrates
that one of ordinary skill in the art would have reasonably

65a
Appendix B
expected Example 16, which utilizes a nitrogen-free
friction modifier, to provide improved compatibility with
fluoroelastomer seals of an internal combustion engine.
Id. at 40 (citing Ex. 1008, 2; Ex. 1002 ¶ 121); Pet. Reply
15 (citing Ex. 1055 ¶¶ 66–70).
In view of the foregoing, Petitioner has demonstrated
by a preponderance of the evidence that the subject
matter of claims 18–20 would have been obvious over
the combined disclosures of Toshikazu (Example 16) and
Henderson.
6.

Conclusion

Upon review of Petitioner’s and Patent Owner’s
arguments and supporting evidence, we determine that
Petitioner has demonstrated by a preponderance of the
evidence that the subject matter of claims 1–3, 6–8, 10,
11, 13–15, and 18–20 of the ’685 patent would have been
obvious over the combined disclosures of Toshikazu
(Example 16) and Henderson.
E. Obviousness of Claim 4 in View of Toshikazu
(Example 16), Henderson, and Schlicht
Claim 4 depends from claim 3 and further requires
that the “overbased calcium sulfonate has a total base
number of between about 150 to 450.” Ex. 1001, 14:3–5.
Petitioner contends the subject matter of claim 4 would
have been obvious over the combined disclosures of
Toshikazu (Example 16), Henderson, and Schlicht. Pet.
41–42; Pet. Reply 16.

66a
Appendix B
1.

Schlicht

Schlicht discloses “a method of producing very highly
overbased calcium sulfonate-lube oil concentrates.” Ex.
1011, 1:25–28. The example overbased calcium sulfonates
disclosed in Schlicht have a TBN from 193 to 311. Id. at
5:21–7:27.
Schlicht reports that “[o]verbased metal sulfonates
are known to have excellent detergent characteristics
and are particularly effective in preventing sludge buildup in heavy duty oils used for combustion engines.” Id. at
1:45–48. According to Schlicht, “[o]ne of the most effective
overbased sulfonates is overbased calcium sulfonate.” Id.
at 1:51–52.
2.

Analysis

Example 16 of Toshikazu contains 0.72 wt. % overbased
calcium sulfonate, but Toshikazu does not report the
precise type of calcium sulfonate used in its example
lubricants. Ex. 1005 ¶ 50. Petitioner contends that, because
Schlicht discloses that its overbased calcium sulfonates are
particularly effective in preventing sludge build-up and
were “known to have excellent detergent characteristics,”
one of ordinary skill in the art would have sought to use
these disclosed detergents (having a TBN between 193
and 311) in Example 16 of Toshikazu. Pet. 42 (citing Ex.
1011, 1:45–48; Ex. 1002 ¶¶ 124–126). Petitioner further
contends that one of ordinary skill in the art would have
expected the detergents of Schlicht to work successfully in
the lubricating composition of Toshikazu and Henderson,

67a
Appendix B
as Toshikazu reports that overbased calcium sulfonates
have a minimal effect on the friction reducing properties
of the lubricating composition. Id. (citing Ex. 1005 ¶ 34).
Patent Owner asserts that one of ordinary skill in
the art would not have looked to Schlicht’s disclosures
because they would not have known whether the overbased
calcium sulfonate suggested in Schlicht was compatible
with Example 16 of Toshikazu. PO Resp. 41–42; Sur-reply
14–15 (asserting that use of a new overbased calcium
sulfonate detergent could require a formulation change).
We do not find this argument persuasive.
First, Petitioner persuasively argues that one of
ordinary skill would have combined the disclosures
of Toshikazu, Henderson, and Schlicht to achieve the
excellent results reported in Schlicht for its overbased
calcium sulfonate detergents. Pet. 42 (citing Ex. 1011,
1:45–48). Patent Owner does not dispute this reasoning.
Sur-reply 14 (Patent Owner asserting that there may well
have been “a motivation to apply the teaching of Schlicht
to Toshikazu”).
Second, the reasonable expectation of success
requirement looks to “the likelihood of success in
combining references to meet the limitations of the
claimed invention,” and there is no credible argument from
Patent Owner or testimony from Dr. Bansal that one of
ordinary skill would have had any difficulty in adding the
overbased calcium sulfonates suggested in Schlicht to the
lubricating oil of Toshikazu and Henderson to arrive at
the claimed invention. See Intelligent Bio-Systems, Inc. v.

68a
Appendix B
Illumina Cambridge Ltd., 821 F.3d 1359, 1367 (Fed. Cir.
2016); Ex. 1055 ¶ 72 (Dr. Rizvi testifying that Dr. Bansal’s
concerns with respect to the selection of a particular
overbased calcium sulfonate detergent are “overstated”);
Ex. 1005 ¶¶ 33–34 (Toshikazu disclosing that the metal
detergent may be selected from any of calcium sulfonates,
magnesium sulfonates, calcium phenates, and magnesium
phenates); Ex. 1001, 7:53–8:12.
In view of the foregoing, we find that Petitioner
provides a persuasive rationale supported by factual
underpinnings to explain why one of ordinary skill in the
art would have sought to use overbased calcium sulfonates
having a TBN between 193 and 311 in Example 16 of
Toshikazu. Petitioner also sufficiently demonstrates that
one of ordinary skill in the art would have had a reasonable
expectation of success in combining the disclosures of
Toshikazu, Henderson, and Schlicht to arrive at the subject
matter of claim 4 of the ’685 patent. Pet. 42; Pet. Reply 16.
Thus, Petitioner has demonstrated by a preponderance of
the evidence that the subject matter of claim 4 would have
been obvious over the combined disclosures of Toshikazu
(Example 16), Henderson, and Schlicht.
F. Obviousness of Claims 9, 16, and 17 over Toshikazu
(Example 16), Henderson, and Walker
Claim 9 depends from claim 8 and further requires that
the molybdenum compound is a trinuclear molybdenum
compound. Ex. 1001, 14:21–23. Claim 16 depends from
claim 15 and further requires that the composition contains
“from about 0.025 wt. % to 0.075 wt. % phosphorus from

69a
Appendix B
the metal dihydrocarbyl dithiophosphate compound.” Id.
at 14:44–47. Claim 17 depends from claim 16 and further
requires that the composition contains “from about
0.025 wt. % to 0.05 wt. % phosphorus from the metal
dihydrocarbyl dithiophosphate compound.” Id. at 14:48–51.
Petitioner contends the subject matter of claims 9,
16, and 17 would have been obvious over the combined
disclosures of Toshikazu (Example 16), Henderson, and
Walker. Pet. 42–47.
1.

Walker

Walker discloses crankcase lubricants for internal
combustion engines that comprise “a lubricating base stock,
a dispersant, a metal dihydrocarbyl dithiophosphate, and
either a copper-containing compound or a molybdenumcontaining compound.” Ex. 1007, 1:3–5, 2:12–15.16
Walker instructs that the molybdenum compound may
be selected from, among other things, molybdenum salts
of inorganic or organic acids, or molybdenum compounds
comprising a “trinuclear molybdenum core.” Id. at 11:7–
12:11. The trimer form of the molybdenum compounds
in Walker “may be represented by the general formula
Mo3SkLp,” wherein “L represents a ligand for example
dithiocarbamate,” “p is in the range from 1 to 4,” and “k
is at least 4, especially 4 to 10, preferably 4 to 7.” Id. at
12:6–11.
16. We refer to the original page numbers of Walker found
at the top of each page.

70a
Appendix B
Walker discloses that use of ZDDP or other
dihydrocarbyl dithiophosphate salts as anti-wear agents
was “common,” but it had been found that the phosphorus
in such materials has a harmful effect on catalytic
converters. Id. at 2:4–7. As such, Walker indicates that “it
is desirable to minimize the proportions of such materials
so far as possible.” Id. at 2:8–11. In Walker’s inventive
lubricating compositions, “the phosphorus content of the
composition is at most 0.08% and preferably it is at most
0.06%, more preferably at most 0.05%, by weight of the
composition.” Id. at 2:26–29.
2.

Analysis—Claim 9

Petitioner contends one of ordinary skill in the art
would have understood that the trinuclear molybdenum
dialkyldithiocarbamate of Walker “was substitutable with
other molybdenum dialkyldithiocarbamates” and would
have expected this trinuclear molybdenum compound to
exhibit “similar results” to the molybdenum compound
used in Example 16 of Toshikazu. Pet. 43–44 (citing Ex.
1002 ¶ 130). Petitioner further contends that one of ordinary
skill in the art “would not have believed that a substantial
difference in amount” of trinuclear molybdenum “would
be required to meet or exceed improvements in friction
coefficient and wear.” Id.; Pet. Reply 16–17 (citing Pet.
43–44; Ex. 1002 ¶¶ 128–130; Ex. 1055 ¶ 73).
Patent Owner asserts that one of ordinary skill in
the art “would not necessarily modify Example 16 from
Toshikazu to incorporate a trinuclear molybdenum
compound as disclosed in Walker,” because one of

71a
Appendix B
ordinary skill in the art “would be left to guess how much
of the trinuclear molybdenum compound would need to
be employed in order to achieve the same or improved
performance in terms of friction coefficient and wear.”
PO Resp. 43 (citing Ex. 2003 ¶ 159).
When a known composition is altered “by the mere
substitution of one element for another known in the field,
the combination must do more than yield a predictable
result.” KSR, 550 U.S. at 416 (“The combination of familiar
elements according to known methods is likely to be obvious
when it does no more than yield predictable results.”). On
this record, Petitioner sufficiently demonstrates that
one of ordinary skill in the art would have considered
the trinuclear molybdenum compound of Walker to be
interchangeable with the MoDTC compound used in
Example 16 of Toshikazu, and would have expected
this substitution to yield a predictable result. Ex. 1002
¶¶ 129–130; Ex. 1055 ¶¶ 73–74. As such, we are persuaded
that one of ordinary skill in the art would have found it
obvious to use a trinuclear molybdenum compound in
Example 16 of Toshikazu.
Contrary to Patent Owner’s arguments, we are not
persuaded that one of ordinary skill in the art would
have needed to blindly “guess” as to the appropriate
amount of trinuclear molybdenum to use in Example 16
of Toshikazu. PO Resp. 43. First, Toshikazu Example 16
uses between 300 and 320 ppm molybdenum, and Patent
Owner fails to persuasively rebut Petitioner’s argument
and evidence that the amount of trinuclear molybdenum
necessary to achieve the same results in Example 16 would

72a
Appendix B
not be substantially different. Pet. 43–44; Pet. Reply
16–17. Second, although the precise amount of trinuclear
molybdenum required in Example 16 of Toshikazu is not
disclosed in Toshikazu, Henderson, or Walker, Petitioner
provides credible evidence that the appropriate amount
of trinuclear molybdenum could be determined using a
simple bench test. Ex. 1055 ¶ 73. Third, Walker and other
prior art references expressly suggest using specific
amounts of molybdenum that fall within the range of claim
9. Pet. Reply 17 (citing Ex. 1055 ¶ 74); Ex. 1007, 10:31–11:2
(Walker disclosing that the most preferred amount of
molybdenum is 250 ppm).17
In view of the foregoing, Petitioner has demonstrated
by a preponderance of the evidence that the subject matter
of claim 9 would have been obvious over the combined
disclosures of Toshikazu (Example 16), Henderson, and
Walker.
3.

Claims 16 and 17

The lubricating composition of Example 16 of Toshikazu
contains between 0.09 and 0.12 wt. % phosphorus. Pet. 29,
44 (citing Ex. 1002 ¶¶ 89, 132, 137). Petitioner asserts
that one of ordinary skill in the art would have been
17. Example 16 of Toshikazu utilizes between 300 and 320
ppm molybdenum and Walker’s preferred range is 50 to 350 ppm.
Patent Owner does not direct us to any evidence to suggest that
use of Walker’s trinuclear molybdenum compound in Toshikazu
would require increasing total molybdenum levels, or that such a
substitution would result in less than 10 ppm molybdenum, which
is the lower end of the range recited in claim 1 of the ’685 patent.

73a
Appendix B
motivated to lower the level of phosphorus in Example 16
to 0.05 wt. % because it was well known in the art that the
phosphorus in engine oils poisons emission control devices
and the proposed GF-4 standard mandated lower levels
of phosphorus in lubricating oils. Id. at 44–45; Ex. 1007,
2:4–11 (noting that phosphorus in engine oils is harmful
to catalytic converters), 2:26–28 (setting the preferred
range of phosphorus to a level of “at most 0.05%”); Ex.
1014, 1 (noting that the GF-4 standard limited phosphorus
to “between 0.05 percent and 0.08 percent”); Ex. 1002
¶¶ 133, 138.
Patent Owner argues that because Walker’s test
results indicate “that decreasing phosphorus loading from
0.09% to 0.05% could increase the friction coefficient of
a lubricating oil,” one of ordinary skill in the art would
not have reasonably expected to achieve the “same or
improved performance” when modifying Example 16 to
have a phosphorus loading of 0.05%. PO Resp. 44. We are
not persuaded by this argument.
A proposed combination or modification need not
result in the “same or improved performance.” See
Transocean Offshore Deepwater Drilling Inc. v. Maersk
Contractors USA, Inc., 617 F.3d 1296, 1304 n.1 (Fed. Cir.
2010) (“[W]e note that the focus must be on whether the
claimed invention would have been obvious to one of skill
in the art, not whether it is an improvement over the prior
art.”). There must instead be an articulated reason that
would have caused one of ordinary skill in the art to make
the proposed combination. Here, Petitioner articulates a
factually supported reason to make the proposed change

74a
Appendix B
even if performance is degraded to some degree, i.e., to
avoid catalyst damage and to comply with the upcoming
GF-4 standard Pet. 44–45; Ex. 1007, 2:4–11, 2:26–28; Ex.
1014, 1.
Moreover, success in the context of claims 1, 16, and
17 does not require any particular level of performance,
only the successful combination of each lubricating oil
component to arrive at the subject matter of claim 1, i.e.,
a composition. See Intelligent Bio-Systems, 821 F.3d at
1367. The evidence of record does not suggest that one of
ordinary skill would have had any difficulty in formulating
the lubricating oil of Example 16 to have 0.05% phosphorus
from the metal dihydrocarbyl dithiophosphate compound.
Indeed, Walker expressly discloses successfully reducing
phosphorus to a preferred level of 0.05 wt. %. Ex. 1007,
2:26–29 (disclosing that the phosphorus content of the
composition is “preferably at most 0.05%, by weight of
the composition”).
In view of the foregoing, we find that one of ordinary
skill in the art would have sought to lower the phosphorus
content in Example 16 of Toshikazu to 0.05 wt. % in order
to avoid catalyst damage and to comply with the upcoming
GF-4 standard. We further find that one of ordinary skill
in the art would have had a reasonable expectation of
success in lowering the phosphorus levels of Example 16
of Toshikazu to 0.05 wt. %. Accordingly, Petitioner has
demonstrated by a preponderance of the evidence that the
subject matter of claims 16 and 17 would have been obvious
over the combined disclosures of Toshikazu (Example 16),
Henderson, and Walker.

75a
Appendix B
G. Obviousness of Claims 1–3, 5–8, 10–15, and 18–20
over Toshikazu (Example 2) and Henderson
Petitioner contends the subject matter of claims 1–3,
5–8, 10–15, and 18–20 would have been obvious over
the combined disclosures of Toshikazu (Example 2) and
Henderson. Pet. 47–65.
The compositions of Examples 2 and 16 of Toshikazu
are reproduced below:

Friction
Reducing
Agent

MoDTC
MoDTP

---

---

0.225

0.075

---

---

0.72

0.72

Ca-S (Neutral)

---

---

Ca-P
(Overbased)

---

---

Mg-S
(Overbased)

---

---

Aliphatic Acid
Glyceride
Oleamide

Metal
Detergent

Example
2
16
0.075
0.15

Ca-S
(Overbased)

76a
Appendix B
Ashless
Detergent/
Dispersant

Antiwear
Additive

Boron-based
Alkenyl
Succinimide

2.4

2.4

Alkenyl
Succinimide

---

---

Benzylamine

---

---

sec-C3–6ZnDTP 0.96

0.96

pr-C3–6ZnDTP

---

---

sec-C3–6ZnDTC ---

---

Base Oil
Friction
Friction
and Wear
Coefficient
Characteristics Wear Track
Diameter (mm)

Mineral Synthetic
Oil
Oil
0.045

0.045

0.44

0.43

The table above is a reproduction of a portion of Tables 1
and 2 of Toshikazu and shows the contents of Examples
2 and 16. Ex. 1005, Tables 1, 2. As shown in the table,
Example 2 of Toshikazu differs from Example 16 in that it
has a lower level of MoDTC and a higher level of aliphatic
acid glyceride. Id. Example 2 also differs in that it uses
a mineral base oil as opposed to a synthetic base oil. Id.
1.

Analysis—Independent Claim 1

Petitioner persuasively demonstrates, and Patent
Owner does not contest, that the lubricating oil composition
of Example 2 of Toshikazu contains at least one calcium

77a
Appendix B
detergent (overbased calcium sulfonate) (Pet. 49); at least
one oil soluble molybdenum compound (MoDTC) (id. at
50); at least one organic ashless nitrogen-free friction
modifier (aliphatic acid glyceride) (id.); and at least one
metal dihydrocarbyl dithiophosphate compound (secC3–6ZnDTP) (id. at 50–51). Petitioner also persuasively
demonstrates that Example 2 of Toshikazu is substantially
free of ashless aminic friction modifiers (id. at 51 (citing
Ex. 1002 ¶¶ 157–158)); contains between 150 to 160 ppm
molybdenum from the MoDTC compound (id. at 54); and
contains between 0.09 to 0.12 wt. % phosphorus from
the ZnDTP compound (id. at 29–30, 55). Petitioner also
repeats its argument regarding the level of calcium
discussed above with respect to Example 16. Id. at 54.
Petitioner contends the mineral base oil of Example
2 could have a viscosity index of greater than 95 and a
“Noack volatility approaching 15 wt. %,” but in any event,
one of ordinary skill in the art would have selected a
synthetic base oil for Example 2 that had viscosity index
of greater than 95 and a Noack volatility level of no more
than 15%, in view of Henderson’s disclosure that the art
was rapidly shifting toward these types of oils due to their
improved properties. Id. at 47–49, 51–53.
Patent Owner contends, for the same reasons
discussed above with respect to Example 16, that one of
ordinary skill in the art would not have selected Example
2 for further development. PO Resp. 45. Patent Owner
further contends that there is insufficient evidence that
the mineral oil of Example 2 has a viscosity index of 95
or greater or a Noack volatility of 15% or less. Id. at

78a
Appendix B
46, 48. Finally, Patent Owner contends one of ordinary
skill in the art would not have substituted the mineral
oil in Example 2 of Toshikazu with a synthetic oil with
the recited properties, because mineral oils are cheaper
than synthetic oils, the mineral oil-based lubricants of
Toshikazu “achieved the best performance in terms of
both Friction Coefficient and Wear Track Diameter,” and
a formulator would have recognized that modification of
the base oil would require extensive testing and possibly
further modification of the oil formulation to achieve
similar results. Id. at 45–50.
Patent Owner’s arguments are not persuasive.
First, for the reasons discussed above with respect to
Example 16, we are persuaded that one of ordinary skill
in the art would have selected any of Examples 1–19 for
further development, including Example 2. See Section
II.D.3.d. Second, although mineral oils are cheaper than
synthetic oils, Petitioner presents persuasive evidence
that one of ordinary skill in the art would have sought to
substitute the mineral oil of Example 2 with, for example,
a synthetic oil having a viscosity index of 95 or above and
Noack volatility of less than 15%, in order to comply with
the GF-3 standard and to achieve the benefits of higher
quality oils discussed in Henderson. Pet. 48–49, 52–53
(and evidence cited therein). Finally, as discussed above
with respect to Example 16, we are not persuaded that one
of ordinary skill in the art would have had any significant
concern in substituting the mineral oil in Example 2 with
the synthetic oil of Toshikazu, as Toshikazu reports that
there is no limit on the type of lubricating oil used in his
invention and test results show that the same additive

79a
Appendix B
package could be successfully used with a synthetic oil, a
mineral oil, or a mineral oil/high pressure hydrogenated
oil. Pet. Reply 2; Ex. 1005, Tables 1, 2; Ex. 1055 ¶¶ 52–53.
In view of the foregoing, Petitioner has demonstrated
by a preponderance of the evidence that the subject
matter of claim 1 would have been obvious over Toshikazu
(Example 2) and Henderson.
2.

Dependent Claims 2, 3, 6–8, 10, 11, and 13–15

With respect to dependent claims 2, 3, 6–8, 10, 11,
and 13–15, Petitioner persuasively identifies where the
subject matter of these claims is disclosed in Toshikazu
(Example 2) and Henderson. Pet. 55–64. In particular,
Petitioner identifies where the combined disclosures of
Toshikazu and Henderson teach or suggest: (1) using
an overbased calcium sulfonate detergent (claims 2 and
3) (id. at 55–56 (citing Ex. 1002 ¶¶ 174–175; Ex. 1005
¶¶ 50, 52)); (2) using an organo-molybdenum compound in
the form of molybdenum dialkyldithiocarbamate (claims
6–8) (id. at 57–58 (citing Ex. 1002 ¶¶ 180–185; Ex. 1005
¶¶ 49, 52)); (3) using a molybdenum/sulfur complex of a
basic nitrogen compound (claim 10) (id. at 59 (citing Ex.
1002 ¶¶ 186–187; Ex. 1005 ¶¶ 49, 52)); (4) using at least
one zinc dihydrocarbyl dithiophosphate compound in the
form of sec-C3-6ZnDTP (claim 11) (id. at 59 (citing Ex.
1002 ¶¶ 188–189; Ex. 1005 ¶ 52)); (5) using an organic
ashless nitrogen-free friction modifier that is an ester
(glycerol monooleate) (claims 13–14) (id. at 62–63 (citing
Ex. 1002 ¶¶ 196–198 (Dr. Smolenski testifying that the
glycerol monooleate of Toshikazu is an aliphatic acid

80a
Appendix B
ester); Ex. 1005 ¶¶ 50, 52, 53)); and (6) a composition that
contains between 0.09 to 0.12 wt. % phosphorus from the
metal dihydrocarbyl dithiophosphate compound (sec-C36ZnDTP), a range that overlaps the claimed range of about
0.025 wt. % to about 0.1 wt. % (claim 15) (id. at 63–64
(citing Ex. 1002 ¶¶ 199–201; Ex. 1005 ¶¶ 51, 52; Ex. 1013,
63 (noting that phosphorus in engine oil generally poisons
emission control devices); Ex. 1014, 1)).
Patent Owner does not address these claims beyond
noting that they depend from claim 1. PO Resp. 50; Pet.
Reply 21.
Upon review of the parties’ arguments and supporting
evidence, we determine that Petitioner has demonstrated
by a preponderance of the evidence that the subject matter
of claims 2, 3, 6–8, 10, 11, and 13–15 would have been
obvious over Toshikazu (Example 2) and Henderson.
3.

Dependent Claim 5

Claim 5 depends from claim 1 and further requires
“wherein said molybdenum from a molybdenum compound
is present in an amount of about 30 ppm to 200 ppm.” Ex.
1001, 14:6–8. Petitioner persuasively demonstrates, and
Patent Owner does not dispute, that the molybdenum
content in Example 2 of Toshikazu is between 150 and 160
ppm. Pet. 56 (citing Ex. 1002 ¶ 177). Patent Owner asserts,
however, that the performance data reported in Toshikazu
would have led one of ordinary skill in the art to use more
MoDTC, not less. PO Resp. 51–52. This argument is not
persuasive because Example 2 has a range of molybdenum
that the range recited in claim 5 fully encompasses, and we

81a
Appendix B
previously found that the results reported for Examples
1–19 in Toshikazu would not have been differentiated
by one of ordinary skill in the art. Pet. Reply 21–22; see
Section II.D.3.d.
In view of the foregoing, Petitioner has demonstrated
by a preponderance of the evidence that the subject matter
of claim 5 would have been obvious over the combined
disclosures of Toshikazu (Example 2) and Henderson.
4.

Claim 12

Claim 12 depends from claim 1 and further requires
“wherein said organic ashless nitrogen-free friction
modifier is present in an amount of from about 0.25 wt.
% to about 2.0 wt. %, based on the total weight of the
composition.” Ex. 1001, 14:31–34.
Petitioner concedes that the 0.225 wt. % aliphatic acid
glyceride content in Example 2 of Toshikazu falls outside
the 0.25 wt. % range recited in claim 12. Pet. 60. Petitioner
contends, however, that one of ordinary skill in the art
would have been motivated to increase the amount of
organic ashless nitrogen-free friction modifier in Example
2 to at least 0.25 wt. % because this compound was known
to be less expensive than other anti-wear compounds,
including molybdenum. Id. at 60–61. Petitioner further
contends that one of ordinary skill in the art would have
expected this modification to be successful because other
Examples in Toshikazu indicate that the amount of organic
ashless nitrogen-free friction modifier may be increased
without significantly affecting the performance of the
lubricating compositions. Id.; Pet. Reply 22–23.

82a
Appendix B
Patent Owner contends one of ordinary skill in the art
would not have sought to increase the amount of friction
modifier in Example 2 because molybdenum friction
modifiers are more effective at reducing the coefficient of
friction than ashless friction modifiers, and the Examples
of Toshikazu containing higher levels of aliphatic acid
glyceride performed worse than those containing lower
amounts of these compounds. PO Resp. 53–54 (citing Ex.
1005, Tables 1, 2; Ex. 2003 ¶ 211).
To the extent the term “about 0.25 wt. %” does not
encompass 0.225 wt. % aliphatic acid glyceride, we find
persuasive Petitioner’s argument that one of ordinary
skill in the art would have found it obvious to increase
the amount of aliphatic acid glyceride in Example 2 to
at least “about 0.25 wt. %” in order to save on costs. Pet.
61 (citing Ex. 1002 ¶ 192) (Petitioner providing evidence
that aliphatic acid glycerides are less expensive than
molybdenum compounds). Patent Owner’s arguments
based on an alleged decrease in performance from such a
change are not persuasive because we have found that one
of ordinary skill in the art would not have differentiated
the performance results reported for Examples 1–19 of
Toshikazu. See Section II.D.3.d.
With respect to the question of reasonable expectation
of success, given the successful results reported in
Toshikazu for lubricating compositions containing
increased levels of aliphatic acid glyceride, we credit the
testimony of Drs. Smolenski and Rizvi that one of ordinary
skill in the art would have had a reasonable expectation
of success in increasing the aliphatic glyceride content in

83a
Appendix B
Example 2 from 0.225 wt. % to at least “about 0.25 wt. %.”
Pet. 60–61 (citing Ex. 1002 ¶¶ 191–192); Pet. Reply 22–23
(citing 1055 ¶¶ 99–102).
In view of the foregoing, Petitioner has demonstrated
by a preponderance of the evidence that the subject matter
of claim 12 would have been obvious over Toshikazu
(Example 2) and Henderson.
5.

Dependent Claims 18–20

With respect to claims 18–20, Petitioner and Patent
Owner repeat their arguments discussed above for
Example 16 of Toshikazu. Pet. 35–40, 64–65; PO Resp.
54; Pet. Reply 23. Accordingly, for the reasons set forth
above in Section II.D.5, Petitioner has demonstrated by
a preponderance of the evidence that the subject matter
of claims 18–20 would have been obvious over Toshikazu
(Example 2) and Henderson.
H. Obviousness of Claim 4 over Toshikazu (Example
2), Henderson, and Schlicht and Claims 9, 16, and
17 over Toshikazu (Example 2), Henderson, and
Walker
With respect to dependent claims 4, 9, 16, and 17,
Petitioner and Patent Owner rely on the same arguments
presented above for the grounds based on Example 16 of
Toshikazu. Pet. 66–67; PO Resp. 54–55. Accordingly, for
the reasons discussed above in Sections II.E and II.F,
Petitioner has demonstrated by a preponderance of the
evidence that the subject matter of claim 4 would have

84a
Appendix B
been obvious over Toshikazu (Example 2), Henderson,
and Schlicht, and the subject matter of claims 9, 16, and
17 would have been obvious over Toshikazu (Example 2),
Henderson, and Walker.
III. PATENT OWNER’S IDENTIFICATION OF
ALLEGEDLY IMPROPER REPLY ARGUMENTS
AND EVIDENCE
Patent Owner previously requested permission to
file a motion to strike Petitioner’s Reply, the declaration
of Dr. Rizvi, and Exhibits 1023–1052, 1054, 1055. We
denied this request, but authorized the parties to file a
joint chart identifying the Reply arguments and evidence
Patent Owner believes are improper and providing
Petitioner’s response to Patent Owner’s arguments.18
Paper 23 (“Objec.”). We address the issues the parties
identify below.
A. Person of Ordinary Skill in the Art
The Petition provides a definition of one of ordinary
skill in the art and supports that definition with Dr.
Smolenski’s testimony. Pet. 13 (citing Ex. 1002 ¶ 17).
Patent Owner disagrees w ith this analysis in its
Response, providing testimony of Dr. Bansal to support its
arguments. PO Resp. 4–5; Ex. 2003 ¶¶ 17–27. In response
to these counter arguments, Dr. Rizvi provides additional
18. Patent Owner subsequently filed a Motion to Exclude
Exhibits 1016, 1017, 1023–1052, and 1054, the declaration of Dr.
Rizvi (Ex. 1055), and certain cross-examination testimony of Dr.
Bansal (Ex. 1053). Paper 24.

85a
Appendix B
evidence and arguments in support of Petitioner’s original
definition of one of ordinary skill in the art, and explains
why we should consider Dr. Smolenski’s testimony under
either Petitioner’s or Patent Owner’s definition. Ex. 1055
¶¶ 20–24.
Patent Owner objects to paragraphs 19–24 of Dr.
Rizvi’s declaration as allegedly offering new opinions on
the level of skill in the art that are not in the Petition.
Objec. 1–2.
Neither Petitioner’s Reply nor Dr. Rizvi’s declaration
testimony seek to change the proposed definition of one of
ordinary skill in the art set forth in the Petition. Dr. Rizvi,
instead, addresses the specific arguments made in Patent
Owner’s Response and Dr. Bansal’s declaration. As such,
we find that Dr. Rizvi’s testimony related to the level of
ordinary skill in the art constitutes proper rebuttal.
B. General Rebuttal Arguments and Evidence
Patent Owner also objects to multiple portions of Dr.
Rizvi’s testimony as advancing new theories and relying on
new evidence. Objec. 2–5. Upon review of Patent Owner’s
objections and Petitioner’s responses to those objections,
we are persuaded that the identified portions of Dr.
Rizvi’s testimony represent proper rebuttal arguments
intended to respond to opinions Dr. Bansal presented
in his declaration, and not to fill gaps in the prior art
disclosures.

86a
Appendix B
Patent Owner is correct that many Exhibits Dr.
Rizvi discusses are not addressed in the Petition. As our
reviewing court has instructed, however, “the introduction
of new evidence in the course of the trial is to be expected
in inter partes review trial proceedings and, as long
as the opposing party is given notice of the evidence
and an opportunity to respond to it, the introduction
of such evidence is perfectly permissible under the
[Administrative Procedure Act].” Genzyme Therapeutic
Prod. Ltd. P’ship v. Biomarin Pharm. Inc., 825 F. 3d
1360, 1366 (Fed. Cir. 2016). Here, Patent Owner deposed
Dr. Rizvi after receiving his reply declaration, had an
opportunity to respond to his arguments and supporting
evidence in a Surreply, and has filed a motion to exclude
his testimony on relevance grounds. See Yeda Research v.
Mylan Pharms, Inc., 906 F.3d 1031, 1040 (Fed. Cir. 2018).
Thus, we find that Dr. Rizvi’s testimony and supporting
documentary evidence are not improper.
IV. MOTION TO EXCLUDE
Patent Owner filed a Motion to Exclude Exhibits 1016,
1017, 1023–1052, 1054, and 1055, as well as certain portions
of Dr. Bansal’s crossexamination testimony (Paper 24,
“Mot. to Excl.”). We address Patent Owner’s arguments
below.
A. Exhibits 1016, 1017, 1027–1031, 1034, and 1048
Patent Owner moves to exclude Exhibits 1016, 1017,
1027–1031, 1034, and 1048 as irrelevant because they
allegedly postdate the April 4, 2002, filing date of the ’685
patent. Mot. to Excl. 2–3.

87a
Appendix B
1.

Exhibits 1016 and 1017

Exhibit 1016 is titled “Automotive Lubricants
Reference Book” and contains as Appendix 10 the ILSAC
GF-3 standards for passenger car engine oils, which is
itself dated October 12, 2000. Ex. 1016, 591. Exhibit 1017
appears to be the front cover of the ILSAC GF-4 standard
for passenger car engine oils and bears a date of January
14, 2004. Ex. 1017, 1. Patent Owner contends that because
Exhibits 1016 and 1017 were each published after the April
4, 2002, filing date of the ’685 patent they are irrelevant
to show the state of the art as of the filing date of the ’685
patent. Mot. to Excl. 3.
Because both parties agree that the GF-3 standard
contained in Exhibit 1016 was released prior to April of
2002 and was accessible to those of ordinary skill in the
art, we are not persuaded that the relied upon portion of
Exhibit 1016 is irrelevant due to its publication date. Ex.
1055 ¶ 52; Ex. 1002 ¶ 76; Ex. 1053, 36:19–37:5.
Petitioner does not rely upon Exhibit 1017 to show
the state of the prior art as of the April 2002 filing date
of the ’685 patent, but instead to show when the GF-4
standard was ultimately adopted in 2004. Paper 28, 3.
Because Petitioner is not relying on Exhibit 1017 to show
the state of the art as of the filing date of the ’685 patent,
Patent Owner’s motion to exclude Exhibit 1017 is denied.
In view of the foregoing, we deny Patent Owner’s
motion to exclude Exhibits 1016 and 1017 in view of their
publication dates.

88a
Appendix B
2.

Exhibits 1027, 1030, and 1031

Exhibits 1027, 1030, and 1031 were introduced during
Dr. Bansal’s deposition. Ex. 1053, 192:20–21, 214:8–12,
221:9–11. As Petitioner and Dr. Rizvi do not cite or rely
upon these exhibits, we dismiss Patent Owner’s motion to
exclude Exhibits 1027, 1030, and 1031 as moot.
3.

Exhibits 1028, 1029, and 1048

Patent Owner contends Exhibits 1028, 1029, and 1048
were all published after the filing date of the ’685 patent
and, therefore, are irrelevant to show the state of the art
as of the filing date of the ’685 patent. Mot. To Excl. 2–3.
Petitioner contends it is not relying on the identified
exhibits to show the state of the art as of the filing date,
but to show that the TBN associated with overbased
detergents did not change after the filing date of the ’685
patent. Paper 28, 4.
Because Petitioner is not relying on Exhibits 1028,
1029, and 1048 to show the state of the art as of the filing
date of the ’685 patent, Patent Owner’s motion to exclude
Exhibits 1028, 1029, and 1048 is denied.
4.

Exhibit 1034

Exhibit 1034 is an article identifying both Dr.
Smolenski and Dr. Bansal as “peer experts.” Ex. 1034, 32;
Pet. Reply 26–27. This document was published in 2018,
well after the 2002 filing date of the ’685 patent, and it does

89a
Appendix B
not show the state of the art in 2002. That said, Exhibit
1034 is at least somewhat relevant to the questions of
whether Dr. Smolenski’s testimony will be helpful to the
trier of fact and whether he can opine from the viewpoint
of one of ordinary skill in the art. Accordingly, Patent
Owner’s motion to exclude Exhibit 1034 is denied.
B. Exhibits 1023–1052, 1054, and 1055
Patent Owner contends Exhibits 1023–1052, 1054,
and 1055 are not relevant because they were submitted
for the first time with Petitioner’s Reply. Mot. to Excl. 4.
Patent Owner further contends that we should exclude
Exhibits 1025, 1027, 1030, and 1031 because they are not
cited in the Reply or Dr. Rizvi’s declaration, and that
we should exclude Exhibits 1029, 1033, 1036, 1039–1046
and 1048–1052 because they are cited only in Dr. Rizvi’s
declaration, but not in Petitioner’s Reply. Id. at 5–6.
As noted above, there is nothing improper with
submitting new Exhibits with a Reply declaration.
Genzyme, 825 F. 3d at 1366. Accordingly, we deny Patent
Owner’s motion to exclude Exhibits 1023–1052, 1054, and
1055 on this basis.
Exhibits 1025, 1027, 1030, and 1031 were introduced
during Dr. Bansal’s cross-examination, but are not cited in
Dr. Rizvi’s declaration or in the Reply. As the parties and
this Decision do not rely upon these documents, we dismiss
as moot Patent Owner’s motion to exclude Exhibits 1025,
1027, 1030, and 1031.

90a
Appendix B
Exhibits 1029, 1033, 1036, 1039–1046, and 1048–1052
are cited in Dr. Rizvi’s declaration, but not in the Reply.
Id. at 5–6. As Dr. Rizvi cites these documents, we decline
to exclude them as irrelevant.
C. Authentication of Exhibit 1030
Exhibit 1030 is a slide-deck bearing the corporate logo
of Infineum. Ex. 1030. Patent Owner contends we should
exclude Exhibit 1030 because it is unauthenticated and not
cited in the Petition, Reply, Dr. Smolenski’s declaration,
or Dr. Rizvi’s declaration. Mot. to Excl. 6.
As Petitioner and Dr. Rizvi do not rely on Exhibit 1030,
and this Decision does not cite to or rely upon this exhibit,
the motion to exclude Exhibit 1030 is dismissed as moot.
D. Exhibit 1053 Beyond Scope of Direct
Patent Owner contends we should exclude certain
portions of Dr. Bansal’s deposition testimony because
Petitioner’s questions went beyond the scope of Dr.
Bansal’s direct testimony. Mot. to Excl. 7–8. In particular,
Patent Owner contends Petitioner questioned Dr. Bansal
about documents he had never seen before, about issues
related to enablement, and about ownership interests of
various parties. Id. at 7–9.
Petitioner’s Reply does not rely upon the majority
of the testimony to which Patent Owner objects. As
such, Patent Owner’s motion to exclude this testimony is
dismissed as moot.

91a
Appendix B
Petitioner specifically identifies, however, testimony
cited at pages 8, 10, 24, and 25 of the Reply. Mot. to
Excl. 9. Having reviewed this testimony, we find that
the recited testimony is within the scope of Dr. Bansal’s
direct testimony. For example, Petitioner asserts that
one of ordinary skill in the art would have understood
that the combination of 80 wt. % poly-α-olefins and 20
wt. % diisodecyl adipate (a diester) would have a viscosity
index above 95. Pet. 20 (citing Ex. 1009, 450, Figures
4, 5). In support of this argument, Petitioner cites to
specific record evidence. Id. Patent Owner and Dr. Bansal
disagree that the recited evidence demonstrates that the
synthetic oil of Toshikazu had a viscosity index above 95,
arguing that absent more specific information regarding
the viscosity index of the diisodecyl adipate, the viscosity
index of the mixture is “unknowable.” PO Resp. 29 (citing
Ex. 2003 ¶ 100).
During his deposition, Petitioner presented Dr.
Bansal with a reference showing that the viscosity index
of diisodecyl adipate was known in the art and is greater
than 95. Ex. 1038; Ex. 1053, 193:25–194:9. Petitioner’s
questions related to the viscosity index of diisodecyl
adipate are directly relevant to the position both Patent
Owner and Dr. Bansal take that the viscosity index of the
synthetic oil of Example 16 was “unknowable.” As such,
we do not agree that Petitioner’s questions went beyond
the scope of Dr. Bansal’s direct testimony.
We have reviewed the additional testimony Patent
Owner identifies (Mot. to Excl. 8) and likewise conclude
that this testimony was within the scope of Dr. Bansal’s

92a
Appendix B
direct testimony. Accordingly, Patent Owner’s motion to
exclude Exhibit 1053 is denied.
E. Exhibit 1055
Exhibit 1055 is the declaration of Dr. Rizvi. Ex. 1055.
Patent Owner contends we should exclude this exhibit
because it advances new theories and its probative value
is outweighed by the unfair prejudice to Patent Owner in
admitting such evidence. Mot. to Excl. 10.
As discussed above, we find that Dr. Rizvi’s testimony
properly responds to Patent Owner’s arguments and the
testimony of Dr. Bansal. See Genzyme, 825 F. 3d at 1366.
Accordingly, Patent Owner’s motion to exclude Exhibit
1055 is denied.
V. CONCLUSION19
For the reasons discussed herein, Petitioner has
demonstrated by a preponderance of the evidence that
claims 1–20 of the ’685 patent are unpatentable.
19. Should Patent Owner wish to pursue amendment of
the challenged claims in a reissue or reexamination proceeding
subsequent to the issuance of this Decision, we draw Patent
Owner’s attention to the April 2019 Notice Regarding Options
for Amendments by Patent Ow ner Through Reissue or
Reexamination During a Pending AIA Trial Proceeding. See 84
Fed. Reg. 16,654 (Apr. 22, 2019). If Patent Owner chooses to file a
reissue application or a request for reexamination of the challenged
patent, we remind Patent Owner of its continuing obligation to
notify the Board of any such related matters in updated mandatory
notices. See 37 C.F.R. § 42.8(a)(3), (b)(2).

93a
Appendix B
VI. ORDER
It is hereby
ORDERED that claims 1–20 of the ’685 patent are
unpatentable;
FURTHER ORDERED that Patent Owner’s Motion
to Exclude is denied with respect to Exhibits 1016, 1017,
1027–1031, 1034, and 1048 and further dismissed as moot
with respect to Exhibits 1025, 1027, 1030, and 1031.
FURTHER ORDERED that because this is a final
written decision, parties to the proceeding seeking judicial
review of the decision must comply with the notice and
service requirements of 37 C.F.R. § 90.2.
In summary:
Claim(s)

References

35
U.S.C
§

Claims
Shown
Unpatentable

1–3,
6–8,
10, 11,
13–15,
18–20

Toshikazu,
Henderson

103

1–3, 6–8, 10,
11, 13–15,
18–20

4

Toshikazu, 103
Henderson,
Schlicht

4

Claims
Not Shown
Unpatentable

94a
Appendix B
9, 16, 17

Toshikazu, 103
Henderson,
Walker

9, 16, 17

1–3,
5–8,
10–15,
18–20

Toshikazu,
Henderson

1–3, 5–8,
10–15,
18–20

4

Toshikazu, 103
Henderson,
Schlicht

4

9, 16, 17

Toshikazu, 103
Henderson,
Walker

9, 16, 17

Overall
Outcome

103

1–20

95a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES PATENT AND TRADEMARK OFFICE,
PATENT TRIAL AND APPEAL BOARD,
DATED NOVEMBER 7, 2018
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
CHEVRON ORONITE COMPANY LLC,
Petitioner,
v.
INFINEUM USA L.P.,
Patent Owner.
Case IPR2018-00922
Patent 6,723,685 B2
Be for e JON B. T OR NQU I S T, M ICH ELLE N.
ANKENBRAND, and JULIA HEANEY, Administrative
Patent Judges.
TORNQUIST, Administrative Patent Judge.

96a
Appendix C
DECISION
Institution of Inter Partes Review
35 U.S.C. § 314(a)
I. INTRODUCTION
Chevron Oronite Company LLC (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) requesting an inter partes review
of claims 1–20 of U.S. Patent No. 6,723,685B2 (Ex. 1001,
“the ’685 patent”). Infineum USA L.P. (“Patent Owner”)
did not file a Preliminary Response to the Petition.
We have authority to determine whether to institute
an inter partes review. 35 U.S.C. § 314. The standard for
instituting an inter partes review is set forth in 35 U.S.C.
§ 314(a), which provides that an inter partes review may
not be instituted “unless the Director determines . . .
there is a reasonable likelihood that the petitioner would
prevail with respect to at least 1 of the claims challenged
in the petition.”
After considering the Petition and the evidence of
record, we determine that there is a reasonable likelihood
that Petitioner will prevail with respect to at least one
claim challenged in the Petition. Accordingly, we institute
an inter partes review on all claims and all grounds set
forth in the Petition.
A. Related Proceedings
The parties identify Infineum USA LP v. Chevron
Oronite Company LLC, Case No. 1-18-cv-00323 (D. Del.),

97a
Appendix C
as a related matter, and note that IPR2018-00923 and
IPR2018-00924 are also directed to the ’685 patent. Pet.
2; Paper 4, 1.
B. The ’685 Patent
The ’685 patent is directed to lubricating oil
compositions that “exhibit simultaneously improved low
temperature valve train wear performance, excellent
compatibility with fluoroelastomer materials commonly
used for seals in modern internal combustion engines,
and improved fuel economy properties.” Ex. 1001, 1:4–9.
The ’6 85 patent explains that lubr icating oil
compositions for combustion engines typically contain a
base oil of lubricating viscosity, as well as various additives
used “to improve detergency, to reduce engine wear, to
provide stability against heat and oxidation, to reduce oil
consumption, to inhibit corrosion, to act as a dispersant,
and to reduce friction loss.” Id. at 1:12–19. The ’685
patent further explains that “[s]ome additives provide
multiple benefits, such as dispersant-viscosity modifiers,”
whereas other additives improve one characteristic of
the lubricating oil while adversely affecting one or more
other characteristics. Id. at 1:19–22. Thus, according to
the ’685 patent, “to provide lubricating oil having optimal
overall performance, it is necessary to characterize and
understand all the effects” of available additives and
“carefully balance the additive content of the lubricant.”
Id. at 1:23–26.

98a
Appendix C
The ’685 patent discloses that when “small amounts
of one or more oil soluble molybdenum compounds,” an
ashless, organic, nitrogen-free friction modifier, zinc
dihydrocarbyl dithiophosphate (ZDDP), and a calcium
detergent are added to a base oil having a viscosity of at
least 95 and a Noack volatility1 of less than 15%, a lowcost lubricating composition with improved fuel economy,
excellent wear protection, and reduced adverse effects on
fluoroelastomer seals is provided. Id. at 2:1–8, 2:47–55.
C. Illustrative Claim
Petitioner challenges claims 1–20 of the ’685 patent.
Independent claim 1 is illustrative of the challenged claims
and is reproduced below:
1. A lubricating oil composition comprising:
a) an oil of lubricating viscosity having a
viscosity index of at least 95;
b) at least one calcium detergent;
c) at least one oil soluble molybdenum compound;
d) at least one organic ashless nitrogen-free
friction modifier; and

1. Noack volatility measures the evaporative loss of lubricant
oil at high temperature. Ex. 1001, 2:52–54; Ex. 1002 ¶ 23. A lower
Noack volatility is associated with a less volatile oil. Ex. 1002 ¶ 23.

99a
Appendix C
e) a t l e a s t o n e m e t a l d i hy d r o c a r b y l
dithiophosphate compound, wherein said
composition is substantially free of ashless
aminic friction modifiers, has a Noack volatility
of about 15 wt. % or less, from about 0.05 to
0.6 wt. % calcium from the calcium detergent,
molybdenum in an amount of from about 10
ppm to about 350 ppm from the molybdenum
compound, and phosphorus from the metal
dihydrocarbyl dithiophosphate compound in an
amount up to about 0.1 wt. %.
Ex. 1001, 13:47–63.

100a
Appendix C
D. The Asserted Grounds of Unpatentability
Petitioner contends claims 1–20 of the ’685 patent
are unpatentable in view of the following grounds (Pet.
3–4):23456
References

Basis

Claim(s) Challenged

3

Toshikazu and
4
Henderson

§ 103

1–3, 6–8, 10–11, 13–15,
and 18–20

Toshikazu,
Henderson, and
5
Schlicht

§ 103

4

Toshikazu,
Henderson, and
6
Walker

§ 103

9, 16, and 17

2. Petitioner also relies on a declaration from Donald J.
Smolenski, Ph.D. (Ex. 1002).
3 . Jap a ne s e Pat e nt A ppl i c at ion P ubl i c at ion No.
JP1993/279686, published Oct. 26, 1993 (Ex. 1005). Exhibit 1005
contains the English-language translation of Toshikazu, the
Japanese language version of this reference, and a declaration
attesting to the accuracy of the translation. Our citations are to
the English-language translation.
4. H.E. Henderson, et al., Higher Quality Base Oils for
Tomorrow’s Engine Oil Performance Categories, SAE Technical
Paper Series 982582, 1–13 (1998) (Ex. 1006).
5. US 3,365,396, issued Jan. 23, 1968 (Ex. 1011).
6. WO/99/60080, published Nov. 25, 1999 (Ex. 1007).

101a
Appendix C
Toshikazu and
Henderson

§ 103

1–3, 5–8, 10–15, and
18–20

Toshikazu,
Henderson, and
Schlicht

§ 103

4

Toshikazu,
Henderson, and
Walker

§ 103

9, 16, and 17

II. ANALYSIS
A. Claim Construction
In an inter partes review, claim terms in an unexpired
patent are construed according to their broadest
reasonable interpretation in light of the specification of the
patent in which they appear. 37 C.F.R. § 42.100(b) (2016);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–46
(2016) (upholding the use of the broadest reasonable
interpretation standard).
Petitioner does not identify any claims of the ’685
patent that are in need of express construction and
contends each claim term should be given its “plain
and ordinary meaning under the [broadest reasonable
interpretation] standard.” Pet. 13. Upon review of
the Petition and Petitioner’s supporting evidence, we
determine that no terms of the ’685 patent require express
construction for purposes of this Decision. See Nidec
Motor Corp. v. Zhongshan Broad Ocean Motor Co., 868
F.3d 1013, 1017 (Fed. Cir. 2017) (citing Vivid Techs., Inc.

102a
Appendix C
v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999) (“[O]nly those terms need be construed that are in
controversy, and only to the extent necessary to resolve
the controversy.”)).
B. Asserted Obviousness of Claims 1–3, 6–8, 10, 11,
13–15 and 18–20 over Toshikazu (Example 16) and
Henderson
Petitioner contends the subject matter of claims 1–3,
6–8, 10, 11, 13–15 and 18–20 of the ’685 patent would have
been obvious over the combined disclosures of Toshikazu
(Example 16) and Henderson. Pet. 18–40.
1.

Toshikazu

Toshikazu is directed to lubricating oils that have
“good wear resistance and a low friction coefficient.” Ex.
1005 ¶ 1. Toshikazu discloses that antiwear agents, such
as zinc dithiophosphate (ZnDTP) and zinc dithiocarbamate
(ZnDTC), prevent wear by creating protective films
on metal surfaces. Id. ¶ 6. When antiwear and friction
reducing agents are used together in a lubricating
composition, however, the function of both components
may be inhibited due to competitive adsorption at metal
surfaces. Id. In addition, ZnDTP and ZnDTC may interact
with certain detergent/dispersant additives, further
impairing their wear resistance. Id. ¶ 7. In view of these
interactions, Toshikazu reports that it had not previously
been possible to achieve satisfactory wear resistance,
friction reduction, cleaning, and dispersion using ZnDTP
or ZnDTCin combination with known lubricant additives.
Id. ¶ 8.

103a
Appendix C
Toshikazu reports that the above limitations can be
overcome
by using the combination of an organic
molybdenum compound and an aliphatic acid
ester as a friction reducing agent, by using
calcium or magnesium sulfonate, or calcium or
magnesium phenate, as a metal detergent, by
using benzylamine, alkenyl succinimides, or
boron derivatives of alkenyl succinimides, as
[an] ashless detergent/dispersant, and by using
ZnDTP or ZnDTC as an antiwear additive.
Id. ¶ 10.
Toshikazu discloses nineteen example lubricants
and five comparative lubricants. Id. at Tables 1 and 2.
The contents and test results for Examples 2 and 16 are
reproduced below:
Example
Friction
Reducing
Agent

MoDTC
MoDTP
Aliphatic Acid
Glyceride
Oleamide

2

16

0.075
--0.225

0.15
--0.075

---

---

104a
Appendix C
Example
2

16

Ca-S
(Overbased)
Ca-S (Neutral)
Ca-P
(Overbased)
Mg-S
(Overbased)

0.72

0.72

---

---

---

---

---

---

Ashless
Detergent/
Dispersant

Boron-based
Alkenyl
Succinimide
Alkenyl
Succinimide
Benzylamine

2.4

2.4

-----

-----

Antiwear
Additive

sec-C3–6ZnDTP
pr-C3–6ZnDTP
sec-C3–6ZnDTC

0.96
-----

0.96
-----

Metal
Detergent

Base Oil
Friction
Friction
and Wear
Coefficient
Characteristics Wear Track
Diameter (mm)

Mineral Synthetic
Oil
Oil
0.045

0.045

0.44

0.43

As shown in the table above—which is a reproduction of a
portion of Table 1 (Example 2) and Table 2 (Example 16)—
the lubricants of Examples 2 and 16 each contain MoDTC
(an organic molybdenum compound) and aliphatic acid
glyceride friction reducing agents, an overbased calcium

105a
Appendix C
sulphonate detergent, a boron-based alkenyl succinimide
ashless detergent/dispersant, an sec-C3–6ZnDTP antiwear
additive, and a base oil comprised of either mineral oil
(Example 2) or synthetic oil (Example 16). Id. at Tables
1 and 2; see also id. ¶¶ 49–50 (identifying the additives
used in the example lubricants).
2.

Henderson

Henderson discusses the changing requirements in
the art for engine oils. Ex. 1006, Abstract. Henderson
reports that previous improvements in engine oils had
focused on additive technology, but “with the current shift
in automotive oil requirements, the need for improved
base oils to complement the additives has led to significant
refinery investments.” Id. at 1.7
By using higher quality base oils, Henderson reports
that an oil formulator may obtain enhanced features,
such as “improved fuel economy and retention, oxidation
stability, lower volatility for improved oil consumption
control, high temperature deposit control and exceptional
low temperature pumpability.” Id. at 4. Given these
improved qualities, Henderson explains that the art was
shifting towards higher quality base oils with viscosity
indices of 100 and above and Noack volatility levels of less
than 15%. Id. at 2 (“However, this change is considered
minor compared to the proposed 15% maximum Noack
limit as a secondary mandatory volatility specification.”).
7. We refer to the original page numbers of Henderson, not
the page numbers Petitioner added.

106a
Appendix C
3.

Analysis

Petitioner presents evidence that the lubricating oil
of Example 16 of Toshikazu is of lubricating viscosity and
contains an overbased calcium sulfonate detergent, an
oil soluble molybdenum compound, at least one organic,
ashless, nitrogen-free friction modifier in the form of
aliphatic acid glycerides, and a metal dihydrocarbyl
dithiophosphate compound in the form of sec-C3–6ZnDTP.
Pet. 22–24. Dr. Smolenski testifies that the composition
of Example 16 is substantially free of ashless aminic
friction modifiers and calculates that the calcium imparted
by the calcium detergents is from 0.08 to 0.12 wt. %,
the molybdenum imparted by the soluble molybdenum
compound is between 30 0 and 320 ppm, and the
phosphorous imparted by the sec-C3–6ZnDTP compound
is between 0.09 wt. % and 0.12 wt. %. Pet. 24, 27–30 (citing
Ex. 1002 ¶¶ 73–74, 81–90).
With respect to viscosity, the base oil of Example 16
of Toshikazu is composed of 80 wt. % Poly-α-olefin and
20 wt. % diisodecyl adipate (a diester). Ex. 1005 ¶ 49.
Dr. Smolenski testifies that a person of ordinary skill in
the art would have known that many synthetic base oils,
“particularly those that contained poly-α-olefin . . . and
diester, had VI [viscosity index] values above 95,” and
would have found it obvious to select a base oil in Example
16 with a viscosity index above 95 in view of Henderson’s
disclosure that high quality base oils with a viscosity index
above 100 provide “improved fuel economy and retention.”
Ex. 1002 ¶¶ 61–64; Pet. 20–21.

107a
Appendix C
With respect to Noack volatility, Petitioner contends
one of ordinary skill in the art would have understood
that low volatility base oils improve the performance of
lubricating oil compositions and that poly-α-olefins and
dibasic acid esters with Noack volatilities below 15% were
available in the art. Id. at 24–26 (citing Ex. 1002 ¶¶ 22, 76,
77, 79, 80; Ex. 1006, 2, 4; Ex. 1009, 450). Thus, Petitioner
asserts one of ordinary skill in the art would have had a
reason to select a synthetic base oil for use in Example 16
of Toshikazu that had a Noack volatility of about 15 wt. %
or less. Id. at 26–27.
Upon review of Petitioner’s arguments and supporting
evidence, we determine that Petitioner sufficiently explains
how the combined disclosures of Toshikazu (Example 16)
and Henderson would have taught or suggested the subject
matter of claim 1. Petitioner also sufficiently explains
why one of ordinary skill in the art would have looked to
Henderson’s disclosure when selecting a base oil for use
in Example 16. Accordingly, Petitioner has demonstrated
a reasonable likelihood that the subject matter of claim 1
would have been obvious over the combined disclosures
of Toshikazu (Example 16) and Henderson.
Claims 2, 3, 6–8, 10, 11, and 13–15 are composition
claims that depend, directly or indirectly, from claim 1.
Ex. 1001, 13:64–14:43. Claims 18–20 are method claims
that are directed to improving certain properties of an
internal combustion engine by operating said engine with
the lubricating oil composition of claim 1. Id. at 14:52–64.

108a
Appendix C
Petitioner, with supporting testimony from Dr.
Smolenski, presents ev idence that the combined
disclosures of Toshikazu (Example 16) and Henderson
would have taught or suggested: (1) the use of a calcium
sulfonate detergent (claim 2) (Pet. 30 (citing Ex. 1005
¶ 50, Table 2; Ex. 1002 ¶ 91)); (2) the use of an overbased
calcium sulfonate detergent (claim 3) (id. at 30–31 (citing
Ex. 1005 ¶ 50, Table 2; Ex. 1002 ¶ 92)); (3) use of an
organo-molybdenum compound (claim 6) that is in the
form of molybdenum dialkyldithiocarbamate (claims 7
and 8) (id. at 31–32 (citing Ex. 1002 ¶¶ 93–98; Ex. 1005
¶ 49, Table 2)); (4) use of a molybdenum/sulfur complex
of a basic nitrogen compound (claim 10) (id. at 32 (citing
Ex. 1005 ¶ 49, Table 2; Ex. 1002 ¶¶ 99–100)); (5) use of at
least one zinc dihydrocarbyl dithiophosphate compound, in
the form of sec-C3–6ZnDTP (claim 11) (id. at 33 (citing Ex.
1005, Table 2; Ex. 1002 ¶¶ 101–102)); (6) use of an organic,
ashless, nitrogen-free friction modifier that is in the form
of an ester (claim 13) (id. at 33 (citing Ex. 1002 ¶¶ 103–104
(explaining that the aliphatic acid glyceride friction
modifiers of Toshikazu contain an ester that is organic,
ashless, and nitrogen free))); (7) use of an ester friction
modifier in the form of glycerol monooleate (claim 14)
(id. at 34 (citing Ex. 1002 ¶ 105 (Dr. Smolenski testifying
that the “aliphatic acid glycerides” of Toshikazu contain
“a 50/50 mixture of the aliphatic acid esters glycerol
monooleate and dioleate”))); and (8) a phosphorus content
from the metal dihydrocarbyl dithiophosphate compound
that is in the range of 0.09 to 0.12 wt. %, which overlaps
with the range of “from about 0.025 wt. % to about 0.1
wt. %” recited in claim 15 (id. at 34–35 (citing Ex. 1002
¶¶ 106–108; Ex. 1005 ¶ 51, Table 2); see also id. at 35

109a
Appendix C
(asserting that one of ordinary skill in the art would have
sought to reduce the level of phosphorous below 0.1 wt. %
in order to avoid known issues of phosphorous poisoning
of emission control devices)).
With respect to method claims 18–20, Petitioner
contends the preamble phrases of claims 18–20, which
identify a particular benefit to be obtained by the claimed
methods, are statements of intended use that are not
entitled to patentable weight. Id. at 35–36 (citing Minton
v. NASD, Inc., 336 F.3d 1373, 1381 (Fed. Cir. 2003)).
Nevertheless, Petitioner presents evidence that one of
ordinary skill in the art would have understood that the
lubricating composition of Example 16 of Toshikazu is
intended for use in internal combustion engines and that
such use would improve fuel economy and fuel economy
retention properties (claim 18), anti-wear protection of an
internal combustion engine (claim 19), and compatibility
between a lubricating oil composition and the seals of an
internal combustion engine (claim 20). Id. at 36–40.
Upon review of Petitioner’s arguments and supporting
evidence, we determine that Petitioner has demonstrated a
reasonable likelihood that the subject matter of dependent
claims 2, 3, 6–8, 10, 11, 13–15, and 18–20 would have
been obvious over the combined disclosures of Toshikazu
(Example 16) and Henderson.

110a
Appendix C
C. Asserted Obviousness of Claim 4 over Toshikazu
(Example 16), Henderson, and Schlicht
Claim 4 depends from claim 3 and further requires
that the “overbased calcium sulfonate has a total base
number of between about 150 to 450.” Ex. 1001, 14:2–5.
Petitioner contends the subject matter of this claim
would have been obvious over the combined disclosures
of Toshikazu (Example 16), Henderson, and Schlicht. Pet.
41–42.
1.

Schlicht

Schlicht discloses “a method of producing very highly
overbased calcium sulfonate-lube oil concentrates, i.e.,
having a total base number (TBN) greater than about
250.” Ex. 1011, 1:25–28. Schlicht reports that “[o]verbased
metal sulfonates are known to have excellent detergent
characteristics and are particularly effective in preventing
sludge build-up in heavy duty oils used for combustion
engines such as diesel engines.” Id. at 1:45–48. According
to Schlicht, “[o]ne of the most effective overbased
sulfonates is overbased calcium sulfonate.” Id. at 1:51–52.
Schlicht discloses nine example methods for producing
overbased calcium sulfonates having a TBN from 193 to
311. Id. at 5:21–7:27.
2.

Analysis

The lubricating oil of Example 16 of Toshikazu
contains 0.72 wt. % of an overbased calcium sulfonate. Pet.

111a
Appendix C
41 (citing Ex. 1005 ¶ 50, Table 2). Because Toshikazu does
not report the TBN of this overbased calcium sulfonate
detergent, and because Schlicht’s overbased calcium
sulfonate detergents with TBN between 191 and 311 are
reported to “prevent sludge build-up,” Petitioner contends
one of ordinary skill in the art would have sought to
use the calcium sulfonates of Schlicht in the lubricating
composition of Example 16. Id. at 42. Petitioner further
contends that one of ordinary skill in the art would
have expected these compounds to work successfully
in Example 16 because calcium sulfonate detergents
have a “small inhibition effect on the friction reduction
effect,” i.e., the overbased compounds of Schlicht would
not be expected to interfere with the friction reducing
characteristics of ZnDTP. Id.; Ex. 1005 ¶¶ 7, 34.
On this record, Petitioner sufficiently explains why
one of ordinary skill in the art, needing to select an
appropriate overbased calcium sulfonate detergent for
use in Example 16, would have looked to the overbased
calcium sulfonate detergents of Schlicht. Accordingly,
Petitioner has demonstrated a reasonable likelihood that
the subject matter of claim 4 would have been obvious
over the combined disclosures of Toshikazu (Example 16),
Henderson, and Schlicht.
D. Asserted Obviousness of Claims 9, 16, and 17 over
Toshikazu (Example 16), Henderson, and Walker
Claim 9 depends from claim 8 and further requires
that “said molybdenum compound is a trinuclear
molybdenum compound.” Ex. 1001, 14:21–23. Claim 16

112a
Appendix C
depends from claim 15 and further requires that the
composition contain “from about 0.025 wt. % to 0.075 wt. %
phosphorus from the metal dihydrocarbyl dithiophosphate
compound.” Id. at 14:44–47. Claim 17 depends from claim
16 and further requires that the phosphorus from the
metal dihydrocarbyl dithiophosphate compound is “from
about 0.025 wt. % to 0.05 wt. %.” Id. at 14:48–51.
Petitioner contends the subject matter of claims 9,
16, and 17 would have been obvious over the combined
disclosures of Toshikazu (Example 16), Henderson, and
Walker. Pet. 43–47.
1.

Walker

Walker discloses crankcase lubricants for internal
combustion engines that are composed of “a lubricating
base stock, a dispersant, a metal dihydrocarbyl
dithiophosphate, and either a copper-containing compound
or a molybdenum-containing compound.” Ex. 1007, 1:3–5,
2:12–15. 8
Walker instructs that the molybdenum compound may
be selected from, among other things, molybdenum salts
of inorganic or organic acids or molybdenum compounds
comprising a “trinuclear molybdenum core.” Id. at
11:7–12:14. According to Walker, the trimer form of the
molybdenum compounds “may be represented by the
general formula Mo3SkLp,” wherein “L represents a ligand
8. We refer to the original page numbers of Walker, not the
page numbers Petitioner added.

113a
Appendix C
for example dithiocarbamate,” “p is in the range from 1
to 4,” and “k is at least 4, especially 4 to 10, preferably 4
to 7.” Id. at 12:6–11.
Walker discloses that “the phosphorus content of the
composition is at most 0.08% and preferably it is at most
0.06%, more preferably at most 0.05%, by weight of the
composition.” Id. at 2:26–29.
2.

Analysis—Claim 9

Petitioner presents evidence that the lubricant
of Example 16 of Toshikazu includes a molybdenum
dialkyldithiocarbamate compound. Pet. 43; Ex. 1005
¶ 49, Table 1. Dr. Smolenski testifies that one of ordinary
skill in the art would have understood that the trinuclear
molybdenum dialkyldithiocarbamate of Walker could be
substituted for this molybdenum dialkyldithiocarbamate
and would have been expected to exhibit “similar results”
to those disclosed in Example 16 of Toshikazu. Pet. 43–44
(citing Ex. 1002 ¶ 130).
When a known compound is altered “by the mere
substitution of one element for another known in the field,
the combination must do more than yield a predictable
result.” KSR Int’l Co v. Teleflex Inc., 550 U.S. 398, 416
(2007) (“The combination of familiar elements according
to known methods is likely to be obvious when it does no
more than yield predictable results.”). On this record,
Petitioner has demonstrated sufficiently for purposes
of institution that the substitution of the trinuclear
molybdenum dialkyldithiocarbamate of Walker for the

114a
Appendix C
dialkydithiocarbamate of Toshikazu would constitute
the mere substitution of one known element for another
known element and would yield a predictable result.
See Ex. 1007, 11:7–12:11 (disclosing a broad array of
acceptable molybdenum compounds, including those
containing a trinuclear molybdenum core). Accordingly,
Petitioner has demonstrated a reasonable likelihood that
the subject matter of claim 9 would have been obvious
over the combined disclosures of Toshikazu (Example 16),
Henderson, and Walker.
3.

Analysis—Claims 16 and 17

Petitioner concedes that the wt. % of phosphorus
imparted by the 0.96 wt.% sec-C3–6ZnDTP in Example 16
of Toshikazu is higher than the ranges recited in claims
16 and 17. Pet. 44 (citing Ex. 1002 ¶¶ 132, 137). Petitioner
contends, however, that one of ordinary skill in the art
would have been motivated to reduce the phosphorus
content of Example 16 “down to 0.05%” in view of both
Walker’s disclosure of maintaining phosphorus levels at
or below 0.05 wt. %, and in view of a proposed industry
standard limiting phosphorus in lubricating compositions
to 0.05%. Id. at 45 (citing Ex. 1014, 1; Ex. 1002 ¶¶ 133, 138;
Ex. 1007, 2:26–29). Petitioner further contends that one
of ordinary skill in the art reviewing the results reported
in Walker would have expected that a lubricating oil
composition with reduced loading of phosphorus would
work successfully “despite having a lower amount of
ZDDP.” Id. at 46 (citing Ex. 1002 ¶¶ 135, 140).

115a
Appendix C
Toshikazu discloses using 0.1 to 7 wt. % of at least one
organic zinc compound selected from the group consisting
of zinc dithiophosphate and zinc dithiocarbamate. Ex.
1005 ¶ 11, Claim 1. Thus, it appears that Toshikazu
contemplates using sec-C3–6ZnDTP at levels one ninth of
that used in Example 16. Given this disclosure, Walker’s
disclosure of successfully reducing the loading of metal
dihydrocarbyl dithiophosphate compounds in lubricating
compositions, and the known need for compositions with
phosphorus levels at or below 0.05 wt. %, we determine
that Petitioner has demonstrated a reasonable likelihood
that the subject matter of claims 16 and 17 would have
been obvious over the combined disclosures of Toshikazu
(Example 16), Henderson, and Walker.
E. Asserted Obviousness of Claims 1–3, 6–8, 10, 11,
13–15 and 18–20 over Toshikazu (Example 2) and
Henderson
Petitioner contends that the subject matter of claims
1–3, 6–8, 10, 11, 13–15 and 18–20 of the ’685 patent would
have also been obvious over the combined disclosures of
Example 2 of Toshikazu and Henderson. Pet. 47–67.
Similar to its ground based on Example 16 of
Toshikazu, Petitioner provides evidence that the
lubricating composition of Example 2 is of lubricating
viscosity and contains at least one calcium detergent, at
least one oil soluble molybdenum compound, at least one
organic ashless nitrogen-free friction modifier, and at
least one metal dihydrocarbyl dithiophosphate compound.
Pet. 47–51. Petitioner also presents evidence that the

116a
Appendix C
lubricating composition is substantially free of ashless
aminic friction modifiers, has a molybdenum content in an
amount from about 10 ppm to 350 ppm, and has a range of
calcium content from the calcium detergent and a range
of phosphorus content from the metal dihydrocarbyl
dithiophosphate that overlap with the ranges recited in
claim 1. Id. at 51, 54–55.
The lubricating oil of Example 2 differs from the
lubricating oil of Example 16 in that it has a mineral
base oil. Ex. 1005, Tables 1 and 2. This mineral base oil
is described in Toshikazu as a “150 neutral mineral oil,
kinematic viscosity at 100 ℃: 5.1 cSt.” Ex. 1005 ¶ 49.
Dr. Smolenski testifies that one of ordinary skill in the
art would have understood that a mineral base oil with
the disclosed kinematic viscosity “may have” a viscosity
index of greater than 95 and would have selected such a
base oil in view of Henderson’s disclosure that oils with
increased viscosity improve fuel economy and retention.
Ex. 1002 ¶¶ 146–148.
With respect to Noack volatility, Dr. Smolenski
testifies that the mineral base oil disclosed in Toshikazu
“may have a Noack volatility approaching 15 wt.%” and,
to the extent it does not, it would have been obvious to
replace it with one that did, such as a poly-α-olefin or
diester base stock, in view of Henderson’s disclosure that
a 15% Noack volatility limit had been proposed in the art.
Ex. 1002 ¶¶ 160–165; Pet. 51–53.
On this record, Petitioner has not demonstrated that
the mineral oil of Example 2 has a Noack value of 15% or

117a
Appendix C
less, as recited in claim 1. Nor has Petitioner demonstrated
that one of ordinary skill in the art could have and would
have modified the mineral oil of Example 2 to achieve the
claimed Noack values. At best, Petitioner demonstrates
that it was possible to achieve a mineral oil base with a
Noack value “approaching 15%.” See Ex. 1002 ¶ 160.
There is at least some evidence, however, to support
Dr. Smolenski’s testimony that one of ordinary skill in the
art, to the extent they could not formulate the mineral
oil of Example 2 to have a Noack volatility of 15% or less,
would have sought to use a poly-α-olefin and diester base
stock with a viscosity index above 95 and a Noack volatility
less than 15% as the base oil in Example 2 of Toshikazu.
First, Toshikazu indicates that “[t]here is no particular
limitation on the base oil used in the present invention, and
it is possible to use various types of mineral oils, synthetic
oils and so on that are known in the art.” Ex. 1005 ¶ 12.
Second, Henderson discloses that increased viscosity and
reduced Noack volatility improve the performance of base
oils, and Dr. Smolenski testifies that one of ordinary skill
in the art would have understood that the synthetic oil of
Toshikazu could be selected to have these properties. Ex.
1006, 2, 4; Ex. 1002 ¶¶ 146–148, 160–165. Accordingly, we
determine that Petitioner has demonstrated a reasonable
likelihood that the subject matter of claim 1 would have
been obvious over the combined disclosures of Toshikazu
(Example 2) and Henderson.
With respect to dependent claims 2, 3, 6–8, 10, 11,
13–15, and 18–20, Petitioner provides argument and
supporting evidence to explain where the combined

118a
Appendix C
disclosures of Toshikazu (Example 2) and Henderson
taught or suggested the subject matter of these claims. Pet.
55–65. Upon review of these arguments and Petitioner’s
supporting evidence, we determine that Petitioner has
demonstrated a reasonable likelihood that the subject
matter of claims 2, 3, 6–8, 10, 11, 13–15, and 18–20 would
have been obvious over the combined disclosures of
Toshikazu (Example 2) and Henderson.
F. Asserted Obviousness of Claim 4 over Toshikazu
(Example 2), Henderson, and Schlicht and Claims 9,
16, and 17 over Toshikazu (Example 2), Henderson,
and Walker
Petitioner contends that the subject matter of claim
4 would have been obvious over the combined disclosures
of Toshikazu (Example 2), Henderson, and Schlicht, and
that the subject matter of claims 9, 16, and 17 would have
been obvious over the combined disclosures of Toshikazu
(Example 2), Henderson, and Walker. Pet. 66–67. In these
grounds, Petitioner relies on “substantially the same
reasons as discussed above” for the grounds based on
Example 16 of Toshikazu. Id. Thus, for the reasons set forth
above, we determine that Petitioner has demonstrated a
reasonable likelihood that the subject matter of claim 4
would have been obvious over the combined disclosures
of Toshikazu (Example 2), Henderson, and Schlicht and
that the subject matter of claims 9, 16, and 17 would have
been obvious over the combined disclosures of Toshikazu
(Example 2), Henderson, and Walker. See supra §§ II.C–
II.D.

119a
Appendix C
III. CONCLUSION
For the forgoing reasons, Petitioner has demonstrated
a reasonable likelihood that at least one challenged claim
of the ’685 patent would have been obvious over the prior
art of record. Accordingly, we institute an inter partes
review on all claims and all grounds set forth in the
Petition.
IV. ORDER
It is hereby:
ORDERED that, pursuant to 35 U.S.C. § 314, an inter
partes review is instituted on all claims and all grounds
set forth in the Petition; and
FURTHER ORDERED that, pursuant to 35 U.S.C.
§ 314(c) and 37 C.F.R. § 42.4, inter partes review of the
’685 patent shall commence on the entry date of this Order,
and notice is hereby given of the institution of a trial.
PETITIONER:
Naveen Modi
Scott Peachman
Daniel Zeilberger
Michael Wolfe
PAUL HASTINGS, LLP
PH-Oronite-Infineum-IPR@paulhastings.com

120a
Appendix C
PATENT OWNER:
Christopher Strate
cstrate@gibbonslaw.com

121a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED APRIL 6, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-1333
INFINEUM USA L.P.,
Appellant,
v.
CHEVRON ORONITE COMPANY LLC,
Appellee,
ANDREW HIRSHFELD, PERFORMING
THE FUNCTIONS AND DUTIES OF THE
UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR
OF THE UNITED STATES PATENT AND
TRADEMARK OFFICE,
Intervenor.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201800922.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC

122a
Appendix D
Before Prost, Chief Judge, Newman, Lourie, O’M alley,
Reyna, Wallach, Taranto, Chen, Hughes, and Stoll,
Circuit Judges.*
Per Curiam.
ORDER
Infineum USA L.P. filed a combined petition for panel
rehearing and rehearing en banc. The petition was referred to the panel that heard the panel, and thereafter
the petition for rehearing en banc was referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 13, 2021.
For the Court
April 6, 2021
Date

/s / Peter R. M arksteiner
Peter R. Marksteiner
Clerk of Court

* Circuit Judges Dyk and Moore did not participate.

